<html>
<title> - APPLIANCE STANDARDS</title>
<body><pre>[Senate Hearing 111-24]
[From the U.S. Government Publishing Office]


                                                         S. Hrg. 111-24
 
                          APPLIANCE STANDARDS 

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   TO

RECEIVE TESTIMONY ON S. 598, THE APPLIANCE STANDARDS IMPROVEMENT ACT OF 
                                  2009

                               __________

                             MARCH 19, 2009


                       Printed for the use of the
               Committee on Energy and Natural Resources
                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

49-840 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 

























               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

BYRON L. DORGAN, North Dakota        LISA MURKOWSKI, Alaska
RON WYDEN, Oregon                    RICHARD BURR, North Carolina
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          SAM BROWNBACK, Kansas
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
ROBERT MENENDEZ, New Jersey          JOHN McCAIN, Arizona
BLANCHE L. LINCOLN, Arkansas         ROBERT F. BENNETT, Utah
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   JEFF SESSIONS, Alabama
DEBBIE STABENOW, Michigan            BOB CORKER, Tennessee
MARK UDALL, Colorado
JEANNE SHAHEEN, New Hampshire

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel



























                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     1
Connelly, Mark, Senior Director, Appliances & Home Improvement, 
  Consumers Union, Yonkers, NY...................................    42
McLean, Brian, Director, Office of Atmoshperic Programs, Office 
  of Air and Radiation, Environmental Protection Agency..........    10
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     2
Nadel, Steven, Executive Director, American Council for an 
  Energy-Efficient Economy (ACEEE)...............................    16
McGuire, Joseph M., President, Association of Home Appliance 
  Manufacturers..................................................    58
Pitsor, Kyle, Vice President, Government Relations, National 
  Electrical Manufacturers Association, Rosslyn, VA..............    34
Rodgers, David, Director, Strategic Planning and Analysis, Office 
  of Energy Efficiency and Renewable Energy, Department of Energy     3
Upton, Richard D., President and CEO, American Lighting 
  Association, Dallas, TX........................................    32

                                APPENDIX

Responses to additional questions................................    63


                          APPLIANCE STANDARDS

                              ----------                              


                        THURSDAY, MARCH 19, 2009

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:34 a.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Senator Jeff 
Bingaman, chairman, presiding.

OPENING STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW 
                             MEXICO

    The Chairman. Why don't we go ahead? I'm informed Senator 
Murkowski is on her way. But we should go ahead and proceed.
    This is a hearing on legislation to strengthen two programs 
that are central to improving the Nation's efficient use of 
energy. The DOE Appliance Standards Program and the joint 
Department of Energy and EPA, excuse me, Energy Star Program. 
It's estimated these programs have reduced national electrical 
demand approximately 10 percent below what it would have been 
absent these programs.
    Net savings to customers are estimated at over $400 
billion. Notwithstanding this success energy efficiency 
continues to be the most cost effective strategy for enhancing 
economic and energy security, saving consumers money and 
reducing the environmental impacts of energy production. S. 598 
which is the legislation that we've prepared on this would help 
to achieve these goals by expanding the Standards Program and 
by making several operational improvements.
    For example, S. 598 would establish Federal standards for 
table and floor lamps. This provision alone is expected to save 
enough electricity by 2020 to serve 350,000 homes.
    I understand that the witnesses will have recommendations 
to establish standards for additional products and to improve 
program operations and decisionmaking. I look forward to 
working with Senator Murkowski on these recommendations. See 
how we can proceed legislatively on them.
    I'm sorry the committee is unable to accommodate all of the 
requests we've had for folks to testify on this important set 
of issues. But I assure you the input of all stakeholders is 
appreciated. All written statements will be made part of the 
record.
    Members of the staff will be available to follow up on the 
ideas and concerns contained in all of the testimony. I 
recognize the vital role that energy efficiency advocates and 
industry associations play in these programs. We thank all of 
you for the commitment that you have to the Nation's economy 
and the Nation's energy security.
    I just went ahead with my opening statement, Senator 
Murkowski. If you wanted to make an opening statement, we'll go 
ahead and hear that. Then hear from the witnesses.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Great, thank you. Thank you, Mr. 
Chairman. I appreciate yet another committee hearing of 
substance.
    We've had a good full week of them. This is yet one more. 
This is another important step as we work to craft a 
comprehensive energy bill that's ultimately going to help 
improve our energy security.
    Today's bill S. 598 addresses the need for improved 
consensus appliance standards that increase energy efficiency. 
Have the potential to shrink the energy bills of average 
American families. I think for far too long we've let 
bureaucracy stand in the way of implementing consensus 
efficiency standards for appliances.
    Technology is out pacing our ability to set effective 
standards. So it's time that we streamline the process. I think 
that this bill sets us on the path. This bill will support and 
build upon the proven track record of DOE's Appliance Standard 
Program as well as the joint DOE/EPA Energy Star Program which 
has successfully promoted the sale of high efficiency products 
through labeling and marketing. In addition to establishing new 
minimum standards for various products including portable light 
fixtures the bill holds DOE accountable for implementation in a 
timely fashion.
    The U.S. has shown an ability to be a global leader in 
manufacturing innovation. Although there is a continued role 
for the government to play in the development of standards, it 
shouldn't be the government's primary role. We know that 
markets aren't perfect. But much of our success in the 
manufacturing arena is due to the ingenuity within the private 
sector. I think that this bill provides the necessary framework 
to ensure a good partnership between government and the 
industry.
    I look forward to the comments from the witnesses today and 
their help as we have drafted this legislation. Thank you, Mr. 
Chairman.
    The Chairman. Thank you very much. We have a very 
distinguished panel here. Let me introduce all six panelists. 
Then we'll hear from you in that order.
    First, Mr. David Rodgers, who is Director of Strategic 
Planning and Analysis with the Department of Energy and we 
welcome him.
    Next, Mr. Brian McLean, who is the Director of the Office 
of Atmospheric Programs in the EPA, thank you for being here.
    Next is Mr. Steven Nadel, who is the Executive Director of 
ACEEE here in Washington.
    Next, Mr. Richard Upton, President and CEO of the American 
Lighting Association, thank you for being here.
    Next, Mr. Kyle Pitsor, who is Vice President of Government 
Relations for the National Electrical Manufacturers Association 
in Rosslyn.
    Finally Mr. Mark Connelly who is the Senior Director for 
Appliances and Home Improvement at Consumer Reports, thank you 
very much for being here.
    Mr. Rodgers, why don't you go right ahead?

 STATEMENT OF DAVID RODGERS, DIRECTOR, STRATEGIC PLANNING AND 
  ANALYSIS, OFFICE OF ENERGY EFFICIENCY AND RENEWABLE ENERGY, 
                      DEPARTMENT OF ENERGY

    Mr. Rodgers. Thank you sir. Chairman Bingaman, Ranking 
Member Murkowski, members of the committee, thank you for the 
opportunity to appear before you today to discuss a draft 
legislation on appliance standards and Energy Star. I'd like to 
thank the committee for holding this hearing as well as for 
your leadership in the areas of energy efficiency and strong 
support for clean energy programs at the Department of Energy.
    Mr. Chairman, I know that energy efficiency is a priority 
for the committee. We are excited to work with you to advance 
the goal of making our homes, our offices, our factories and 
our vehicles more efficient. We look forward to working with 
you on this legislation.
    As directed by Congress the Department's appliance and 
commercial equipment standards program develops test procedures 
and energy conservation standards for residential appliances 
and commercial equipment. Standards promulgated by the 
Department and standards established by this committee save 
consumers money, spur innovation, conserve energy and reduce 
greenhouse gas emissions. On February 5 of this year, President 
Obama issued a memorandum to the Secretary of Energy requesting 
that the Department take all necessary steps to finalize 
legally required conservation standards rulemaking as 
expeditiously as possible and consistent with all applicable 
judicial and statutory deadlines.
    We're moving forward to meet the President's request. 
Specifically the Department will be completing 5 appliance 
standards rulemaking by August of this year and as highlighted 
in the President's memo these 5 rulemakings are likely to 
contribute up to 25 quads of energy savings over 30 years.
    The five standards rulemakings includes the codification of 
standards prescribed by Congress in the Energy Independence and 
Security Act.
    Standards for fluorescent and incandescent lamps.
    Beverage vending machines.
    Ranges and ovens.
    Certain commercial equipment covered by ASHRAE standards.
    With the Secretary's leadership I am pleased to report that 
the codification of the EISA standards rule was already sent to 
the Federal Register and should be published shortly. The 
notice on ASHRAE products is scheduled to be published in the 
Federal Register tomorrow. This is just a start.
    In the next 3 years the Department will also be revising 
standards for many, many additional categories of products. The 
Department is also proactively working with industry and 
stakeholders to improve and streamline our test procedures and 
enforcement of appliance standards. As you know appliance 
standards sets the minimum requirements for these residential 
and commercial appliances.
    Energy Star helps consumers and businesses to easily 
identify those highly efficient products that go beyond the 
minimum standards to save energy and money. DOE manages Energy 
Star program for eight product categories including clothes 
washers, refrigerators, dishwashers, room air conditioners, 
windows and doors, compact fluorescent lamps and solid state 
lighting and water heaters. We believe that these qualified 
products in the Department's portfolio have achieved 
significant energy and cost savings.
    Our analysis indicates as much as 55 billion kilowatt hour 
reduction in energy consumption. Eight billion saved on utility 
bills since 1997. Clothes washers have been a notable success 
when the program was first announced in 1997.
    Qualified models made up less than 1 percent of annual 
washer sales. As a result of Energy Star and appliance 
standards today every single washer sold in the U.S. meets 
those original Energy Star criteria. The technology continues 
to improve.
    Our compact fluorescent light program has helped increase 
the number of those lamps sold to nearly 300 million in 2007 
corresponding to a doubling of market share for these efficient 
products. We expect that to grow more.
    Our newest product categories are solid state lighting 
commenced in September of last year. Residential water heaters 
launched in January. Here again we're establishing criteria 
recognizes accelerating the best that industry has come to 
innovate.
    We have ten different solid state lighting products from 
four different manufacturers that are qualified to display the 
Energy Star label. These are available today. We're continuing 
to evaluate many other clean energy products as candidates for 
Energy Star labeling.
    With continually evolving market and technology 
improvements leading to greater energy efficiency the Energy 
Star program does require regular updates and improvements to 
protect the brand. We have been reminding our partners that 
they must fulfill their obligations as part of the Energy Star 
agreement.
    DOE is also establishing third party testing and 
verification for our managed appliance products. We have 
studied recent recommendations to improve Energy Star. Have 
adopted them for DOE managed products.
    Energy efficiency is the foundation to transform our 
Nation's energy economy and meet the President's goals. We're 
therefore committed to promulgating tough commercial and 
residential appliance standards developing Energy Star ratings 
for new product categories. We're modernizing and improving and 
tailoring these programs to market conditions and to be 
responsive to legislative and regulatory requirements. Our 
Nation deserves no less.
    Thank you for the opportunity to discuss these vital 
programs. I'm happy to answer any questions.
    [The prepared statement of Mr. Rodgers follows:]
 Prepared Statement of David Rodgers, Director, Strategic Planning and 
Analysis, Office of energy Efficiency and Renewable Energy, Department 
                               of Energy
    Chairman Bingaman, Ranking Member Murkowski, Members of the 
Committee, thank you for the opportunity to appear before you today to 
discuss draft legislation on Appliance Standards and ENERGY STAR. The 
Administration has not formulated an official position on the recently 
introduced legislation in its entirety, but I am happy to provide an 
initial comment as well as an overview and update of related programs 
at the Department of Energy (DOE).
    DOE and the U.S. Environmental Protection Agency (EPA) do not 
support Section 3 of the draft bill entitled ENERGY STAR Program, which 
directs agency coordination and standardization of program management. 
The Agencies believe that these purposes can be best addressed through 
Agency-led efforts to improve interagency coordination, identify and 
address issues where they arise, and increase communication with 
stakeholders about program processes and decision-making. The 
Administration is aware of these issues and is committed to addressing 
them and working with program stakeholders to continue to build on the 
success of the ENERGY STAR program and extend the benefits it provides 
in reduced energy use and fewer emissions of greenhouse gases. 
Specifically, the EPA and DOE will, within 45 calendar days, provide to 
the Committee written documentation on the resolution of these issues.
    As this Committee well knows, energy efficiency is the fastest, 
lowest risk, most economical way to address climate and energy security 
concerns. Improvements in energy efficiency can be made today, with 
significant benefits: the McKinsey Global Institute identified energy 
savings sufficient to cut world-wide consumption growth in half using 
only existing technologies that offer at least a 10 percent internal 
rate of return.\1\
---------------------------------------------------------------------------
    \1\ McKinsey Global Institute, ``Curbing Global Energy Demand 
Growth,'' May 2007.
---------------------------------------------------------------------------
    Mr. Chairman, I know that energy efficiency is a priority for you 
and your Committee, and we are excited to work with you to advance the 
goal of making our homes, offices, factories, and vehicles more 
efficient. The Department advances energy efficiency through a number 
of efforts, including promoting the adoption of energy efficient 
policies and practices; broadening consumer acceptance of energy 
efficiency as a high-priority, serving as a cost-saving energy 
resource; and accelerating market adoption of energy efficient 
technologies. The Appliances and Commercial Equipment Standards 
Program, as well as the ENERGY STAR Program, which is co-sponsored by 
EPA, are major components of the Department's energy efficiency 
efforts.
                          appliance standards
    The Department's Appliance and Commercial Equipment Standards 
Program develops test procedures and energy conservation standards for 
residential appliances and commercial equipment. These standards save 
consumers money, spur innovation, conserve energy, and reduce 
greenhouse gas emissions.
    The Appliance Standards Program was established with the passage of 
the Energy Policy and Conservation Act of 1975 (EPCA), which designated 
test procedures, conservation targets, and labeling requirements for 
certain major household appliances. The act has been amended several 
times, changing the conservation targets to mandatory standards and 
adding categories to eventually include a broad range of residential 
and commercial products. As amended, the appliance standards 
requirements are among the broadest and most stringent of any country 
in the world. In 2005, the Department was sued for allegedly failing to 
meet the deadlines and other requirements of EPCA. Deadlines for these 
specific products had been repeatedly missed, in some cases for a dozen 
years or more.
    In January 2006, the Department released its plan to eliminate the 
backlog on appliance standards by issuing one new or amended standard 
for each of the products in the backlog by June of 2011. This ambitious 
schedule reflects a 6-fold increase in standards activities compared to 
the previous 18 years. In addition to clearing the backlog of appliance 
standards, the Department is addressing additional standards and test 
procedure requirements included in the Energy Policy Act of 2005 (EPACT 
2005) and the Energy Independence and Security Act of 2007 (EISA).
    In November 2006, the Department entered into a consent decree, 
under which it agreed to publish the final rules for 22 product 
categories by specific deadlines, the latest of which is June 30, 2011.
    Although the Department has made significant progress on meeting 
its consent decree and the additional EPACT and EISA requirements, it 
remains subject to deadlines on 15 of the 22 product categories. On 
February 5, 2009, President Obama issued a memorandum to the Secretary 
of Energy requesting that the Department take all necessary steps to 
finalize legally required energy conservation standards rulemakings as 
expeditiously as possible and consistent with all applicable judicial 
and statutory deadlines.
    The Department is committed to fulfilling the President's request. 
Specifically, DOE plans to complete five appliance standards 
rulemakings by August 8th of this year, highlighted in the President's 
memo. The five standards rulemakings include the codification of 
standards prescribed by EISA, standards for fluorescent and 
incandescent lamps, beverage vending machines, ranges and ovens, and 
certain commercial equipment contained in ASHRAE Standard 90.1. In the 
next three years, the Department will also be revising standards for 
several additional categories of products, including residential air 
conditioners, refrigerators, clothes washers, and water heaters.
    While DOE has already been working at an increased pace to complete 
required rulemakings, the Administration's goal of using appliance 
standards to increase energy savings and avoid greenhouse gas emissions 
means that the Department is examining and reviewing operations to be 
even more efficient and productive. In addition, the Department has 
been proactively working to improve and streamline its test procedures 
and enforcement of appliance standards. The improved procedures will 
build upon DOE and industry best practices, creating a process for 
developing, reviewing, and updating test procedures that will be able 
to accommodate changes in designs and technologies.
    EISA added new flexibility into the rulemaking process that could 
contribute to the Department's productivity. Section 308 of EISA 
permits DOE to issue direct final rules in cases where a fairly 
representative group of stakeholders (including manufacturers, States, 
and efficiency advocates) jointly submit a recommended standard and no 
adverse public comments are received. This has the potential to 
eliminate months from the timeline for each consensus rule, usually a 
three-year process. EISA also authorizes DOE to consider the 
establishment of regional standards for furnaces and central air 
conditioners and heat pumps. The residential central air conditioner 
rulemaking, currently underway, is the Department's first opportunity 
to pursue the establishment of regional standards under the new 
authority. Furthermore, section 307 of EISA removes the requirement for 
DOE to publish an Advance Notice of Proposed Rulemaking (ANOPR) in 
rulemakings on energy conservation standards for certain residential 
products. In lieu of ANOPRs, DOE has begun to post analyses to its 
website and hold public meetings to receive stakeholder input on DOE's 
preliminary analyses.
    The Department is assessing the resource needs of the appliance 
standards team as well as determining how best to improve and or 
reengineer the underlying processes. The goal is to put sufficient 
resources (Federal and outsourced staff and funding) in place to ensure 
all requirements are met within given timelines and quality and content 
requirements. These resources will be applied to current activities 
(rule development) as well as to standards enforcement.
                              energy star
    Whereas appliance standards set the minimum requirements for 
residential appliances and commercial equipment, ENERGY STAR helps 
consumers and businesses to easily identify those highly-efficient 
products, homes, and buildings that go beyond the minimum standards to 
save energy and money while protecting the environment. ENERGY STAR is 
a voluntary labeling and recognition program co-sponsored by DOE and 
EPA that seeks to accelerate the adoption of clean and efficient 
domestic energy technologies. More than 12,000 organizations have 
joined ENERGY STAR as partners committed to improving the energy 
efficiency of products, homes and businesses, and the ENERGY STAR label 
appears on more than 60 product categories.
    DOE manages ENERGY STAR programs for eight product categories. This 
includes clothes washers, refrigerators, dishwashers, room air 
conditioners, windows and doors, compact fluorescent lamps (CFLs), 
solid state lighting (aka LED lighting), and water heaters. Together, 
these products target energy savings from six of the top seven areas of 
residential energy consumption.\2\ Products like clothes washers and 
refrigerators are also very visible to consumers, and are often cited 
as examples of products associated with ENERGY STAR.
---------------------------------------------------------------------------
    \2\ Based on 2006 data as summarized in the 2008 Buildings Energy 
Databook, http://buildingsdatabook.eren.doe.gov/?id=view_book&c=6. (The 
top seven residential end uses are space heating, space cooling, water 
heating, lighting, electronics, refrigerator, and wet cleaning. DOE 
products target all of these except electronics.)
---------------------------------------------------------------------------
    The Department estimates that sales of ENERGY STAR-qualified 
products in its portfolio have achieved significant energy and cost 
savings for America. DOE's biggest success has probably been with 
clothes washers. When the ENERGY STAR program for clothes washers was 
announced in 1997, qualified models made up less than one percent of 
annual unit sales. As a result of ENERGY STAR and appliance standards, 
today every single clothes washer sold in the United States meets those 
original ENERGY STAR criteria. Even with three revisions to strengthen 
the criteria, the market share of ENERGY STAR clothes washers has risen 
to more than 40 percent, and future changes are scheduled for this July 
and again in January 2011.\3\
---------------------------------------------------------------------------
    \3\ Source: http://www.energystar.gov/ia/partners/manuf_res/
2007FinalSalesData.xls.
---------------------------------------------------------------------------
    The CFL program, first launched in 1999, has also achieved large 
energy savings. Due in part to the ENERGY STAR Program and related 
campaigns, the number of CFLs sold in 2007 was nearly 300 million, 
corresponding to a doubling of the market share of the previous year 
from 8% to 20%.\4\ There is a national average of about four CFLs per 
home--with about 40 sockets per home, DOE sees a lot of additional 
energy savings potential from the continued promotion of CFLs.\5\
---------------------------------------------------------------------------
    \4\ The National Electrical Manufacturers Association of America 
(NEMA) and http://yosemite.epa.gov/opa/admpress.nsf/
dc57b08b5acd42bc852573c90044a9c4/970f05bf0bc5d9aa85257 
3d10055b38d!OpenDocument
    \5\ Source: http://www.energystar.gov/ia/products/downloads/
CFL_Market_Profile.pdf.
---------------------------------------------------------------------------
    The Department's newest product categories are solid state lighting 
(which commenced in September 2008) and residential water heaters 
(which just started in January). Here again, DOE established criteria 
asking manufacturers to create products beyond the norm, thus 
recognizing and accelerating the best of the best. The Department 
expects these two product categories will provide significant energy 
savings in the years to come. DOE is also continuing to evaluate 
several clean energy products developed at the Department of Energy as 
candidates for ENERGY STAR labeling.
    The Department has worked closely with retailers and utilities, 
whose efforts have been instrumental in building market share for 
ENERGY STAR lighting and appliances. DOE estimates that this year, 
utilities are planning to spend about $176 million on lighting rebate 
programs and $83 million for appliances.
    DOE has also implemented a number of education and outreach 
activities to help drive awareness and sales of ENERGY STAR products. 
The most recent examples include Operation Change Out, a partnership 
with the Department of Defense to promote the use of CFLs; and the 
Recycle my Old Fridge campaign, designed to encourage consumers to get 
rid of older second refrigerators.
    With a continually evolving market and technological improvements 
leading to greater energy efficiency, the ENERGY STAR Program requires 
regular updates and improvements to protect the ENERGY STAR brand.
    To this end, DOE has reminded its ENERGY STAR partners about their 
obligations under the test procedures when DOE learns that the 
procedures are not being followed. For example, the Department came to 
an agreement with LG Electronics, USA, Inc., in November 2008, in 
response to concerns about several refrigerator-freezer models. To 
effectively measure the savings associated with the ENERGY STAR 
Program, all partners must report energy consumption based on the same 
standardized test procedures. Those procedures require the ice maker to 
be disabled but require all temperaturecontrolled compartments, 
including ice storage bins, to be set at their coldest temperature, a 
condition missed by LG's testing. As part of a November 2008 agreement 
between the Department and LG, the refrigerator-freezers in question 
have been voluntarily withdrawn from the ENERGY STAR Program, and LG 
has agreed to provide free inhome modifications to products already 
sold to improve their energy efficiency. Consumers will also receive a 
payment covering the energy cost difference between the new measured 
energy usage of the product and the amount stated on the original 
Energy Guide label, as well as payments for future incremental energy 
usage for the expected useful life of the refrigerator. Under its 
agreement with DOE, LG will modify its test procedure to assure that 
customers have accurate information going forward.
    DOE is also establishing third party testing and verification for 
its managed appliance products beyond the testing and verification 
already underway for its lighting products. This new work follows some 
of the inquiries made in light of the LG issue and coincides with 
recommendations for program improvement.
                               conclusion
    DOE is continually working to seize the opportunities that energy 
efficiency provides to achieve greater savings of energy, electricity 
consumption, and greenhouse gas emissions. Some of the greatest 
opportunities for energy savings are in the appliances and products 
that consumers and businesses use every day. The Department is 
therefore continuing its progress in promulgating tighter commercial 
and residential appliance standards and, jointly with EPA, developing 
ENERGY STAR ratings for new categories of energy efficient products. 
DOE is constantly modernizing, improving, and tailoring the two 
programs to respond to changing market conditions, while being 
responsive to legislative and regulatory requirements.
    Thank you again for holding this hearing and for the opportunity to 
discuss the Department's Appliance Standards Program and ENERGY STAR. I 
am happy to answer any questions that the Committee Members may have.
    (Please see attachment for list of standards completed since EPACT 
2005 and rulemakings to be completed by 2011.)

                                                   ATTACHMENT
                                           APPLIANCE STANDARDS PROGRAM Standards Completed Since EPACT
              2005                                              Rulemakings to be Completed by 2011Package Terminal Air              ...............  EISA 2007 En Masse Standard
 Conditioners and HeatPumps
Distribution Transformers         ...............  Clothes Washers, Commercial
Residential Furnaces              ...............  Ranges and Ovens (Electric and Gas) and Microwave Ovens
Residential Boilers               ...............  Refrigerated Bottle or Canned Beverage Vending Machines
Small Furnaces                    ...............  Incandescent Reflector Lamps
Mobile Home Furnaces              ...............  General Service Fluorescent Lamps
Small Electric Motors             ...............  External Power Supplies, non-Class A (Determination)
 Determination
Ceiling Light Fan Kits            ...............  Small Electric Motors
Commercial Refrigeration          ...............  Water Heaters, Residential
 Equipment
EPACT 2005 En Masse Standard*     ...............  Direct Heating Equipment
                                  ...............  Pool Heaters
                                  ...............  High-Intensity Discharge Lamps (Determination)
                                  ...............  Refrigerators, Residential
                                  ...............  Fluorescent Lamp Ballasts
                                  ...............  Room Air Conditioners
                                  ...............  Clothes Dryers
                                  ...............  Central Air Conditioners and Heat Pumps
                                  ...............  Battery Chargers
                                  ...............  External Power Supplies, Class A
                                  ...............  ASHRAE 90.1 Products
                                  ...............  Residential Clothes Washers* The En Masse Standard codified Congressionally prescribed standards.


    The Chairman. Thank you very much.
    Mr. McLean.

  STATEMENT OF BRIAN MCLEAN, DIRECTOR, OFFICE OF ATMOSHPERIC 
PROGRAMS, OFFICE OF AIR AND RADIATION, ENVIRONMENTAL PROTECTION 
                             AGENCY

    Mr. McLean. Thank you. Good morning, Chairman Bingaman and 
members of the committee. I am Brian McLean. I'm Director of 
EPA's Office of Atmospheric Programs where EPA's energy 
efficiency and climate programs reside.
    I'm pleased to testify today concerning the Appliance 
Standards Improvement Act of 2009, particularly regarding 
Section 3 which proposes additional requirements for the 
implementation of the Energy Star program at the EPA and the 
United States Department of Energy. I want to comment on these 
additional requirements because they would have a significant 
impact on activities at the EPA as EPA manages about 90 percent 
of the Energy Star program within the Federal Government 
including more than 50 of the 60 product categories currently 
covered by the program as well as our work on new homes 
construction and commercial and industrial facility energy 
management strategies.
    I would like to make three points this morning.
    First, EPA appreciates the committee's interest in the 
Energy Star program. Energy Star has been an important part of 
improving energy efficiency and reducing greenhouse gas 
emissions across the country since initiated by EPA in 1992. 
The program has grown to not only promote efficient products, 
but also energy efficient management practices and services 
across the residential, commercial and industrial sectors.
    These sectors are responsible for about 55 percent of the 
carbon dioxide emissions from fossil fuel use in the country 
and their emissions are growing. Importantly these sectors 
offer large opportunities to reduce emissions of greenhouse 
gases at low cost. Costs that are about half those of building 
the new energy supply we would otherwise need.
    Energy Star helps capture these low cost reductions in 
greenhouse gas emissions by addressing barriers that stop these 
energy efficiency improvements from occurring. These barriers 
include:
    Split incentives between builders and buyers and landlords 
and tenants;
    Lack of consumer information; and
    High transaction costs among other things.
    As of 2007 EPA efforts with Energy Star are helping 
Americans avoid the greenhouse gas emissions equivalent to 
those of 27 million vehicles while saving $16 billion per year 
on energy bills. These efforts complement many other Federal 
and State policies and programs such as building codes, 
appliance standards, research and development and energy 
efficiency in public housing. The Energy Star program will 
remain important as climate legislation is advanced.
    Many of the market barriers present today that limit 
investment in low cost energy efficiency will exist even when 
climate legislation is passed, as many of these barriers are 
not substantially changed by the changes in energy prices 
likely to result from such legislation.
    Second, while EPA appreciates the committee's interest in 
the Energy Star program, EPA and DOE do not support Section 
Three of the bill, as currently written, which directs agency 
coordination and standardization of program management. The 
agencies believe that these purposes can be best addressed 
through agency led efforts to improve interagency coordination, 
identify and address issues where they arise, and increase 
communication with stakeholders about program processes and 
decisionmaking.
    The administration is aware of these issues, and is 
committed to addressing them and working with program 
stakeholders to continue to build on the success of the Energy 
Star program and extend the benefits it provides in reduced 
energy use and fewer emissions of greenhouse gases. 
Specifically, EPA and DOE will, within 45 days, provide the 
committee written documentation on the resolution of these 
issues.
    Third, many efforts are underway relative to provisions in 
the draft bill. EPA actively undertakes revisions in Energy 
Star specifications as market share grows and is addressing the 
need for enhanced testing of Energy Star qualifying products. 
Specifically, EPA collects market share data on Energy Star 
qualifying products annually, assesses which product categories 
warrant a revision based on a range of market factors, 
publishes the agency's plans and undertakes necessary 
revisions.
    EPA is currently revising seven specifications, completed 
important revisions last year such as with large screen 
televisions, and will take on additional revisions next year. 
EPA is also actively addressing additional testing of Energy 
Star label products.
    EPA manages a compliance audit program which includes 
verification testing administered by EPA using third party 
independent laboratories and quality assurance testing for 
lighting products in particular. EPA has now conducted 
verification testing across many product categories and is 
phasing in verification testing requirements as part of the 
Energy Star partnership starting with computers. Further, given 
the growth of the Energy Star program and the number of 
qualified products on the market, EPA is also working to 
leverage third party certification programs.
    In conclusion, I appreciate the interest of the committee 
in addressing issues that it believes will continue the success 
of the Energy Star program. EPA and DOE believe that these 
issues can best be addressed through agency processes. EPA is 
committed to working with DOE to address these issues and to 
report back to the committee.
    In addition, I hope my testimony has helped to illustrate 
activities underway at the EPA to keep Energy Star 
specifications up to date, and to enhance verification testing 
of products using the Energy Star label. Thank you.
    [The prepared statement of Mr. McLean follows:]
  Prepared Statement of Brian McLean, Director, Office of Atmoshperic 
 Programs, Office of Air and Radiation, Environmental Protection Agency
    Good morning, Chairman Bingaman and members of the Committee. Thank 
you for the opportunity to testify on behalf of the Environmental 
Protection Agency concerning the Appliance Standards Improvement Act of 
2009 (the Act) and the ENERGY STAR program. My name is Brian McLean and 
I am Director for the Office of Atmospheric Programs within EPA's 
Office of Air and Radiation, the office that oversees EPA's energy 
efficiency programs including the ENERGY STAR program. EPA has been 
very involved in promoting greater energy efficiency since 1991 because 
the way we use and produce energy is one of the largest contributors to 
greenhouse gas emissions and some criteria pollutants in this country.
                                overview
    My testimony is focused on Section 3 of the Appliance Standards 
Improvement Act, the section entitled the ENERGY STAR program. This 
section proposes additional requirements for the implementation of the 
ENERGY STAR program at the EPA and the US Department of Energy. I want 
to comment on these additional requirements because they would directly 
affect a broad set of activities at the EPA, as EPA manages about 90 
percent of the ENERGY STAR program across the federal government 
(including more than 50 of the 60 product categories, all of the work 
on ENERGY STAR new homes and all of the ENERGY STAR work to improve the 
energy efficiency of commercial and industrial buildings). I will also 
provide an overview of the EPA's role, experience, and key activities 
relative to the ENERGY STAR program in support of EPA's comments.
                    comment on section 3 of the act
    EPA and DOE do not support Section 3 of the draft bill entitled 
ENERGY STAR Program, which directs agency coordination and 
standardization of program management. The Agencies believe that these 
purposes can be best addressed through Agency-led efforts to improve 
interagency coordination, identify and address issues where they arise, 
and increase communication with stakeholders about program processes 
and decision-making. The Administration is aware of these issues and is 
committed to addressing them and working with program stakeholders to 
continue to build on the success of the ENERGY STAR program and extend 
the benefits it provides in reduced energy use and fewer emissions of 
greenhouse gases. Specifically, EPA and DOE will, within 45 calendar 
days, provide to the Committee written documentation on the resolution 
of these issues.
                        the energy star program
    In support of this recommendation I would like to review EPA's role 
and experience with the ENERGY STAR program and outline EPA's 
activities in several areas addressed in the Act.
    EPA introduced ENERGY STAR in 1992 as a voluntary labeling program 
to reduce greenhouse gas emissions by identifying and promoting energy 
efficient products.\1\ Since then, the program has grown to be a 
successful and important greenhouse gas mitigation and pollution 
prevention strategy, offering energy efficiency solutions across the 
residential, commercial, and industrial sectors. It has grown to not 
only promote efficient products but also energy efficient management 
practices and services across these three sectors. In each sector, the 
ENERGY STAR works to dismantle market barriers limiting investment in 
energy efficiency and bring practical solutions to the residential, 
commercial and industrial sectors.\2\
---------------------------------------------------------------------------
    \1\ EPA signed a Memorandum of Cooperation with DOE in 1996 
providing DOE with program responsibilities for a set of products and 
EPA with program responsibilities for other products, new home 
construction, and commercial building efforts.
    \2\ ENERGY STAR and Other Climate Protection Partnerships: 2007 
Annual Report (US EPA, 2008)
---------------------------------------------------------------------------
    The ENERGY STAR program will remain important as climate 
legislation is advanced. Many of the market barriers present today that 
limit investment in low cost energy efficiency will exist even when 
climate legislation is passed as many of these barriers are not 
substantially changed by the changes in energy prices which may result 
from such legislation.
    ENERGY STAR addresses the roughly 40%\3\ of carbon dioxide 
(CO<INF>2</INF>) emissions from fossil fuel use in the country that is 
associated with commercial and residential buildings, in addition to 
the CO<INF>2</INF> emissions from the industrial sectors. Improving the 
energy performance of residential and commercial buildings and 
industrial facilities in the United States offers a particularly large 
and cost-effective opportunity for realizing greenhouse gas reductions 
in both the near and long terms as documented recently in the 4th 
Assessment Report of the Intergovernmental Panel on Climate Change 
(IPCC) and the 2007 study by the consulting firm McKinsey & Company, 
``Reducing GHG Emissions: How Much at What Cost?''
---------------------------------------------------------------------------
    \3\ Inventory of U.S. Greenhouse Gas Emissions and Sinks: 1990-2006 
(US EPA, 2008)
---------------------------------------------------------------------------
    The program addresses market barriers such as split incentives 
between home builders and buyers, lack of information and awareness, 
high transaction costs, lack of qualified contractors, and lack of 
common measurement approaches for building energy efficiency. It 
complements the many other important energy efficiency policies 
undertaken throughout the Federal government such as appliance 
standards, R&D, and energy efficiency in public and federally-assisted 
housing.
    The results from the ENERGY STAR program for the products and 
services that EPA manages are substantial. In 2007, Americans with the 
help of EPA's efforts under ENERGY STAR, prevented 40 million metric 
tons of greenhouse gas emissions--equivalent to the annual emissions 
from 27 million vehicles--and saved more than $16 billion on their 
utility bills\4\. And these benefits are on track to nearly double\5\ 
in 10 years as more households, businesses, and organizations rely on 
ENERGY STAR for guidance on investing in energy efficient products, 
practices, and policies. Note that in December 2008, the EPA Inspector 
General (IG) reported that improvements were necessary to validate the 
ENERGY STAR benefits. The IG identified a number of steps for EPA to 
take to improve its benefits estimates which EPA estimates could have 
impacted the 2006 benefits estimates by 2 to 3 percent, either up or 
down. As this point, many of these steps have been completed and 
incorporated into the 2007 benefits estimates provided above. We are 
currently pursuing two additional expert and peer-reviews of the 
Agency's methods and will incorporate recommendations from these 
reviews as they become available.
---------------------------------------------------------------------------
    \4\ ENERGY STAR Overview of 2007 Achievements (US EPA, 2008)
    \5\ Ibid.
---------------------------------------------------------------------------
    Further, ENERGY STAR is now a national platform for energy 
efficiency with strong public recognition and positive influence on 
many consumer decisions; and it is a platform that can continue to 
expand and achieve greater results. Recent surveys show\6\:
---------------------------------------------------------------------------
    \6\ National Awareness of ENERGY STAR for 2007: Analysis of 2007 
CEE Household Survey. (US EPA, 2008)

  <bullet> More than 70% of U.S. households recognize the ENERGY STAR 
        label;
  <bullet> More than 35% of households knowingly purchased at least one 
        ENERGY STAR qualifying product in the last twelve months, and
  <bullet> Eighty percent of purchasing households say they are likely 
        to recommend ENERGY STAR to others showing that ENERGY STAR is 
        positioned for continued growth.

    And, more than 12,000 organizations have partnered with the ENERGY 
STAR program to advance energy efficiency across the key sectors in the 
US economy.\7\
---------------------------------------------------------------------------
    \7\ ENERGY STAR and Other Climate Protection Partnerships: 2007 
Annual Report (US EPA, 2008).
---------------------------------------------------------------------------
    EPA's responsibilities and strategies with the ENERGY STAR program, 
and which have led to the results cited above, constitute a large 
majority of the program and include:

  <bullet> Efficient Products. EPA manages the ENERGY STAR label across 
        about 50 product categories, and DOE offers the ENERGY STAR 
        label for almost ten additional product categories. The EPA-
        managed product categories include heating and cooling 
        equipment, consumer electronics, office equipment and certain 
        lighting. ENERGY STAR identifies efficient products above 
        federal minimum efficiency standards, where they exist; 
        however, for over half of the product categories, there are no 
        minimum efficiency standards. Many ENERGY STAR qualifying 
        products offer consumers savings of 30 to 60%, relative to 
        typical models, and up to 30 percent savings in a household 
        using all ENERGY STAR products.\8\
---------------------------------------------------------------------------
    \8\ ENERGY STAR and Other Climate Protection Partnerships: 2007 
Annual Report (US EPA, 2008).
---------------------------------------------------------------------------
  <bullet> Efficient New Home Construction. EPA has managed the ENERGY 
        STAR program for new homes since 1995. Today, ENERGY STAR 
        qualified homes are typically 20 to 30 percent more efficient 
        than standard homes. ENERGY STAR promotes the best available, 
        off-the-shelf technology as well as effective construction 
        practices. Significant numbers of new homes are being built to 
        ENERGY STAR requirements; about 12 percent of all new homes 
        nationally in 2007, with 20 percent or more market penetration 
        in 10 states and more than 20 metropolitan areas.\9\ More than 
        5,000 builders have partnered with EPA,\10\ offering ENERGY 
        STAR homes in every state in the country. EPA is developing the 
        next generation of ENERGY STAR specifications to make these 
        homes even more efficient.
---------------------------------------------------------------------------
    \9\ ibid.
    \10\ ibid.
---------------------------------------------------------------------------
  <bullet> Affordable Homes. EPA is working with the Department of 
        Housing and Urban Development (HUD), DOE, and others to bring 
        ENERGY STAR to HUD's major affordable housing programs, 
        particularly public housing. HUD now provides bonus points 
        through its competitive grant programs for use of the ENERGY 
        STAR label; both for products and new homes, and local 
        communities are also adopting the ENERGY STAR label as part of 
        HUD's formula grant programs. EPA has also worked with many 
        state housing finance agencies (HFAs) to promote ENERGY STAR 
        products and homes in their funding criteria for housing 
        projects.
  <bullet> Existing Home Improvements. EPA and DOE developed Home 
        Performance with ENERGY STAR as a whole-house retrofit program 
        that provides homeowners with guidance and services for going 
        beyond the purchase of efficient products and helping them tap 
        into the low cost efficiency improvements in their homes. This 
        program targets the low cost energy efficiency opportunities in 
        the more than 100 million existing homes in this country, 
        particularly the more than 40 million homes that were 
        constructed before the existence of modern energy codes.\11\ 
        EPA and DOE have now partnered with 20 State and local program 
        sponsors of Home Performance with ENERGY STAR and estimates 
        that these programs can help homeowners save 20 percent on 
        average on their energy bills. In addition, EPA has developed 
        an ENERGY STAR program for the proper installation of heating 
        and cooling equipment. Heating and cooling typically represent 
        almost 50 percent of a household energy bill, and studies 
        indicate that more than half of central air conditioners may be 
        improperly installed, leading to higher demand on peak energy 
        days.\12\
---------------------------------------------------------------------------
    \11\ U.S. Census Bureau. American Community Survey (2006).
    \12\ ENERGY STAR and Other Climate Protection Partnerships: 2007 
Annual Report (US EPA, 2008).
---------------------------------------------------------------------------
  <bullet> Commercial and Institutional Buildings. EPA has managed 
        ENERGY STAR programs in the commercial sector since 1993 and 
        now works with thousands of public and private organizations to 
        advance superior energy management at the organizational level, 
        provide a range of technical resources and trainings, and help 
        organizations achieve energy savings of 10 to 30 percent across 
        their entire suites of buildings. This includes an initiative 
        to assist small business and congregations that has engaged 
        more than 3,300 organizations.\13\
---------------------------------------------------------------------------
    \13\ Ibid.
---------------------------------------------------------------------------
  <bullet> Standardized Measurement and Labeling of Commercial Building 
        Energy Use. An important foundation of the ENERGY STAR program 
        is the EPA-developed standardized commercial building energy 
        performance rating system, like the miles per gallon rating for 
        vehicles, which compares the energy use of an individual 
        building against the national stock of similar buildings using 
        a 1 to 100 point rating system. EPA developed this system 
        because of a wide variation in commercial building energy use 
        (on a per square foot basis) that is not closely tied to the 
        age of the building or the presence or absence of newer 
        technologies. This system enables commercial building owners 
        and managers to measure how well building systems are 
        integrated, operated, and maintained and to set and measure 
        progress toward energy performance goals. The system now 
        applies to more than 70 percent of the commercial square 
        footage across the country and continues to grow. Commercial 
        building owners and operators have now used the system to rate 
        the energy efficiency of 83,000 buildings or about 16 percent 
        of commercial square footage in the country.\14\ The system is 
        being used by a number of states and municipalities to assist 
        in their building energy use disclosure policies. For example, 
        the State of California recently passed AB 1103 which requires 
        commercial building owners to disclose their energy performance 
        score at any time a property is leased, bought, sold or 
        financed. EPA also offers the ENERGY STAR label to the most 
        efficient of these buildings across the country. More than 
        6,200 commercial buildings have earned the ENERGY STAR label 
        and these buildings are using about 35% less energy than 
        average ones.\15\ Achieving the label is becoming increasingly 
        important. For example, CoStar, the leading multiple listing 
        service for U.S. Commercial real estate properties, now shows 
        which buildings for lease or sale have earned an ENERGY STAR 
        label, and the Minnesota Governor called for the achievement of 
        1,000 ENERGY STAR buildings across the state by 2010.
---------------------------------------------------------------------------
    \14\ ENERGY STAR Overview of 2008 Achievements (US EPA, 2009)
    \15\ EPA Press Release, March 3, 2009.
---------------------------------------------------------------------------
  <bullet> New Commercial Building Construction. EPA has offered ENERGY 
        STAR tools and resources for commercial new construction since 
        2004. The cornerstone of this effort is the Designed to Earn 
        the ENERGY STAR graphic which can be used on building plans for 
        buildings that have been designed to achieve ENERGY STAR 
        performance levels once in use. These buildings can apply for 
        the ENERGY STAR once there is sufficient data.
  <bullet> Industrial Energy Efficiency. EPA has managed an ENERGY STAR 
        industrial energy efficiency program since 2000. This program 
        area also promotes superior energy management at the 
        organizational level, provides a range of technical resources 
        and trainings, and helps organizations achieve significant 
        energy savings across all of their facilities. EPA works with 
        many diverse industrial organizations, through targeted efforts 
        with more than 15 specific industrial sectors, and through a 
        partnership with the National Association of Manufacturers to 
        reach medium and smaller sized organizations.
  <bullet> International Partners. EPA is working with international 
        partners, including Australia, Canada, the European Union, 
        Japan, New Zealand, and Taiwan, who are implementing one or 
        more parts of the ENERGY STAR program in their own countries 
        and regions.
               implementation of the energy star program
    EPA spends significant time and resources implementing the ENERGY 
STAR program in a consistent manner, protecting the integrity of the 
label and program, and supporting core activities across the entire 
ENERGY STAR program at EPA and DOE. EPA manages the following 
activities, several in conjunction with DOE:\16\
---------------------------------------------------------------------------
    \16\ Maintaining the Value of ENERGY STAR: 2007 Report (US EPA, 
2008)

  <bullet> Establishing ENERGY STAR requirements for product categories 
        using criteria that are employed consistently across the 
        program;
  <bullet> Revising ENERGY STAR product specifications once sufficient 
        progress is made to increase market penetration and there is a 
        new level for the ENERGY STAR requirements that is consistent 
        with the program criteria;
  <bullet> Monitoring the use of the ENERGY STAR logo use across the 
        40,000 or more products in which it is used to ensure proper 
        use as well as monitoring for use on ineligible products and 
        following up as necessary;
  <bullet> Having products tested to ensure ENERGY STAR labeled 
        products meet ENERGY STAR specifications and auditing buildings 
        to ensure they comply with requirements;
  <bullet> Developing, implementing, and monitoring third-party testing 
        programs for product categories where these testing programs 
        are determined to be necessary;
  <bullet> Assessing consumer awareness of and experience with ENERGY 
        STAR;
  <bullet> Tracking the partnership (and licensing) agreements with the 
        more than 12,000 program partners;
  <bullet> Assuring partner outreach and product labeling materials are 
        consistent with the ENERGY STAR program guidelines;
  <bullet> Providing consumer information through Website, hotline, and 
        publication distribution system; and
  <bullet> Evaluating the results of the program.

    Several of these areas are described in greater detail below as the 
Act includes related provisions.
Establishing and Revising ENERGY STAR Specifications
    EPA consistently follows a set of guiding principles, which have 
proven to address existing market barriers and lead to significant 
results, to establish the eligibility criteria for an ENERGY STAR 
product category.\17\ \18\ ENERGY STAR is designed to be easy for 
consumers as a binary (yes/no) label and is technology neutral across a 
product category to avoid having the government pick winners and losers 
or inadvertently locking in a specific approach. The criteria are 
established so that ENERGY STAR products will not sacrifice performance 
or quality and will offer energy savings with attractive paybacks to 
the buyer--such as two years or less--if there are higher initial first 
costs. Currently, two-thirds of the product categories under ENERGY 
STAR are offering efficient products with no price premium, and these 
product categories are providing the majority of the energy savings 
from the product labeling part of the ENERGY STAR program.\19\
---------------------------------------------------------------------------
    \17\ The ENERGY STAR Label: A Summary of Product Labeling 
Objectives and Guiding Principles, USEPA, 2003.
    \18\ Building a Powerful and Enduring Brand: The Past, Present, and 
Future of the ENERGY STAR Brand (Interbrand, 2007)
    \19\ Maintaining the Value of ENERGY STAR: 2007 Report (US EPA, 
2008)
---------------------------------------------------------------------------
    EPA collects product shipment data from participating manufacturers 
annually both to evaluate the impact of the program and to assess 
opportunities for specification revisions. To determine when a 
specification revision is necessary, EPA monitors the patterns of 
market share growth and other factors, such as relevant legislation, 
over time. EPA is currently engaged in seven product specification 
revisions as listed on the ENERGY STAR Web site. The market share of 
ENERGY STAR products for these product categories when EPA began the 
specification revisions ranged from 35 to 50 percent. EPA published a 
report in 2008 showing the market share of ENERGY STAR qualifying 
products in each product category for 2007 and whether or not the 
Agencies were considering a specification revision. When specification 
revisions are undertaken the principles outlined above are adhered to 
so as to maintain a consistent meaning of the program, or brand 
promise, from the consumer perspective.
Verification Testing to Ensure Compliance with ENERGY STAR Requirements
    EPA manages a Compliance Audit Program as part of its ENERGY STAR 
program efforts which includes verification testing administered by EPA 
using third-party independent laboratories and quality assurance 
testing for lighting products, in particular. EPA has now conducted 
verification testing across 14 product categories, and is phasing in 
verification testing requirements (in addition to qualification 
testing) as part of the ENERGY STAR partnership, starting with 
computers. In conjunction with increased verification testing, EPA has 
collaborated with accreditation bodies to establish requirements for 
laboratories testing ENERGY STAR products and is phasing in a 
requirement that qualification testing be conducted at impartial, 
accredited laboratories. For residential light fixtures, EPA has 
established quality assurance testing to drive enhanced quality 
assurance and quality control processes for manufacturers, which has 
been shown to be lacking for light fixtures. Further, given the growth 
of the ENERGY STAR program and the number of qualified products on the 
market, EPA is also working to leverage third-party certification 
programs.
                               conclusion
    ENERGY STAR is an important energy efficiency program for helping 
consumers and public and private organizations lower their costs and 
reduce emissions of greenhouse gases. We appreciate the interest of the 
Committee in addressing issues that it believes will continue the 
success of the program. However, EPA believes that Section 3 should be 
removed. EPA is committed to working with DOE to address the issues 
that need to be addressed and to report back to the committee on our 
resolution in 45 days. In addition, I hope my testimony has helped 
illustrate activities underway at the EPA to keep ENERGY STAR 
specifications up to date and to enhance verification testing of 
products using the ENERGY STAR label so as to help clarify that these 
issues can be addressed without additional legislation.

    The Chairman. Thank you very much.
    Mr. Nadel.

STATEMENT OF STEVEN NADEL, EXECUTIVE DIRECTOR, AMERICAN COUNCIL 
            FOR AN ENERGY-EFFICIENT ECONOMY (ACEEE)

    Mr. Nadel. Ok. Thank you, Mr. Chairman, madame ranking 
member.
    Federal appliance efficiency standards were first adopted 
in 1987 and have been augmented by Congress four times since 
then most recently in the 2007 Energy bill. The program has a 
long history of bipartisan support. In fact most of the 
appliance standards laws were signed by Republican Presidents 
beginning with President Reagan.
    My organization the American Council for an Energy 
Efficient Economy, known as ACEEE, estimates that these 
standards will reduce United States electricity use. Peak 
demand in 2010 by about 10 percent and will reduce overall 2010 
energy use by about 5 percent. These are very large savings. We 
estimate that net savings to consumers from standards that have 
already been adopted or already law will exceed more than $400 
billion.
    The majority of these standards have been set by Congress 
based on consensus agreements between manufacturers and energy 
efficiency organizations such as mine. At times this committee 
has put standards in bills that do not quite have consensus in 
an effort to push parties toward compromise before final 
legislation passes. This is what the committee successfully did 
in 2007 with general service incandescent lamp standards. Where 
there is not consensus Congress has often delegated decisions 
to DOE allowing each side to make their arguments and then 
having the Secretary make the final decision.
    The proposed Appliance Standards Improvement Act of 2009, 
sometimes abbreviated ASIA. Builds on these solid foundations 
and we support this bill. We thank Senators Bingaman and 
Murkowski for introducing this bill and for moving the 
discussion forward.
    The heart of ASIA is new efficiency standards on portable 
lighting fixtures such as floor and table lamps. The proposed 
standard was developed by the American Lighting Association, 
Mr. Upton and ACEEE and built largely on the standard adopted 
by California last year. The standard provides with a range of 
compliance options and will save substantial energy. We 
estimate that by 2020 this standard alone will save enough 
electricity to power 350,000 average American homes.
    ASIA also contains several useful reforms of the Appliance 
Standards and Energy Star programs that we also support. While 
this is a solid bill we believe it can be improved by 
incorporating several improvements.
    First, several technical amendments we suggest to the 
portable lighting fixture standard which are noted on the back 
of my testimony. I believe ALA has signed off on these. We've 
also signed off on one amendment I believe they are going to be 
suggesting.
    Second, the 2007 Energy bill contained several drafting 
errors and technical corrections to these errors should be 
incorporation in the new legislation. These have all been 
provided to staff and have the support of relevant trade 
associations.
    Third, we recommend adding new standards on outdoor 
lighting fixtures to the bill based on a proposal now being 
developed by Philips Lighting, ACEEE and other lighting 
manufacturers and energy efficiency groups. We plan to provide 
draft legislative language to committee staff within the next 
few days which we see as an initial draft, a work in progress. 
We hope to refine that working with manufacturers and others 
just as we did with the incandescent lamp standard.
    Fourth, we suggest that new standards be added to the bill 
on drinking water dispensers, hot food holding cabinets and 
portable electric spas. Pictures and descriptions of these 
products are contained in my written testimony. Standards on 
these products have been adopted in three to seven states 
depending on the product.
    We are now vetting this proposal with manufacturers. Have 
received positive initial responses. But we're still working 
with them to try to get final sign off.
    Fifth, Senator Menendez sent all of the witnesses here at 
this table some potential amendments to the Standards program. 
We support these amendments. Very briefly let me talk about one 
or two.
    First amendment would direct DOE to consider standards on 
incandescent reflector lamps that are now excluded from Federal 
standards. These are a type of lamp called a BR or a bulge 
reflector lamp. Here's a sample that has a slight bulge in the 
outside which basically differentiates it very slightly from 
current products.
    These are relatively low cost, relatively inefficient. 
There are efficient products made. This happens to be one by 
Philips.
    It's the type of product that Congress has already required 
for general service incandescent lamps. But the BR lamps are 
exempted. We suggest that you direct DOE to develop these 
standards so that lamps like this can become common practice.
    Second I will mention that provision about multiple metrics 
for standards. For many products a single metric isn't adequate 
for characterizing the efficiency of a product. Indeed as shown 
in our table in my written testimony, 11 times Congress has 
established standards using more than one metric.
    But DOE council has argued that DOE cannot issue standards 
with more than one network. Just last week DOE rejected a 
consensus standard for commercial furnaces only because it 
contained more than one efficiency requirement. The amendment 
that Senator Murkowski has floated would clarify that DOE can 
adopt standards with more than one metric, does not require 
multiple metrics it just allows them.
    Each standard will still need to be technically feasible 
and economically justified. Some manufacturers argue that 
multiple metrics on a product would be costly or onerous. But 
this is a type of argument they should make to DOE to say that 
this is not economically justified. We believe DOE should have 
the power to set the multiple metric standards and then the 
appropriate arguments to be made at the rulemaking level.
    In conclusion the various amendments we support would more 
than quadruple the energy savings resulting from this bill and 
would improve program implementation decisionmaking. We are 
open to discussing all of these suggestions with committee 
members and their staff and with manufacturers and other 
interested parties. We hope that consensus can be reached on 
modified versions of all of these provisions before legislation 
is signed into law.
    Thank you for your attention and I look forward to your 
questions.
    [The prepared statement of Mr. Nadel follows:]
   Prepared Statement of Steven Nadel, Executive Director, American 
            Council for an Energy-Efficient Economy (ACEEE)
                                Summary
    Federal appliance efficiency standards were first adopted in 1987 
and were augmented by Congress in 1988, 1992, 2005 and 2007. The 
program has a long history of bipartisan support. My organization, the 
American Council for an Energy-Efficient Economy (ACEEE), estimates 
that without these standards and subsequent DOE rulemakings, U.S. 2010 
electricity use and peak electric demand would be about 10% higher and 
U.S. total energy use about 5% higher. Net savings to consumers from 
standards already adopted will exceed $400 billion by 2030 (2008 $).
    The majority of these standards have been set by Congress, based on 
consensus agreements between manufacturers and energy efficiency 
advocates. But where there is not consensus agreement, Congress has 
often delegated decisions to DOE, allowing each side to make their 
arguments and having DOE make the decision.
    The proposed Appliance Standards Improvement Act of 2009 (ASIA) 
builds on these solid foundations and we support this bill. We thank 
Senators Bingaman and Murkowski for introducing this bill and moving 
the discussion forward on how best to improve the appliance standards 
program.
    The heart of ASIA is new efficiency standards on portable lighting 
fixtures, such as floor and table lamps. The proposed standard was 
developed by the American Lighting Association and ACEEE and builds 
largely on a standard adopted by California last year. The standard 
provides a range of compliance options and will save substantial 
energy--by 2020 this standard alone will save enough electricity to 
power 350,000 average American homes.
    ASIA also contains several useful reforms to the appliance 
standards and ENERGY STAR programs.
    While ASIA is a solid bill, we believe it can be improved by 
incorporating:

  <bullet> Several technical amendments to the portable lighting 
        fixture standard as described in my testimony;
  <bullet> Technical amendments to the standards adopted in EISA that 
        are needed to correct drafting errors;
  <bullet> Adding new standards on outdoor lighting fixtures, based on 
        a proposal now being developed by Philips Lighting, ACEEE, and 
        other lighting manufacturers and energy efficiency groups;
  <bullet> Adding new standards on drinking water dispensers (water 
        coolers) and hot food holding cabinets that are based on ENERGY 
        STAR specifications and have been adopted in California, 
        Connecticut, Maryland, New Hampshire, Oregon, Rhode Island, and 
        the District of Columbia;
  <bullet> Adding new standards on portable electric spas (hot tubs) 
        adopted in California, Connecticut, and Oregon;
  <bullet> Adopting several improvements to the appliance standards 
        program proposed by Senator Menendez that:

    --Direct DOE to consider standards on several types of reflector 
            lamps;
    --Allow states to help enforce federal standards in federal courts 
            using federal procedures;
    --Allow DOE to consider multiple standard metrics for products;
    --Provide states more flexibility to develop performance-based 
            building codes;
    --Simplify the process for states to obtain waivers from federal 
            preemption while keeping the main decision-criteria in 
            place; and
    --Direct DOE to undertake a rulemaking to establish regular 
            reporting of data needed to support the standards, ENERGY 
            STAR and related programs.

    These provisions would more than quadruple the energy savings 
resulting from ASIA and would improve program implementation and 
decision-making going forward. We are open to discussing all of these 
suggestions with Committee members and their staff, and with 
manufacturers and other interested parties, so that hopefully consensus 
can be reached on modified versions of all of these provisions.
                              Introduction
    My name is Steven Nadel and I am the Executive Director of the 
American Council for an Energy-Efficient Economy (ACEEE), a nonprofit 
organization dedicated to increasing energy efficiency to promote both 
economic prosperity and environmental protection. I have worked 
actively on appliance standards issues for more than 20 years at the 
federal and state levels and participated actively in discussions that 
led to enactment of federal standards legislation in 1987 (NAECA), 1988 
(NAECA amendments), 1992 (EPAct), 2005 (EPAct), and 2007 (EISA).
    Without these laws, plus subsequent DOE rulemakings updating some 
of these standards, ACEEE estimates that U.S. 2010 electricity use and 
peak electric demand would be about 10% higher and U.S. total energy 
use about 5% higher. Net savings to consumers from standards already 
adopted will exceed $400 billion by 2030 (2008 $).\1\
---------------------------------------------------------------------------
    \1\ Calculations from a forthcoming ACEEE report to be published 
spring 2009.
---------------------------------------------------------------------------
    However, much more savings are possible through a combination of 
further updates to existing standards, plus adding new products to the 
federal standards program. ACEEE estimates that U.S. energy use in 2030 
can be reduced by about 2.5 quadrillion Btu's (about a 2.2% reduction 
from projected levels) and carbon dioxide emissions can be reduced by 
about 165 million metric tons, a 2.6% reduction from projected 
levels.\2\
---------------------------------------------------------------------------
    \2\ Preliminary estimate of savings can be found at: http://
www.standardsasap.org/ documents/DOE_schedule.pdf. Percentage 
reductions are relative to reference case in EIA's 2009 Annual Energy 
Outlook.
---------------------------------------------------------------------------
    Fortunately, the federal standards program has a long history of 
bipartisan support, at the Committee level, on the House and Senate 
floors, and from Presidents of both major parties: standards laws have 
been signed by Presidents Ford, Carter, Reagan (two laws), George H.W. 
Bush, and George W. Bush (two laws).
    The foundation of these laws was adoption of consensus standards 
negotiated between appliance manufacturers and energy efficiency 
advocates. ACEEE has been involved in all of these negotiations. Most 
federal standards build on previous state standards: after several 
states adopt standards on a product, manufacturers generally prefer 
uniform national standards to a patchwork of state standards. But where 
manufacturers and efficiency advocates disagree, Congress has commonly 
delegated decisions to DOE, allowing each side to make its best case 
and then having the Secretary of Energy decide.
    The proposed Appliance Standards Improvement Act of 2009 (ASIA) 
builds on these solid foundations. We thank Senators Bingaman and 
Murkowski for introducing this bill and moving the discussion forward 
on how best to improve the appliance standards program. In the sections 
below I comment on the provisions in ASIA, and also on some additional 
provisions that we recommend be added to increase the energy savings 
achieved and improve the appliance standards program's processes.
                           Provisions in ASIA
    The heart of ASIA establishes new efficiency standards on portable 
lighting fixtures, such as the floor and table lamps most of us use in 
our homes. Other significant provisions in ASIA relate to appliance 
test procedures, a schedule for DOE to rule on petitions, compliance 
with federal standards, and ENERGY STAR. We discuss each in turn.
 standards for portable lighting fixtures and gu-24 lamps (sections 5 
                                 and 6)
    Standards for portable lighting fixtures and GU-24 lamps were 
established in California in 2008 and this provision makes this 
standard a national one (section 5). This standard transitions new 
fixtures away from use of inefficient screw-in incandescent lamps, and 
towards an array of more efficient choices including compact 
fluorescent lamps, LED lighting, or low/medium wattage halogen lamps. A 
variety of options are provided to manufacturers and consumers, so an 
appropriate choice can be found for all applications. For example, 
under the provision, there are two main compact fluorescent options--a 
dedicated ENERGY STAR compact fluorescent fixture or including ENERGY 
STAR screw-in compact fluorescent lamps in the box with the fixture. 
Consumers who truly dislike compact fluorescent lamps can use the 
included lamps in other sockets or give them to friends. The provision 
also builds upon current DOE and EPA ENERGY STAR standards for LED 
fixtures, providing guidance for an important emerging type of light.
    In addition, the GU-24 provision follows California rules to 
prevent a new type of universal compact fluorescent base (GU-24) from 
being used with incandescent lamps. Unlike present bases, the GU-24 
base can be used with many types of compact fluorescent lamps. 
Industry, utilities, and ENERGY STAR staff are planning to widely 
promote its use as a way to guarantee lighting energy savings. However, 
these efforts would be undermined if GU-24 incandescent lamps are 
introduced because no energy is saved if incandescent lamps are used in 
GU-24 fixtures. Section 6 would prevent this from happening.
    In the process of negotiating these federal provisions, a few 
refinements to the California regulations were negotiated between ACEEE 
and the American Lighting Association (the industry trade association 
for these products) to strengthen some of the requirements, gradually 
phase in the requirement for testing for whole system efficacy, and 
exclude purely decorative fixtures from the whole system efficacy 
requirements. For example, for LED fixtures over the 2012-2016 period, 
the bill permits these fixtures to either meet the current DOE ENERGY 
STAR LED fixture specification, or provides an option for a higher 
``light engine'' efficacy (``efficacy'' is a lighting industry term for 
efficiency), without requiring testing of whole system efficacy. As of 
2016, new standards will apply, to be developed by DOE by 2014. Given 
California's pioneering role, this provision also allows California to 
revise its current standard, but this authority expires in 2014. 
Similar provisions were included in EISA and EPAct 2005, when 
California standards were adopted as federal standards. These changes 
represent thoughtful compromises on these issues, compromises that have 
the support of both ACEEE and ALA.
    ACEEE estimates that this provision will reduce U.S. electricity 
use in 2020 by about 3.9 billion kWh, enough to serve about 350,000 
average U.S. residential customers for a year.\3\ These standards will 
reduce peak electric demand in 2020 by about 570 MW, equivalent to a 
typical new coal-fired power plant or two typical natural gas-fired 
power plants. Net present value financial savings to consumers will 
exceed $600 million from purchases through 2030, accounting for both 
the value of the energy saved and the modestly higher purchase cost for 
complying fixtures. By 2020, this standard will reduce carbon dioxide 
emissions by about 2.62 million metric tons, helping to make a 
significant dent in greenhouse gas emissions. This is equivalent to 
taking 485,000 cars off the road for a year.\4\
---------------------------------------------------------------------------
    \3\ At 11,000 kWh/year per household, per EIA data.
    \4\ Based on 12,000 miles/vehicle each year, a fuel economy of 20 
MPG, and 20 pounds of CO<INF>2</INF> emitted per gallon. There are 
2,204.6 pounds per metric ton. With these assumptions each car emits 
about 5.44 metric tons of carbon dioxide equivalent annually.
---------------------------------------------------------------------------
    While we support this provision, we think it can be improved in 
four respects:

          1. The bill references a specific Illuminating Engineering 
        Society (IES) specification for testing portable lighting 
        fixtures for overall efficiency. Since the bill also sets 
        standards for ``light engine efficacy,'' it should also 
        reference a pending IES specification for testing light engine 
        efficacy.
          2. The bill permits GU-24 fixtures as a compliance path, but 
        establishes no standards for these fixtures. We recommend that 
        the bill reference the same ENERGY STAR specification for GU-24 
        fixtures as it references for dedicated compact fluorescent 
        lamp fixtures. Since some GU-24 LED lamps are in development, 
        the legislation should make clear that LED fixtures with GU-24 
        sockets must meet the LED requirements in the bill.
          3. Change the maximum LED color temperature to 4000 K from 
        4200 K. 4000 K is a specific color category in the consensus 
        industry specification developed by the Illuminating 
        Engineering Society (IES). For this reason, there are no 4200 K 
        LED lamps. The IES specification allows some testing leeway, so 
        products do not need to be exactly 4000 K and still qualify.
          4. The bill also permits halogen fixtures up to 100 Watts, 
        but provides no efficiency standards for these products. We 
        recommend that halogen lamps be required to meet efficiency 
        levels similar to those Congress adopted for general service 
        incandescent lamps as part of EISA. We are now trying to 
        develop a specific proposal in discussions with ALA.

    Specific language changes for the first three of these 
recommendations are attached to my testimony. We will forward our 
suggested language on the final recommendation when discussions are 
completed.
                       appliance test procedures
    In 2007, EISA directed DOE to review and revise appliance test 
procedure changes over a seven-year period. But seven years is a long 
time and some revisions cannot wait. This provision allows interested 
parties to petition DOE to adopt changes to specific DOE test 
procedures. DOE reviews the proposal in line with established 
procedures and criteria and is given a deadline for making decisions. 
Direct final rules are permitted for consensus recommendations, per a 
provision added to the law in EISA. This provision thereby encourages 
consensus agreements that can accelerate updates and ease DOE's 
workload. It also requires timely responses from DOE to petitions, 
something that is a problem. As an egregious example, a petition 
submitted by the California Energy Commission in May 2008 to repeal a 
useless television test procedure from 1977 has not even been 
acknowledged, let alone acted upon.
           schedule for doe to rule on petitions (section 4)
    Current law has a provision permitting interested parties to 
petition DOE to revise a specific standard. However, no deadlines are 
provided. This section gives DOE 180 days to respond to the petition, 
and if the petition is granted, three more years to publish a final 
rule on the standard.
         studying compliance with federal standards (section 7)
    More than 40 products are now regulated and to our knowledge no one 
has ever conducted a systematic review on whether manufacturers are 
complying with the standard. Enforcement is important in order to 
ensure that energy savings are real, and to protect the vast majority 
of law-abiding companies from unscrupulous competitors. We have heard 
informal reports that some standards are not being fully followed. Some 
Congressional offices have expressed interest in improving standard 
enforcement. The first step in such efforts is to conduct a study to 
see what the problems are and where they lie. This provision would have 
DOE conduct such a study. We envision that DOE would hire one or more 
contractors to survey products on the market for each regulated product 
category, ascertaining as best as possible from available data which 
products are in compliance with standards and which are not. Such 
surveys would be made using the Web (manufacturer, wholesaler, and 
retailer sites), and by visiting a sample of retail stores. Some 
products on the market would be purchased and independently tested to 
see if they were in compliance or not.
                        energy star (section 3)
    ENERGY STAR has been a valuable and very successful program to 
promote the sale of high efficiency products. The program was started 
by EPA, but for many years DOE has taken the lead on some products, 
under the terms of an interagency MOU. In October 2008, Consumer 
Reports published a report on ENERGY STAR, finding a few problems. 
Specifically, they found that a few manufacturers were distorting 
refrigerator test results, and since the program relied only on 
manufacturer testing, there was no mechanism to catch this problem. The 
article also noted that some appliance specifications needed updating, 
as indicated by the fact that a majority of products on the market 
earned the ENERGY STAR rating, although DOE and EPA generally target 
the top 25% of products for the label. Our understanding is that the 
agencies have been working to address these problems, but Section 3 
requires them to take action. Specifically, it requires some type of 
independent certification or review of product testing for each 
product, while giving the agencies and each industry flexibility as to 
what type of certification/review most makes sense for a product. This 
provision also requires DOE and EPA to review the ENERGY STAR 
specification when the market share for a product category reaches 35%. 
If a review begins when market share reaches 35%, market share can grow 
considerably in the year or more it takes to complete the review, set a 
new specification, and put the new specification into effect. While 35% 
is a good review threshold for most products, there are exceptions 
(e.g., compact fluorescent lamps where ENERGY STAR is a quality mark 
and not just for the best products). Therefore, the provision permits 
the agencies to revise this percentage on a product-specific basis as 
part of their first review. We believe these provisions will improve 
the ENERGY STAR program, while giving the agencies needed flexibility.
                         Recommended Additions
    We recommend several additions to ASIA including technical 
corrections to EISA, adding several new product standards, and adopting 
some amendments to appliance standard processes and procedures as 
recently suggested by Senator Menendez.
                         technical corrections
    When the EISA conference negotiations were completed, a number of 
errors were made in compiling the final bill. We have worked with 
industry and Committee staff to identify these problems and develop 
suggested edits. We recommend that these technical corrections be added 
to the bill.
                          additional standards
    In addition to portable lighting fixtures, a number of other 
products are ripe for adding to the appliance standards program. Below 
we recommend four specific products. We are talking to industry about 
all of these products. We anticipate reaching consensus on all or most 
of these in the next month. Placeholder language for three of these 
products is provided as an attachment to my testimony. We will provide 
recommended legislative language for outdoor lighting fixtures shortly.
Outdoor Lighting Fixtures
    Outdoor lighting fixtures are generally fairly high wattage 
products and are on for many hours each night. Outdoor lighting 
accounts for about 8% of U.S. lighting energy use and 2% of U.S. total 
electricity use. The largest outdoor lighting uses are roadways 
(streets and highways) and parking lots.\5\ Current systems use a 
variety of lamp types, including incandescent, mercury vapor, low and 
high pressure sodium (yellowish light), and metal halide lamps. In the 
past few years, rapid technical strides have been made and a new 
generation of more efficient types is emerging including LED lighting 
and advanced metal halide and high pressure sodium lamps. In addition, 
efficiency can be improved with electronic ballasts, use of lighting 
controls. and improved fixture designs. Substantial energy can be saved 
by standards that steadily eliminate the least efficient fixtures from 
the market in favor of more efficient products.
---------------------------------------------------------------------------
    \5\ Navigant Consulting. 2002. U.S. Lighting Market 
Characterization. Washington, D.C.: Buildings Technologies Program, 
U.S. Department of Energy.
---------------------------------------------------------------------------
    Early this year Philips Lighting approached ACEEE and other 
efficiency groups\6\ to explore the possibility of new mandatory 
standards for outdoor lighting. Proposals have been prepared and 
legislative language is being drafted. Recently, this coalition has 
begun reaching out to other major lighting manufacturers to seek their 
input and support. This is the same process that was used to develop 
the standards on general service incandescent lamps in EISA.
---------------------------------------------------------------------------
    \6\ Alliance to Save Energy, Appliance Standards Awareness Project, 
and Natural Resources Defense Council
---------------------------------------------------------------------------
    In its current form, the proposed standard would regulate the whole 
system efficiency of new outdoor lighting fixtures with an initial 
requirement of 50 lumens per watt, effective 2011, rising to 70 lumens 
per watt in 2013 and 80 lumens per watt in 2015 (existing fixtures 
would not be affected). Additional provisions would require 2-level or 
dimming controls and good lumen maintenance (maintenance of light 
levels over time). Advanced LED, metal halide, and high pressure sodium 
systems would all comply, but old technologies would not. The proposed 
standards would also outlaw the ongoing sale of the least efficient 
high light output outdoor lamps. New, more efficient replacements are 
readily available.
    Philips Lighting has analyzed the likely savings from this standard 
and estimates that this standard would eventually save about 30,500 
million kWh per year from fixture efficiency improvements alone, once 
existing fixtures are fully replaced. The bi-level controls would add 
additional savings. They estimate annual carbon dioxide emissions 
reductions of more than 16 million metric tons and annual energy bill 
reductions of about $3.6 billion once all fixtures are replaced.\7\
---------------------------------------------------------------------------
    \7\ Cook, Keith. 2008. ``Proposed Outdoor Lighting Efficiency 
Standards''. Washington, DC: Philips Lighting.
---------------------------------------------------------------------------
Bottle-Type Water Dispensers
    Bottled water dispensers are commonly used in both homes and 
offices to store and dispense drinking water. Designs include those 
that provide both hot and cold water and those that provide cold water 
only. In 2000, the EPA issued a voluntary ENERGY STAR performance 
specification for standby energy of 1.2 kWh per day and 0.16 kWh per 
day for ``hot and cold'' dispensers and ``cold only'' dispensers, 
respectively. ``Hot and cold'' water dispensers tend to be much less 
efficient than ``cold only'' because they must maintain water tanks at 
two temperatures in a small space. The greatest factor determining 
energy efficiency is insulation of the water reservoirs. Older models 
of ``hot and cold'' dispensers often do not have insulated hot water 
tanks, which increases heat dissipation and standby energy waste. 
Adding insulation between the tanks and increasing existing insulation 
levels can reduce standby energy waste. A Pacific Gas & Electric Co. 
report found that a reduction from the baseline ``hot and cold'' 
dispenser daily energy consumption of 1.93 kWh to the proposed 1.2 kWh 
would save nearly 38% of annual energy consumption. The slight cost 
(about $12) to improve a basic unit to meet the proposed standard would 
be earned back in lower energy costs within about 6 months at national 
average energy prices. EPA data indicate that just over 40% of water 
dispensers sold meet the ENERGY STAR specification.\8\
---------------------------------------------------------------------------
    \8\ Nadel, S., A. deLaski, M. Eldridge, and J. Kliesch. 2006. 
Leading the Way: Continued Opportunities for New State Appliance and 
Equipment Efficiency Standards. Washington, DC: American Council for an 
Energy-Efficient Economy.
---------------------------------------------------------------------------
    In December 2004, the California Energy Commission adopted the 
ENERGY STAR standard for ``hot and cold'' dispensers as a mandatory 
standard, affecting units sold after January 1, 2006. Subsequently the 
same standard has been adopted in Connecticut, Maryland, New Hampshire, 
Oregon, Rhode Island, and the District of Columbia. We recommend that 
this same standard be adopted as a federal standard and that DOE be 
directed to develop a revised standard by 2013, effective three years 
later.
    I provide estimates of energy and economic savings for this 
proposal later in this testimony.
Commercial Hot Food Holding Cabinets
    Hot food holding cabinets are used in hospitals, schools and other 
applications for storing and transporting food at a safe serving 
temperature. They are freestanding metal cabinets with internal pan 
supports for trays. Most are made of stainless steel and are insulated; 
however, there are some models that are non-insulated and are often 
made of aluminum. The main energy-using components include the heating 
element and the fan motor.
    The ENERGY STAR specification sets a maximum idle energy rate 
issued for hot food holding cabinets of 40 Watts per cubic foot of 
measured interior volume. Appropriate insulation in hot food holding 
cabinets is the key mechanism to meet this specification. Insulated 
cabinets also have the advantage of quick preheat times, less 
susceptibility to ambient air temperatures, and a more uniform cabinet 
temperature. The recommended maximum idle energy rate translates to a 
78% annual energy savings of 1,856 kWh relative to a basic, inefficient 
model. These energy savings cover the estimated additional cost of more 
efficient units within 3 years. Data is uncertain, but it appears that 
about 40% of hot food holding cabinet sales meet this specification.\9\
---------------------------------------------------------------------------
    \9\ Ibid.
---------------------------------------------------------------------------
    In December 2004, the California Energy Commission adopted this 
level as a statewide minimum standard, effective January 2006. 
Subsequently the same standard has been adopted in Connecticut, 
Maryland, New Hampshire, Oregon, Rhode Island, and the District of 
Columbia. We recommend that this same standard be adopted as a federal 
standard and that DOE be directed to develop a revised standard by 
2013, effective three years later.
    I provide estimates of energy and economic savings for this 
proposal later in this testimony.
Portable Electric Spas (Hot Tubs)
    Portable electric spas are self-contained hot tubs. They are 
electrically heated and are popularly used in homes for relaxation and 
therapeutic effects. The most popular portable spas hold between 210 
and 380 gallons of water; however, some models can hold as much as 500 
gallons. ``In-ground'' spas are not included in this category.
    Over half the energy consumed by a typical electric spa is used for 
its heating system. Heat is lost directly during use and through the 
cover and shell during standby mode. Improved covers and increased 
insulation levels are key measures to improving efficiency and can 
decrease standby energy use by up to 30% for a spa of average-to-low 
efficiency. Another measure is the addition of a low-wattage 
circulation pump or improvements to pump efficiency that would 
generally save 15% of standby energy consumption of an average-
efficiency spa. Automated programmable controls, which would allow 
users to customize settings based on predicted usage patterns, are a 
third measure to improve efficiency and could save roughly 5% of a 
spa's standby energy consumption.\10\
---------------------------------------------------------------------------
    \10\ Ibid.
---------------------------------------------------------------------------
    In December 2004, the California Energy Commission (CEC) adopted a 
maximum standby energy consumption standard of 5 (V<SUP>2/3</SUP>) 
Watts for portable electric spas where V = the total spa volume in 
gallons and 2/3 means to the two-thirds power. Standby energy 
consumption represents the majority (75%) of the energy used by 
electric spas and refers to consumption after the unit has been 
initially brought up to a stable temperature at the start of the season 
and when it is not being operated by the user. The energy consumption 
calculation (V<SUP>2/3</SUP>) used by CEC approximates total spa 
surface area, which is directly related to standby energy use. A 
maximum standby energy requirement indexed to total spa surface area 
thus requires spas of all sizes to be equally efficient.
    The California standard is a modest initial effort and is probably 
met by the majority of spas now being sold. CEC estimates that the 
products meeting the standard cost $100 more than basic models. At 
national average energy prices, this additional cost is covered within 
4.3 years.\11\
---------------------------------------------------------------------------
    \11\ Ibid.
---------------------------------------------------------------------------
    Connecticut and Oregon have subsequently adopted the California 
standard. We recommend that the same standard be adopted as a federal 
standard and that DOE be directed to develop a revised standard by 
2013, effective three years later.
Estimates of Energy Savings
    The table below summarizes estimates of energy savings from the 
proposed new standards:
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                           2020 Peak Demand           2020 CO2 Emissions        Net Discounted Consumer
                 Product                   2020 kWh Saved (millions)        Reduction (MW)             Reductions (MMT)          Benefits (million $)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Portable lighting fixtures                                     3,856                         573                        2.62                         662
--------------------------------------------------------------------------------------------------------------------------------------------------------
Outdoor lighting fixtures                                     12,570          Small, on off-peak                        8.54              Not calculated
--------------------------------------------------------------------------------------------------------------------------------------------------------
Water dispensers                                                 250                          35                        0.17                         229
--------------------------------------------------------------------------------------------------------------------------------------------------------
Hot food holding cabinets                                        314                         103                        0.21                         291
--------------------------------------------------------------------------------------------------------------------------------------------------------
Portable electric spas                                           185                          43                        0.13                         104
--------------------------------------------------------------------------------------------------------------------------------------------------------
  Total                                                       17,175                         754                       11.67                       1,286
--------------------------------------------------------------------------------------------------------------------------------------------------------
Notes: Net Discounted Consumer Benefits are for purchases through 2030. 2020 kWh savings for outdoor lighting fixtures adapted by ACEEE from Philips
  estimates cited above, based on a 20 year average fixture life. CO2 savings are prorated based on ratio of kWh to CO2 savings for other products.

                          process improvements
    Senator Menendez on March 16, 2009 provided witnesses at this 
hearing with some potential amendments to ASIA and asked for comments. 
We support Senator Menendez's amendments and provide specific comments 
below. In general these amendments free DOE and states from 
restrictions that have hampered implementation of the standards and 
related programs. None of these amendments would set new standards 
directly, so to the extent particular manufacturers have concerns, they 
will be able to make these concerns known as part of formal DOE and 
state rulemaking proceedings. We are also open to discussing possible 
edits to these amendments based on suggestions from industry and 
others. We urge this Committee to encourage all parties to discuss 
these amendments and seek to reach consensus on them. Below we discuss 
each of these provisions and why they are needed.
Reflector Lamp Loophole
    EISA extended existing reflector lamp standards to some previously 
exempted lamps. DOE under the previous administration interpreted the 
EISA language to permanently bar DOE from addressing any other exempted 
reflector lamps, which was not the intent we agreed to when we helped 
negotiate the EISA language. The new administration is now reviewing 
this interpretation, but if there are legal doubts, Congress should 
correct the law.
    Due to this interpretation, final standards for incandescent 
reflector lamps due in June 2009 may include a huge loophole (about 30% 
of total sales) which will only grow bigger because these exempted 
lamps are lower cost than regulated products. The proposed amendment 
closes the loophole by requiring DOE to do a quick rulemaking to 
consider standards for the exempted products. The rulemaking is quick 
because it can build on the three-year rulemaking for related products 
that is now nearing completion. If manufacturers believe that standards 
for these products are not technically feasible and economically 
justified, they can make these arguments during the rulemaking. If DOE 
fails to complete the rulemaking on time, the standard DOE establishes 
this June for other reflector lamps would apply. Further, the amendment 
requires that DOE conduct a future rulemaking (completed by 2015) for 
reflectors which considers all technology on an equal basis rather than 
just incandescent technology.
    Traditionally, among incandescent lamps, reflector lamps have led 
in efficiency innovations. With EISA, general service incandescent 
lamps (the pear-shaped lightbulb) are moving towards advanced 
incandescent technology. The reflector lamp loophole is protecting some 
common reflector lamps from having to make this transition, even though 
the advanced technology can be applied--in fact, advanced incandescent 
products are presently available in retail stores for the main exempted 
category.
State Authority to Seek Injunctive Enforcement
    Compliance with federal standards is essential for achieving the 
expected energy savings. Under present law, only the federal government 
may bring enforcement actions, but since there is no federal budget for 
this, no significant enforcement is taking place. This amendment would 
allow states to bring their expertise and resources to bear on 
compliance by enabling them to seek injunctive enforcement of federal 
standards in federal court on an equal basis to the Federal government. 
All provisions of federal law apply. Such a provision was included in 
EISA for general service incandescent lamps. It should be extended to 
other regulated products.
Multiple Metrics
    The past two administrations have disagreed on whether DOE may set 
more than one standard for a product. For quite a few products Congress 
has imposed more than one standard for a product. Some examples are 
listed below.
------------------------------------------------------------------------
              Product                              Metrics
------------------------------------------------------------------------
Heat pumps                          Cooling efficiency and heating
                                     efficiency
------------------------------------------------------------------------
Clothes washers                     Energy Factor and Water Factor
------------------------------------------------------------------------
Dishwashers                         Energy Factor and Water Factor
------------------------------------------------------------------------
Residential boilers                 AFUE, restrictions on pilot lights
                                     and a control requirement
------------------------------------------------------------------------
General service incandescent lamps  Maximum Watts, minimum life
------------------------------------------------------------------------
 Fluorescent lamps                  Efficacy and color rendering
------------------------------------------------------------------------
External power supplies             Active mode efficiency and no-load
                                     mode watts
------------------------------------------------------------------------
Compact fluorescent lamps           Initial efficacy, lumen maintenance,
                                     lamp life, rapid cycle test
------------------------------------------------------------------------
Ceiling fans                        Efficient light kits, several
                                     control requirements
------------------------------------------------------------------------
Walk-in coolers and freezers        Insulation, glass, motor, control,
                                     lighting, and door requirements
------------------------------------------------------------------------
Ice-makers                          Energy use and water use
------------------------------------------------------------------------

    The list above includes two very different groups. Most combine two 
performance parameters, such as cooling efficiency and heating 
efficiency, where the product combines multiple energy-using functions. 
Some combine a performance standard with one or more prescriptive 
requirements, such as boiler controls and minimum life for lamps. This 
situation is critical for obtaining savings where energy-saving 
technology options have developed more quickly than rating methods have 
been revised, as in the case of boiler controls.
    Uncertainty about DOE's authority has caused several problems in 
recent years. In the current rulemaking for general service fluorescent 
lamps, DOE decided it was prohibited from revising the now outdated 
requirements for color rendering, even though both advocates and 
industry recommended that this part of the standard be updated. In 2007 
DOE turned down a consensus agreement on new residential boiler 
standards, requiring the parties to go to Congress to successfully ask 
that this provision be included in EISA. Similarly, just this past 
week, DOE declined to adopt new multi-metric standards for commercial 
warm air furnaces developed by the American Society of Heating, 
Refrigerating and Air-conditioning Engineers (ASHRAE).\12\ Another 
potential application of this authority is to require that some 
products have two-way communication interfaces, so they can communicate 
with the ``Smart Grid''. For example, some electric industry 
representatives have suggested that DOE consider such a requirement for 
electric water heaters.
---------------------------------------------------------------------------
    \12\ See pp 38 to 40 of the Proposed Rule made available on March 
12, 2009 by DOE at http://www1.eere.energy.gov/buildings/
appliance_standards/commercial/ashrae_products_docs_meeting.html but 
not yet published in the Federal Register. This proposed rule confirms 
an initial determination issued on July 16, 2008 (73 Fed. Reg. 40770). 
DOE asserts it lacks authority to adopt the ASHRAE requirements which, 
for commercial furnaces, would eliminate standing pilot lights, set a 
limit on jacket losses and require power venting or automatic flue 
dampers.
---------------------------------------------------------------------------
    The question is whether DOE, in revising standards, can also use 
more than one metric if such a standard is technically feasible and 
economically justified. The Clinton administration ruled that DOE has 
this authority; the Bush administration took the contrary view. If the 
law is this unclear, it should be clarified, as this amendment would 
do. This amendment does not require DOE to set any standards with 
multiple metrics; it just gives DOE the option. Even with this 
amendment, DOE cannot set a multiple metric standard if such a standard 
is not technically feasible or economically justified. Some 
manufacturers argue that multiple standards on particular products are 
costly or onerous. This is an argument they should make to DOE. 
Concerns some manufacturers have about some products should not affect 
DOE's ability to set appropriate standards for all products.
    This provision passed both the House and Senate in 2007 but was 
left out of EISA at the last minute. It should be adopted this year.
State Performance-Based Building Codes
    Under present law, states with performance-based building codes 
must use minimum-efficiency equipment when developing code 
requirements. Performance-based codes provide an overall level of 
performance and permit many paths for reaching these goals (e.g. more 
insulation, better windows, reduced air infiltration, or improved 
equipment). But if equipment is limited to only federal minimums, some 
states are finding they can't set strong enough codes to meet their 
energy and climate goals. Also, this part of federal law creates a 
loophole in performance based codes, as builders exceeding federal 
minimums can install less insulation, even though insulation lasts for 
the life of the building while equipment lasts for only one to two 
decades.
    The goal of these changes is to allow greater flexibility in 
performance-based codes to address equipment that is covered under 
federal appliance standards. This provision would allow states to use 
covered products with above-federal-minimum efficiency levels in 
formulating their building codes, while keeping the framework of 
preemptive federal standards. The proposed amendment includes two 
changes:

          1. The first change allows the use of above-federal-minimum 
        products in codes at an efficiency level set in the IECC or in 
        ASHRAE model code. Federal law already allows states to adopt 
        many commercial product standards in their codes at levels 
        above federal minimums if contained in an ASHRAE model code. 
        Creating a similar structure for residential products would 
        enable states to require the use of more efficient products in 
        construction covered by their prescriptive building codes at 
        levels set in a national standard-setting process. This is most 
        necessary for products for which a different efficiency makes 
        sense for new construction than for replacement. For some 
        products such as furnaces, it is often much less expensive to 
        install efficient products in new construction than in existing 
        homes.\13\
---------------------------------------------------------------------------
    \13\ Indeed, some builders find installing higher efficiency 
(condensing) furnaces (and power-vent water heaters) to be less 
expensive than using lower efficiency products, since it avoids the 
need for a conventional chimney.
---------------------------------------------------------------------------
          2. The second change allows states to offer options for 
        meeting their codes using above-federal-minimum covered 
        products as long as at least one option assumes covered 
        products at the level of federal standards, and that this 
        option is ``reasonably achievable using commercially available 
        technologies''. In other words, if a state set performance 
        requirements that were based in part on high efficiency 
        furnaces, they would have to provide an explicit pathway for 
        installing a minimum efficiency furnace, making up the lost 
        savings with other measures such as more insulation or improved 
        windows. This would enable states to establish a performance 
        standard that meets the needs of the state as long as they 
        provide a clear path for code compliance using covered products 
        that do not exceed federal-minimum efficiency standards.
Removing the Catch-22 from the State Waiver Petition Process
    Under current law, federal standards preempt state standards, 
unless a state submits and DOE approves an application for exemption 
from preemption. Such application must demonstrate that ``such state 
regulation is needed to meet unusual and compelling State or local 
energy or water interests'' and that such regulation ``will not 
significantly burden the manufacturing, marketing, distribution, sale 
or servicing of the covered product on a national basis.'' The detailed 
requirements for states to get waivers from federal preemption include 
submittal of information that may be obtainable only from 
manufacturers, who may oppose the waiver. The amendment would prevent 
DOE from denying a state a waiver from preemption for failing to 
provide information which manufacturers refuse to make available to the 
state. The amendment would also limit DOE from denying waivers to 
states for failing to explore every conceivable energy saving 
alternative to standards or for not having a formal state energy plan. 
States would still have to demonstrate that they meet the primary 
determination factors, as summarized above, but the provision would 
remove some secondary requirements that impose needless roadblocks on 
state action. Even with these amendments, states would still have a 
difficult case to make, but these amendments at least make it possible 
to make the case.
DOE Collection of Key Data for Making Standards Decisions
    The distribution of efficiency levels among products sold is a key 
piece of information for establishing new standards; however, DOE has 
sometimes failed to obtain such data in developing new rules. DOE 
usually asks for such information, but manufacturers sometimes decline 
to provide it. The amendment would require DOE to conduct a rulemaking 
to determine what data manufacturers must submit, inclusive of 
efficiency performance data, to enhance DOE decision making. Existing 
law includes provisions to protect confidential data. Improved data 
will help DOE's decision-making process for standards, and will also 
aid other programs such as ENERGY STAR. For example, in the past few 
weeks DOE posted data on ENERGY STAR product market share in 2007, but 
noted: ``The validity of the clothes washer data for quarter one and 
quarter three is questionable. It is expected that the incorrect coding 
of previously qualified units for these two quarters resulted in a 
higher than actual market share projection. The drop in refrigerator 
market share in the fourth quarter is also due to data from one 
retailer.''\14\ This data provision would help DOE to get accurate 
data.
---------------------------------------------------------------------------
    \14\ ``2007 Sales Data_National, State and Regional'' available at: 
http://www.energystar.gov/ index.cfm?c=manuf_res.pt_appliances.
---------------------------------------------------------------------------
                               Conclusion
    The proposed Appliance Standards Improvement Act of 2009 (ASIA) 
builds on past bipartisan appliance standards bills and we support it. 
The proposed portable lighting fixture standards will save enough 
electricity to power 350,000 average American homes while providing 
substantial flexibility to manufacturers and consumers. ASIA also 
contains several useful reforms to the appliance standards and ENERGY 
STAR programs.
    While ASIA is a solid bill, we believe it can be improved by 
incorporating:

  <bullet> Several technical amendments to the portable lighting 
        fixture standard as described in my testimony;
  <bullet> Technical amendments to the standards adopted in EISA that 
        are needed to correct drafting errors;
  <bullet> Adding new standards on outdoor lighting fixtures, based on 
        a proposal now being developed by Philips Lighting, ACEEE, and 
        other lighting manufacturers and energy efficiency groups;
  <bullet> Adding new standards on drinking water dispensers (water 
        coolers) and hot food holding cabinets that are based on ENERGY 
        STAR specifications and have been adopted in California, 
        Connecticut, Maryland, New Hampshire, Oregon, Rhode Island, and 
        the District of Columbia;
  <bullet> Adding new standards on portable electric spas (hot tubs) 
        adopted in California, Connecticut, and Oregon; and
  <bullet> Adopting several improvements to the appliance standards 
        program proposed by Senator Menendez that:

    --Direct DOE to consider standards on several types of reflector 
            lamps;
    --Allow states to help enforce federal standards in federal courts 
            using federal procedures;
    --Allow DOE to consider multiple standard metrics for products;
    --Provide states more flexibility to develop performance-based 
            building codes;
    --Simplify the process for states to obtain waivers from federal 
            preemption while keeping the main decision-criteria in 
            place; and
    --Direct DOE to undertake a rulemaking to establish regular 
            reporting of data needed to support the standards, ENERGY 
            STAR and related programs.

    These provisions would more than quadruple the energy savings 
resulting from ASIA and would improve program implementation and 
decision-making going forward. We are open to discussing all of these 
suggestions with Committee members and their staff, and with 
manufacturers and other interested parties, so that hopefully consensus 
can be reached on modified versions of all of these provisions.
    This concludes my testimony. Thank you for the opportunity to 
present these views.
                 Appendix: Specific Legislative Changes
Suggested Edits to Portable Lighting Fixture Standards in ASIA
    p. 16, line 2: At the end, add: ``and an approved IES test 
procedure for testing LED light engines.''

          Explanation: LM-79 doesn't cover light engines. IES is now 
        developing a test procedure for light engines and this should 
        be used once finalized and approved.

    p. 16, lines 16-18, reword to read as follows (edits underlined):

          ``(B) Be equipped with only 1 or more GU--24 line-voltage 
        sockets, not be rated for use with incandescent lamps of any 
        type, as defined in ANSI standards, and meet the requirements 
        of the ENERGY STAR program for Residential Light Fixtures, 
        Version 4.2.

                  EXCEPTION: GU-24 fixtures for LED lamps shall meet 
                the requirements of paragraph (C). in lieu of meeting 
                the requirements of the ENERGY STAR program for 
                Residential Light Fixtures, Version 4.2.

          Explanation: GU-24 should meet the applicable ENERGY STAR 
        requirements, thereby keeping poor quality, inefficient lamps 
        and fixtures from U.S. market. To prevent confusion, fixtures 
        for LED lamps are covered by paragraph (C) and not by the more 
        limited LED requirements in the Residential Light Fixture spec.

    p. 17, line 17: Change 4200K to 4000K.

          Explanation: 4000K is a standard temperature to LEDs and the 
        IES test procedure provides enough flexibility that it doesn't 
        have to be exactly 4000K to pass. This change conforms to 
        classes in the IES standard.
 Legislative Language for Water Dispensers, Hot Food Holding Cabinets 
                       and Portable Electric Spas
Sec. 321 is amended by adding at the end the following:
    (67) The term ``Water dispenser'' means a factory-made assembly 
that mechanically cools and heats potable water and that dispenses the 
cooled or heated water by integral or remote means.
    (68) The term ``Bottle-type water dispenser'' means a water 
dispenser that uses a bottle or reservoir as the source of potable 
water.
    (69) The term ``Point of use water dispenser'' means a water 
dispenser that uses a building's water pipes as the source of potable 
water.
    (70) The term ``Commercial hot food holding cabinet'' means a 
heated, fully-enclosed compartment with one or more solid or glass 
doors that is designed to maintain the temperature of hot food that has 
been cooked in a separate appliance. ``Commercial hot food holding 
cabinet'' does not include heated glass merchandizing cabinets, drawer 
warmers, or cook-and-hold appliances.
    (71) The term ``Portable electric spa'' means a factory-built 
electric spa or hot tub, supplied with equipment for heating and 
circulating water.
Sec. 323 is amended by adding at the end the following:
    (19) BOTTLE TYPE WATER DISPENSERS AND POINT OF USE WATER 
DISPENSERS.--Test procedures for bottle type water dispenser and point 
of use water dispensers shall be based on ``Energy Star Program 
Requirements for Bottled Water Coolers version 1'' published by the 
U.S. Environmental Protection Agency. Units with an integral, automatic 
timer shall not be tested using Section D, ``Timer Usage,'' of the test 
criteria.
    (20) COMMERCIAL HOT FOOD HOLDING CABINETS.--Test procedures for 
commercial hot food holding cabinets shall be based on the test 
procedures described in ANSI/ASTM F2140-01 (Test for idle energy rate-
dry test). Interior volume shall be based on the method shown in the 
U.S. Environmental Protection Agency's ``Energy Star Program 
Requirements for Commercial Hot Food Holding Cabinets'' as in effect on 
August 15, 2003.
    (21) PORTABLE ELECTRIC SPAS.--Test procedures for portable electric 
spas shall be based on the test method for portable electric spas 
contained in section 1604, title 20, California Code of Regulations as 
amended on December 3, 2008.
Sec. 325 is amended by adding after subsection (hh) the following:
    (ii) BOTTLE TYPE WATER DISPENSERS AND POINT OF USE WATER 
DISPENSERS.--

          (1) STANDARDS.--Effective January 1, 2012, bottle-type water 
        dispensers and point of use water dispensers designed for 
        dispensing both hot and cold water shall not have standby 
        energy consumption greater than 1.2 kilowatt-hours per day.

    (jj) COMMERCIAL HOT FOOD HOLDING CABINETS.--

          (1) STANDARDS.--Effective January 1, 2012, commercial hot 
        food holding cabinets with interior volumes of 5 cubic feet or 
        greater shall have a maximum idle energy rate of 40 watts per 
        cubic foot of interior volume. Commercial hot food holding 
        cabinets with interior volumes of less than 5 [tentative] cubic 
        feet or less shall have a maximum idle energy rate of x Watts 
        [value still being discussed].

    (kk) PORTABLE ELECTRIC SPAS.--

          (1) STANDARDS.--Effective January 1, 2012, portable electric 
        spas shall not have a normalized standby power greater than 
        5(V2/3) Watts where V=the fill volume in gallons.

    (ll) The Department of Energy shall consider revisions to the 
standards in subsections (ii), (jj) and (kk) in accordance with 
subsection (o) and publish a final rule no later than January 1, 2013 
establishing such revised standards, or finding that no revisions are 
technically feasible and economically justified. The revised standards 
shall take effect January 1, 2016.
Sec. 327 subsection (c) is amended by adding at the end the following:
    (10) is a regulation concerning standards for hot food holding 
cabinets, drinking water dispensers and portable electric spas adopted 
by the California Energy Commission on or before Jan. 1, 2013.

    The Chairman. Thank you very much.
    Mr. Upton.

  STATEMENT OF RICHARD D. UPTON, PRESIDENT AND CEO, AMERICAN 
                LIGHTING ASSOCIATION, DALLAS, TX

    Mr. Upton. Good morning. I'm Richard D. Upton, President of 
the American Lighting Association. Our headquarters are in 
Dallas, Texas.
    The American Lighting Association is a vertically 
structured association and we represent the residential 
decorative lighting industry. Our membership includes the 
designers, the manufacturers, the manufacturer's 
representatives and the lighting independent showrooms in the 
United States, Canada and the Caribbean. Our membership 
includes--it sounds like a lot, but it's only 1,500 companies 
because it's a small industry.
    Attending the hearing are nine members of our association 
including our chairman, Mr. Paul Eusterbrock. We're here to 
join with the National Association of Electrical Manufacturers, 
NEMA and ACEEE in endorsing this bill relative to the portable 
fixtures. The first action to gain efficiency on portables 
began in California last year.
    As you may know the California Energy Commission has been 
directed by their legislature to gain a 50 percent reduction in 
residential lighting by 2018. Over the last several years 
they've taken actions to meet their objectives. In 2008 one of 
their focuses became portable lighting fixtures.
    ALA advocates energy efficiency and the CEC working 
together with others were successful in delivering a series of 
recommendations to reduce energy consumption on portable 
fixtures. It's not in my written testimony but the savings is 
estimated by CEC to be 136 million kilowatt hours. Those 
recommendations were adopted and for the most part have been 
placed into this bill.
    Because government advocates in the lighting industry were 
able to develop and support an agreed upon set of requirements 
for portable fixtures. We believe we gain a favorable buy in 
from California consumers. Importantly get the buy in for 
moving to energy efficient products.
    The ALA, the ACEEE and NEMA have come together to recommend 
these actions be implemented nationally. By doing so, the 
country will benefit with an energy efficient program for 
portables. Our industry will be able to design and manufacture 
them based on a single set of efficiency specifications which 
is very important to an industry that's made up of so many 
small companies.
    One of the most positive aspects of the bill is there are 
several pathways for manufactures to follow that will provide 
customers choices and options in energy efficient portable 
lighting that they purchase which is especially important 
because portable lighting purchases are significantly a 
decorative purchase as well as a functional one. Those pathways 
include.
    A fluorescent light fixture that meets Energy Star 4.2 
requirements.
    A light fixture equipped only with a GU24 socket that is 
not rated for incandescent lamps.
    An LED fixture with a minimum of 200 lumens.
    A minimum light engine efficacy of 40 lumens per watt 
installed in fixtures with an efficacy of 29 lumens per watt or 
alternatively a light engine efficacy of 60 lumens per watt for 
fixtures that do not meet the 29 lumens per watt efficacy.
    A minimum LED light fixture efficacy of 29 lumens per watt 
and a minimum LED light engine efficacy of 60 lumens per watt 
would be required by the language by 2016.
    Fourth, a light fixture boxed with an Energy Star screw 
base, compact fluorescent lamp or LED lamp for each socket that 
are fully compatible with the fixture controls. In other words, 
if the fixture calls to be dimmable, the bulbs must be dimmable 
or three way. These options are also important in allowing 
consumers to achieve the proper application of lighting which 
is often overlooked.
    We will note that the Secretary of the Department of Energy 
is charged to review the regulations. Recommend changes that 
may be needed. We believe those reviews are appropriate in the 
timeframes recommended because expected changes in advancements 
in the industry will need those changes.
    We again would like to thank our partners in this effort, 
NEMA and ACEEE, for working with us to bring this recommended 
legislation to you which we think will be very successful 
simply because everybody has gotten together on the same page. 
When that happens then we don't have confused consumers. Thank 
you very much for the opportunity to address you.
    [The prepared statement of Mr. Upton follows:]
  Prepared Statement of Richard D. Upton, President and CEO, American 
                    Lighting Association, Dallas, TX
    My name is Richard D. Upton, and I am the President/CEO of the 
American Lighting Association (ALA).
    The ALA is vertically structured and represents the residential 
decorative lighting industry. Our membership includes the designers, 
manufacturers, manufacturers' sales representatives and independent 
retail lighting showrooms that manufacture and sell lighting, lighting 
controls and ceiling fan products in the United States, Canada and the 
Caribbean. Our membership includes 1,500 business members. Our office 
is located in Dallas, Texas.
    Attending the hearing are nine members of our association, 
including Mr. Paul Eusterbrock, the chairman of our association's Board 
of Governors.
    We are here to join with the National Electrical Manufacturers 
Association (NEMA) and the American Council for an Energy-Efficient 
Economy (ACEEE) to speak in favor of the Bill and to respectfully 
encourage you to pass it.
    The first action to gain energy efficiency in portable fixtures 
began at the California Energy Commission (CEC) in 2008.
    The CEC has been directed by the California Legislature to reduce 
the energy consumption of indoor residential lighting by 50 percent by 
2018. Over the last several years, they have taken actions to meet 
their objective, and in 2008, one of their focuses was on portable 
lighting fixtures. The ALA, advocates of energy efficiency, the CEC 
staff and others worked together successfully over several months and 
delivered a series of recommendations to reduce the energy consumption 
of portable fixtures.
    Those recommendations were adopted by the CEC and, for the most 
part, have been incorporated into this proposed Bill.
    Because government, advocates and the lighting industry were able 
to develop and support an agreed upon set of requirements for portable 
fixtures, we believe we will gain a favorable buy-in by California 
consumers, leading to an effective market transformation.
    The ALA, the ACEEE and NEMA have come together to recommend that 
the favorable actions taken by the CEC be implemented nationally. By 
doing so, the country will benefit with an effective energy efficient 
program for portable fixtures, and our industry will be able to design 
and manufacture them based on a single set of energy efficiency 
specifications.
    The latter is very important to portable lighting manufacturers. 
This segment of the industry is made up of many very small companies, 
and they cannot be successful if they are faced with multiple rules, 
regulations and reporting requirements by various states.
    One of the most positive aspects of the Bill is that there are 
several pathways manufacturers can follow that will provide consumers 
choices and options in the energy-efficient portable lighting they 
purchase. We believe this is especially important because portable 
lighting is, to a large extent, a decorative purchase.
    Portable fixture pathways include:

          1. A fluorescent light fixture that meets ENERGY STAR 4.2 
        requirements
          2. A light fixture equipped with only GU-24 sockets, not 
        rated for incandescent lamps
          3. An LED light fixture with:

          <bullet> A minimum of 200 lumens
          <bullet> A minimum light engine efficacy of 40 lumens per 
        watt installed in fixtures with an efficacy of 29 lumens per 
        watt or, alternatively, a light engine efficacy of 60 lumens 
        per watt for fixtures that do not have an efficacy of 29 lumens 
        per watt
          <bullet> A minimum LED light fixture efficacy of 29 lumens 
        per watt and a minimum LED light engine efficacy of 60 lumens 
        per watt by January 1, 2016.

          4. A light fixture boxed with ENERGY STAR screw-based compact 
        fluorescent lamps (CFLs) or LED lamps for each socket that are 
        fully compatible with fixture controls (i.e. dimmable, three-
        way, etc.)
          5. A light fixture with single-ended non-screw-based halogen 
        lamp sockets with a dimmer or low control and limited to 100 
        watts
    These options are also important in allowing the consumer to 
achieve the proper application of lighting in their home.
    We note the Secretary of the Department of Energy is charged to 
review the regulations and recommend changes that may be needed. We 
believe those reviews are appropriate, in the time frames outlined, 
because of expected changes and advancements in the industry.
    We again want to thank NEMA and the ACEEE for working cooperatively 
with us so we can bring you our collective endorsement of this Bill.
    Thank you for receiving our comments.

    The Chairman. Thank you very much for your testimony.
    Mr. Pitsor.

STATEMENT OF KYLE PITSOR, VICE PRESIDENT, GOVERNMENT RELATIONS, 
   NATIONAL ELECTRICAL MANUFACTURERS ASSOCIATION, ROSSLYN, VA

    Mr. Pitsor. Good morning, Mr. Chairman, Ranking Member 
Murkowski, members of the committee. On behalf of the National 
Electrical Manufacturers Association I'm Kyle Pitsor, Vice 
President for Government Relations. NEMA is the trade 
association for the electrical and medical imaging equipment 
manufacturing industry. Our approximately 430 member companies 
manufacture a broad range of products including smart grid 
technologies, energy storage and batteries, electric motors, 
transformers, light bulbs, indoor and outdoor lighting 
fixtures, thermostats, exit signs, circuit breakers, wire and 
cable and medical imaging products with domestic sales 
exceeding $100 billion and employing about 400,000 U.S. jobs.
    I'm pleased to be here today to present our association's 
views on the Appliance Standards Improvement Act of 2009. NEMA 
members are at the very heart of our national effort to reduce 
energy use through the research, development, manufacturing and 
deployment of energy efficient products and technologies. 
Advancing energy efficiency in our economy comes about through 
a mix of policy approaches, building codes, product standards, 
consumer education, labeling of products, voluntary programs 
like Energy Star, government procurement and energy tax 
incentives.
    NEMA urges the committee to support inclusion of the 
provisions to improve the operation and efficacy of a robust 
national appliance standards program and a strong Energy Star 
program. These two programs work hand in hand to advance the 
use of energy efficient products and technologies. It is 
important that operational coordination occur between the two 
programs.
    We offer the following recommendations with respect to the 
legislation.
    NEMA supports the use of recognized test procedures and 
requirements that a petition to amend current test procedures 
needs to contain substantive information on why the current 
procedure needs to be amended so as to prevent frivolous or 
general petitions lacking substantiation.
    Second, NEMA supports a direct final rule approach as 
provided in the legislation for broad consensus petitions to 
amend test procedures for covered products. Such petitions must 
have the broad support of manufacturers, utilities, advocates 
and other stakeholders.
    Third, the Energy Star program should regularly be reviewed 
for the qualification requirements. In a cost effective manner 
ensure that the Energy Star labeled products are able to 
demonstrate compliance with applicable Energy Star 
requirements. A one size fits all approach does not work for 
the over 50 Energy Star product categories. The agencies need 
to have flexibility in consultation with manufacturers and 
others in arriving at the appropriate compliance verification 
approach for that product.
    Based on marketing and stakeholder confusion due to 
competing and differing Energy Star programs for solid state 
lighting by the two agencies, NEMA and the American Lighting 
Association do support consolidating the Energy Star lighting 
activities under one agency at the Department of Energy due to 
its expertise in solid state lighting and lighting technologies 
generally. For over 2 years industry and others have been 
seeking the agencies to work out competing activities. But 
without success including the intervention of the White House 
Council Environmental Quality, I might add.
    Companies are investing in making decisions on new LED 
lighting. With conflicting Energy Star programs will impede 
introduction and acceptance of this developing lighting 
technology. NEMA is pleased to support in joining the 
establishment of new Federal efficiency standards for portable 
lighting fixtures such as table lamps and floor lamps as 
testified earlier today.
    NEMA believes that the study on compliance and enforcement 
in the bill should contain recommendations for improving 
enforcement. We also recommend that the General Accountability 
Office conduct the study in consultation with DOE. We are 
seeing some non compliance products come in from overseas. The 
study will provide Congress with recommendations on what 
changes may be needed to improve enforcement.
    Industrial electric motor driven systems use 23 percent of 
all electrical energy produced. There are significant 
opportunities at reducing those costs. We support the provision 
in the bill for DOE to conduct an assessment of the market and 
provide recommendations to improve the deployment of energy 
efficient motor systems.
    We are also, Mr. Chairman, working with the American 
Council for an Energy Efficient Economy and others on a 
proposal for a utility administered motor rebate program to buy 
down the cost of premium efficient motors to purchasers. We 
look forward to providing recommendations and authorization 
language for the committee to consider in this legislation. As 
Congress adds more responsibilities and deadlines to both DOE 
and EPA Congress needs to provide sufficient resources so these 
agencies can complete their missions.
    Since the outset of this program in 1975 a fundamental 
tenant of the Energy Policy and Conservation Act is the 
significant and outstanding principle of Federal preemption for 
overseeing Federal efficiency standards. Exceptions to Federal 
preemption were intentionally narrowed to avoid a patchwork of 
differing State requirements. NEMA urges Congress not to weaken 
this fundamental tenant going forward.
    NEMA also recommends the inclusion, as Mr. Nadel noted of a 
technical corrections package for EISA legislation that has 
come to light since it was introduced.
    Last, Mr. Chairman not included in my written statement. 
Just looking forward I think one of the things we need to be 
thinking about with respect to the Appliance Standards program 
and the Energy Star program is how those programs in energy 
efficiency in general are going to play out as we implement and 
develop a smart grid because the smart grid also impacts demand 
response in the home, at work and in businesses. Those 
communication protocols with dimming, smart sensors on motors, 
smart appliances will have an impact on the energy efficiency 
standards both administered by DOE and with respect to Energy 
Star products.
    So looking forward I think we need to take that into 
consideration how we structure the program so we don't have 
silos of these different programs. These programs are 
coordinated closely together. That completes my testimony. I 
welcome questions.
    [The prepared statement of Mr. Pitsor follows:]
     Prepared Statement of Kyle Pitsor, Vice President, Government 
 Relations, National Electrical Manufacturers Association, Rosslyn, VA
    Chairman Bingaman, Ranking Member Murkowski and members of the 
Committee: On behalf of the National Electrical Manufacturers 
Association (NEMA), I am Kyle Pitsor, Vice President for Government 
Relations. NEMA is the trade association of choice for the electrical 
and medical imaging equipment manufacturing industry. Our approximately 
430 member companies manufacture products used in the generation, 
transmission and distribution, control, and end-use of electricity, and 
represent about 400,000 jobs. These products are used in utility, 
medical imaging, industrial, commercial, institutional, and residential 
applications. Domestic production of electrical products sold worldwide 
exceeds $120 billion.
    I am pleased to be here today to present our Association's views on 
the importance and role of the national energy efficiency standards 
program and the Energy Star voluntary program, and to offer our 
comments on the ``Appliance Standards Improvement Act of 2009.''
    I would like to note that our member companies strongly support 
advancing energy efficiency in the marketplace. NEMA members and their 
employees are at the very heart of our national effort to reduce energy 
use through the research, development, manufacturing, and deployment of 
energy-efficient products and technologies. Many energy efficient 
technologies exist, and what we all must strive for is wider 
recognition, deployment, and use of today's state-of-the-art products 
and technologies, and support for emerging technologies.
    Advancing energy efficiency in our economy through greater 
deployment and use of energy efficient technology comes about through a 
mix of policy approaches: building codes, product standards, consumer 
education, labeling of products, voluntary programs like Energy Star, 
government procurement, and energy tax incentives.
    NEMA supports a robust national energy conservation standards 
program under the Energy Policy and Conservation Act (EPCA), as 
amended. We believe that a strong national program of standards, test 
procedures and labeling/information disclosure is critical to 
effectively maximize energy savings for the Nation and the consuming 
public. Products are manufactured and distributed on a national (and 
sometimes global) basis, and it is key that energy conservation 
regulation for products occur at the federal level.
    Mr. Chairman, I would like to provide our comment on the 
legislation and have organized our testimony based on the bill's 
sections. We also offer comment on several other topics following our 
section-by-section comments which we hope will be considered as the 
legislation moves forward.
               section 2: test procedure petition process
    The establishment of energy efficiency standards for federally-
covered products and equipment is predicated on the use of recognized 
and established consensus test procedures. Without agreed upon test 
procedures, it would be impossible to compare efficiency claims among 
products. The current program is based on incorporation of relevant 
test procedures within the regulatory program under EPCA.
    Once the Department of Energy (DOE), or in come cases Congress, 
establishes the test procedure for a regulated product, it is important 
that the test procedure be evaluated as time passes to ensure that it 
stays current with the energy efficiency levels mandated for the 
product. When DOE undertakes reviews of the efficiency standard for a 
product, it also undertakes a review of the applicability of the test 
procedure and whether it needs to be changed or not.
    We note that the Energy Independence and Security Act of 2007 (EISA 
2007) amended EPCA to require DOE to review test procedures for all 
covered consumer appliances and industrial equipment at least once 
every 7 years and to amend test procedures for any such product if DOE 
determined that the amended procedure would more accurately or fully 
comply with the EPCA requirement to be

          reasonably designed to produce test results which measure 
        energy efficiency, energy use, water use  . . ., or estimated 
        annual operating cost of a covered product during a 
        representative average use cycle or period of use . . ., and 
        shall not be unduly burdensome to conduct.

    The EISA 2007 amendment also directed DOE to publish notice in the 
Federal Register of any determination not to amend a test procedure.
    The proposed legislation would permit DOE to consider amending a 
test procedure as a result of petition, conduct a public rulemaking to 
determine if the test procedure should be amended or not, and set 
deadlines. It should be noted that the granting of the petition does 
not establish a presumption that the test procedure should be amended, 
only that DOE must undertake a rulemaking to make a decision on what 
changes to the procedure are warranted, if any, and to publish such a 
determination. In addition, for industrial equipment, the legislation 
would require DOE to conduct a test procedure rulemaking at a minimum 
of once every seven (7) years on a mandated basis.
    NEMA supports the need to keep test procedures current based on the 
use of recognized and established consensus test procedures. Petitions 
under the proposed legislative changes need to include detailed 
information on why a current procedure should be amended, otherwise we 
fear that very general petitions could be filed that would tie up DOE 
resources unnecessarily and be counterproductive to the administration 
of the appliance standards program.
    Section 2 also permits the DOE to adopt a ``consensus'' petition to 
amend a test procedure on an expedited basis per changes made in EISA 
2007 applicable to ``consensus'' petitioning to amend efficiency 
requirements. NEMA supported the changes to EISA 2007 for an expedited 
process via a direct final rule for new efficiency standards where 
there exists a broad consensus of stakeholders (including 
representatives of manufacturers, efficiency advocates, states, 
utilities, etc.). It is critical that such ``consensus'' petitions have 
broad support, and if they do, then considerable resources can be saved 
by the government and the private sector in a direct final rule. With 
respect to the current legislative proposal to extend this same 
approach to test procedures, NEMA supports the proposed change.
                     section 3: energy star program
    Since they help direct consumers to the leading edge and highest 
performing products and buildings in terms of energy efficiency and 
consumer satisfaction, the voluntary Energy Star market transformation 
programs must also undergo periodic review and updating to ensure they 
are meeting their mandate from Congress in the Energy Policy Action of 
2005 (EPACT 2005) to

          identify and promote energy-efficient products and buildings 
        in order to reduce energy consumption, improve energy security, 
        and reduce pollution through voluntary labeling of, or other 
        forms of communication about, products and buildings that meet 
        the highest energy conservation standards.

    In Section 131 of EPACT 2005, Congress specifically authorized the 
Energy Star program within the Department of Energy and Environmental 
Protection Agency (EPA). Further, Congress specified certain duties of 
the agencies including to preserve the integrity of the Energy Star 
label, to regularly update Energy Star product criteria, to solicit 
comments from interested parties prior to establishing or revising an 
Energy Star product category or specification, to provide a reasonable 
notice of any changes along with an explanation of the changes, and to 
provide an appropriate lead time (270 days) prior to the effective date 
of applicable changes.
    The legislation under consideration today further elaborates on the 
duties of the two agencies charged with administering the Energy Star 
program. We endorse the provisions encouraging measures to verify that 
Energy Star labeled products can demonstrate compliance with the 
program criteria and find that the approach taken in the legislation is 
properly balanced to ensure protection of the Energy Star brand and 
consumer interests while minimizing additional burdens on 
manufacturers. We stress the importance of providing flexibility to the 
agencies in determining the appropriate, if any, method by which 
compliance is demonstrated to Energy Star criteria by qualified 
products. Given the over 50 product categories in the Energy Star 
program, one scheme of verification of compliance is not appropriate 
for all products, and we are encouraged that the legislation as drafted 
allows for consideration of different approaches based on the product 
category in question. The determination of the appropriate approach 
must be conducted in an open and transparent manner by the respective 
agency in consultation with interested parties including manufacturers. 
We also support the application of a cost/benefit analysis provided for 
in the draft legislation.
    The draft legislation also establishes timetables for when the 
agency should undertake a review of the product criteria and 
specification. Each product category would be reviewed at least once 
every three (3) years or when the market share for an Energy Star 
category reaches thirty-five (35) percent. The market share trigger 
would be adjusted during the first review to take into account 
technology and market attributes for that specific product. We believe 
it is important for the respective agency to undertake periodic reviews 
of the specification, and we note that just because the market share of 
a particular product exceeds 35 percent it does not automatically mean 
that the specification is somehow out-of-date, since that determination 
is technology-specific for a product category. Indeed, what we are 
striving for is greater penetration of Energy Star products in the 
market place so one measure of success is higher market share of Energy 
Star products as compared to lower efficiency products. For example, in 
the case of Energy Star Compact Fluorescent Lamps, Energy Star CFLs 
comprise over 70 percent of the CFL products but CFLs represent only 25 
percent of the general lighting market, which is the target of the 
transformation effort.
    We also strongly endorse the requirement set out in this section 
for the Environmental Protection Agency and the Department of Energy to 
renew and update their 1996 Energy Star memorandum of cooperation. As 
specified in the legislation, the updated agreement should be based on 
resources and expertise available within each agency, as well as on 
other factors, provide for mechanisms to resolve disagreements between 
them, and include structures for regular consultations, planning 
sessions and program reviews.
    This brings me to our lighting industry's ongoing concerns and 
market confusion engendered by competing Energy Star programs within 
the Environmental Protection Agency and the DOE that address solid 
state lighting (SSL) technologies. SSL technologies like LED (light-
emitted diode) lighting represents a major paradigm shift from 
conventional lighting, and portends significant energy savings, if we 
do it right.
    As you may recall, Congress recognized the importance of SSL when 
it created Section 912 of the Energy Policy Act of 2005 (EPACT 2005) 
and authorized annually $50 million thru 2013. Section 912 directed the 
DOE to create a Next Generation Lighting Initiative ``to support 
research, development, demonstration, and commercial application 
activities related to advanced solid-state lighting technologies based 
on white light emitting diodes.'' NEMA is the secretariat of the Next 
Generation Lighting Industry Alliance, selected by DOE as its industry 
partner in this effort. NEMA and NGLIA member companies are deeply 
involved in the private-sector committees that are writing rigorous 
performance and testing standards for this technology area. Since the 
initial NGLI program plan was developed, an Energy Star program for 
solid state lighting has been one of the goals of the commercialization 
activity.
    In 2006, DOE began consultations with the lighting industry about 
possible requirements for an Energy Star program for solid-state 
lighting products. After many rounds of drafts, meetings and comments 
from the lighting industry and other stakeholders, Version 1.0 of the 
requirements were finalized in March 2008, and took effect September 
2008. DOE has also undertaken review of these specifications with a 
view to adding additional application categories in light of the 
dynamic changes taking place with SSL.
    During this process, I have personally written to both EPA and DOE 
on behalf of our industry several times to encourage the agencies to 
work together to resolve any disagreements and cease any redundant 
activities standing in the way of support for research, development, 
standardization, commercialization and consumer adoption of quality 
solid state lighting products. However, in June 2008, with apparently 
no coordination with DOE, EPA's Energy Star program for residential 
light fixtures began to allow qualification of fixtures that use solid 
state lighting as the primary source of illumination. As you might 
imagine, this caused some confusion and consternation in the 
marketplace, and among lighting manufacturers, market transformation 
organizations, and utilities. For example, Pacific Gas and Electric, a 
major California electric utility, stated openly that it would not 
recognize the EPA requirements.
    We raised our concerns about two competing and confusing 
specifications to both agencies, and also to the White House Council on 
Environmental Quality and we understood that the two agencies were 
directed to work out a way to cooperate in this important area, but 
each agency has seemingly continued to pursue its own path.
    Given the significant investments that companies are making in SSL 
technologies, we cannot afford market confusion and competing 
government programs. Accordingly, NEMA and American Lighting 
Association (ALA) recommend that Energy Star programs involving solid 
state lighting be under the jurisdiction of one agency, the Department 
of Energy. DOE has a solid expertise in SSL and it very familiar with 
lighting technologies and products.
               section 4: petition for amended standards
    The proposed legislation would establish deadlines for DOE action 
with respect to petitions to amend the efficiency requirements for 
products and equipment. This petition process would be in addition to 
the DOE process for considering updates to the efficiency standards. We 
note that the petition needs to contain detailed information on why the 
efficiency standards need to be revised, and that the granting of the 
petition does not presume that an amended efficiency standard is 
warranted, only that DOE will undertake a rulemaking to make a decision 
on amending the standards. In considering the petition proposed in the 
legislation, DOE should be able to take into consideration the review 
cycle for that particular product/equipment. Ramping up the necessary 
analysis and consultations with stakeholders is costly and DOE will 
need to have flexibility to make programmatic adjustments. NEMA 
supports appropriate deadlines for DOE to respond to petitions, taking 
into account these issues.
     section 5 and 6: portable light fixtures and gu-24 base lamps
    Portable light fixtures, such as table lamps, are presently not a 
federally-covered product. The legislation proposes to establish for 
the first time federal efficiency requirements and test procedures for 
portable light fixtures. This proposal is based in part on language 
adopted by the California Energy Commission during its Title 20 
rulemaking in 2008. NEMA participated in that rulemaking with respect 
to lighting products since we represent the manufacturers of light 
bulbs, including LED replacement bulbs, and we coordinated with the 
American Lighting Association (ALA), which represents manufacturers of 
the portable light fixtures themselves. NEMA supports the establishment 
of portable light fixture efficiency standards and test procedures 
under EPCA.
  section 7: study of compliance with energy standards for appliances
    NEMA strongly supports the need for a study of the appliance 
standards program and the level of compliance and enforcement of 
efficiency standards. Our industry has invested heavily in the federal 
program of efficiency standards, test procedures and product labeling, 
and are concerned about the levels of imported products that are not in 
compliance with federal requirements for certain federally-covered 
products. The study will be valuable in making recommendations on how 
our enforcement regime should be structured in light of today's global 
competitive environment.
    We also suggest that the General Accountability Office (GAO), in 
coordination with the Department of Energy, conduct the study of 
compliance, compliance options, and enforcement.
   section 8: study of direct current electricity supply in certain 
                               buildings
    The potential energy savings from the implementation of a DC 
electricity supply for individual buildings could be significant on the 
basis of elimination of the multitude of individual power supplies used 
for various information technology, audio-visual and other devices. Use 
of a centralized DC electricity supply would require major investment 
in new wiring devices (to prevent misconnection with existing systems), 
installers would need to establish new practices, and rules for safe 
use would need to be developed. The most practical use would be for new 
construction or major renovation, as separation of these circuits from 
the installed alternating current wiring must be maintained. A study 
would be highly beneficial to identify the key considerations and 
limitations for implementation of direct current electricity supply.
          section 9: electric motor-driven systems assessment
    Section 9 of this legislation is a requirement for the Department 
of Energy to conduct a motor market assessment and commercial awareness 
program. NEMA represents all of the major electric motor manufacturers. 
Electric motors convert 65-70% of the electrical energy used in 
commercial and industrial applications such as drive pumps, fans, 
compressors, material handling. The objectives of the Market Assessment 
are to develop a detailed profile of the current stock of motor-driven 
equipment in U.S. and survey how the installed base of industrial 
horsepower motors is broken down. This updated assessment will support 
future legislative, regulatory, and voluntary programs aimed at 
increased motor systems energy efficiency. Other items this study will 
accomplish are: characterize and estimate the magnitude of 
opportunities to improve the energy efficiency of industrial motor 
systems; survey how many systems use drives, servos and other higher 
technologies; how many systems use process control, by application 
category, pump, compressor, fan/blower, material handling. Furthermore, 
it will develop an updated profile of current motor system purchase and 
maintenance practices; how many companies have motor purchase and 
repair specifications, including company size, number of employees. And 
finally, it will develop methods to estimate the energy savings and 
market effects attributable to the DOE's Save Energy Now Program.
    In addition to serving DOE's program planning and evaluation needs, 
the market assessment is designed to be of value to manufacturers, 
distributors, engineers, and others in the supply channels for motor 
systems. It would provide a detailed and highly differentiated portrait 
of their end-use markets. For factory managers, this study presents 
information they can use to identify motor system energy savings 
opportunities in their own facilities, and to benchmark their current 
motor system purchase and management procedures against concepts of 
best practice.
                 outdoor lighting efficiency standards
    As I noted at the beginning of my testimony, NEMA members have been 
actively engaged and has a proven track record in supporting public 
policies that transform the U.S. market to more energy-efficient 
lighting, both at home and in the workplace.
    One area that we believe is now ripe for the establishment of 
national energy-efficiency standards is outdoor lighting. Outdoor 
lighting consumes over 178 TWh according to Navigant Consulting (data 
from 2007), the equivalent output of about 17 nuclear plants (1200 MW) 
or 34 coal-burning plants. We believe that federal efficiency standards 
should cover new street, roadway, parking and area lot applications, 
including major renovations. New federal standards, together with 
lighting controls, where appropriate, would drive the deployment of 
today's commercially available energy-efficient products and as well as 
new advanced solid-state lighting technologies, with the benefit of 
lowering energy bills and providing users with good quality lighting. 
We hope that a proposal to establish federal efficiency standards for 
outdoor lighting can be added to this legislation.
                           federal preemption
    A fundamental tenet of the Energy Policy Conservation Act, as 
amended, is the significant and longstanding principle of federal 
preemption for overseeing energy efficiency standards. The twin 
cornerstones of the ``comprehensive national energy policy'' enacted by 
Congress in 1975 to implement EPCA (S. Conf. Rep. No. 94-516 at 116 
(1975)) are:

          1. The establishment of national standards for energy 
        efficiency, testing and information disclosure for ``covered 
        products,'' and
          2. Express Federal preemption of State laws and regulations 
        respecting energy efficiency standards, testing, and 
        information disclosure for those covered products.

    The exceptions to Federal preemption were intentionally narrow: (a) 
State petitions for waivers required that States show there were 
``unusual and compelling State and local interests'' that were 
``substantially different in nature and magnitude from those of the 
Nation generally,'' so that achieving the waiver would be difficult; 
(b) State procurement standards would be permitted; (c) and a narrowly 
drawn exception for State and local building codes that must meet seven 
requirements. NEMA supports the current federal and state preemption 
provisions.
    NEMA supports a robust federal program set forth by Congress. For 
many federallycovered products, standards have been established by 
Congress in the various acts; in the case of other covered products, 
Congress has delegated to the Department of Energy and the Federal 
Trade Commission the authority to determine uniform national standards 
and policy. EPCA also provides for certain remedies where DOE misses 
statutory deadlines by permitting any person to commence a civil action 
against DOE where there is an alleged failure by DOE to perform any 
non-discretionary act or duty under EPCA. 42 USC '6305(a). EPCA 
requires the courts to expedite the disposition of such civil actions. 
Persons also have the right to petition DOE to commence a rulemaking to 
enact or amend a rule.
    I mention these matters because as Congress considers improvements 
to the federal program, we need to ensure that resources are provided 
so that the agencies charged with administering the program are able to 
do so. In the past, some have proposed weakening pre-emption because of 
missed deadlines, which ends up penalizing the manufacturers for 
government's lapse.
                     technical corrections to eisa
    Mr. Chairman, since the passage of the Energy Independence and 
Securities Act of 2007 (EISA 2007), several items have been identified 
that warrant ``technical correction'' to address implementation issues 
and obtain clarification. Over the past 15 months, since the passage of 
EISA, NEMA has been working closely with various stakeholders, several 
of which are testifying today, in obtaining a consensus agreement on a 
technical corrections bill. We have agreed on a package of non-
controversial corrections and we urge consideration of inclusion of a 
technical corrections package as part of the Appliance Standards 
Improvement Act of 2009.
                               conclusion
    In conclusion, NEMA urges the Committee to support inclusion of 
provisions to improve the operation and efficacy of the Appliance 
Standards Program and the Energy Star Program. These two programs work 
hand-in-hand to advance the use of energy efficient products and 
technologies, and it is important that operational coordination between 
the two programs occur. NEMA members are committed to advancing the use 
and deployment of energy efficient technologies, and offer the 
following recommendations:

          1. NEMA supports use of recognized test procedures and that a 
        petition to amend a current test procedure needs to contain 
        detailed information on why current test procedure needs to be 
        amended in order to prevent general petitions lacking 
        substantiation.
          2. NEMA supports a direct final rule approach for broad 
        ``consensus'' petitions to amend test procedures for covered 
        products and equipment.
          3. Energy Star programs should regularly review their 
        qualification requirements and, in a cost-effective manner, 
        ensure that Energy Star labeled products are able to 
        demonstrate compliance with applicable Energy Star 
        requirements.
          4. Based on market and stakeholder confusion due to competing 
        Energy Star specifications and programs for solid state 
        lighting, we support consolidating Energy Star solid state 
        lighting activities in one agency, the Department of Energy.
          5. Support the establishment of federal energy efficiency 
        standards and test procedures for portable lighting fixtures.
          6. The study on compliance and enforcement of the appliance 
        standard program should contain recommendations for improving 
        enforcement and we recommend that the General Accountability 
        Office conduct the study in consultation with DOE.
          7. NEMA supports the Motor Assessment study and the study on 
        benefits and costs of Direct Current supply in certain 
        buildings.
          8. We support inclusion of a negotiated consensus proposal on 
        energy efficient standards for outdoor lighting in the 
        legislation.
          9. Congress needs to provide sufficient resources for the 
        national standards program and support for federal-preemption.
          10. Recommend inclusion of an ``EISA 2007 Technical 
        Corrections'' package as part of the legislation.

    Mr. Chairman, Ranking Member Murkowski and Members of the 
Committee, thank you very much for the opportunity to provide these 
remarks and recommendations to the Committee today on behalf of our 
industry.

    The Chairman. Thank you very much.
    Mr. Connelly.

 STATEMENT OF MARK CONNELLY, SENIOR DIRECTOR, APPLIANCE & HOME 
           IMPROVEMENT, CONSUMERS UNION, YONKERS, NY

    Mr. Connelly. Good morning, Chairman Bingaman, Ranking 
Member Murkowski and distinguished members of this committee. I 
am Mark Connelly, Senior Director of Appliance and Home 
Improvement for Consumers Union publisher of Consumer Reports. 
Thank you for providing me the opportunity to address this 
committee regarding legislation to improve appliance standards. 
An issue that is not only critical for our energy security, but 
important to consumer's pocketbooks.
    Consumer Union has been publishing our test results and 
informing consumers for more than 70 years, currently reaching 
approximately eight million subscribers through our print and 
online publications. I now run the appliance testing program 
for Consumer Reports. Have worked in appliance testing 
laboratories for more than 20 years.
    The Energy Star program has been successful in raising 
consumer's awareness of energy efficiency as an important 
consideration in purchasing decisions. But Energy Star needs to 
keep up with the changing marketplace in order to stay 
relevant. As successful as the Energy Star program has been it 
is in need of serious improvement, especially for appliances.
    As we noted in the October 2008 issue of Consumer Reports 
while the program saves energy, it has not kept up with the 
times. We would like to focus on three main areas we believe 
Congress can improve Energy Star.
    One, keep test procedures relevant to a changing 
marketplace.
    Two, provide rigor and better enforcement than current self 
certification procedures.
    Three, tighten up qualifying standards.
    The first issue is that test procedures are out of date. 
Appliances are constantly changing. They aren't the simple 
white boxes that they used to be. But Federal test procedures 
haven't kept pace with the new technology and new products in 
the marketplace.
    As an example the test procedure that DOE and Energy Star 
use today to measure refrigerator electricity consumption and 
energy efficiency was developed about 20 years ago. At that 
time refrigerators such as French door, bottom freezers with 
through the door ice and water dispensers did not exist. The 
procedure for testing bottom freezers with through the door ice 
and water dispenser allowed for the ice maker to be turned off.
    This is not the way consumers would use this product. It 
artificially improves the apparent efficiency of this type of 
refrigerator. If consumers were to use these refrigerators as 
they were tested and rated they would have a puddle of water on 
their kitchen floor from all the melting ice.
    Although not the intent of this program unfortunately some 
manufacturers took advantage of the situation and sold products 
with an undeserved Energy Star. To their credit, DOE took care 
of this. But it was a patch and not a long term solution.
    A similar situation existed a number of years ago with 
dishwashers. These have dirt sensors that adjust water 
consumption based on soil load. Yet the test procedure used 
clean dishes.
    The result was that the energy efficiency of dirt sensing 
dishwashers was apparently much better than what a consumer who 
washes only dirty dishes would realize. It took us a number of 
years. But we finally convinced DOE to change its test 
procedure to use dirty dishes in their tests.
    Other appliances are also changing. Washing machines have 
steam and allergy removal cycles that are ignored in current 
test procedures. Also ignored in current test procedures are 
dryers, some cooking appliances, wine refrigerators and compact 
refrigerators among others.
    One of the reasons that test standards are so outdated is 
that it usually takes DOE at least 3 years to publish new 
rules, a period that includes comments from manufacturers and 
consumer groups, such as mine. It then usually takes another 3 
years for the updated requirements to take effect. Meanwhile 
new features and new technologies keep appearing in appliances 
and the only thing that remains constant is that the test 
procedures are out of date. It is important that the DOE and 
Energy Star program keep up with the changing marketplace.
    The second issue we'd like to focus on is that companies 
test their own products. The DOE does not test products for 
compliance with its standard. Some manufacturers do. Sometimes 
the consumer organizations like Consumer Reports will test 
claims in performance.
    But in general there's little independent verification of 
manufacturer's self reported claims. In addition to 
refrigerators when we tested some products like dehumidifiers 
and room air conditioners. We found electricity consumption 
results to be significantly higher than those self reported by 
one manufacturer.
    While some may think that the Energy Star products not 
meeting qualification standards will be reported to the EPA by 
rivals. There is scant evidence that self policing is 
occurring. Mergers within the appliance industry where one 
manufacturer can account for significant market share in a 
product category further cut down on the number of cops.
    We recommend that EPA and DOE establish a marketplace 
surveillance program to sample and independently verify the 
energy efficiency claims made by manufacturers. If this 
sampling finds widespread problems, we recommend a more 
thorough, marketplace wide testing to be conducted by EPA or 
DOE.
    Finally we think that qualifying standards are lax. 
Consumers Union agrees with the EPA's own guidelines that about 
25 percent of products in any one category should qualify for 
an Energy Star. But with dishwashers for example, Energy Star 
qualified products recently represented more than 90 percent of 
all dishwashers on the market. With a tighter standard that 
share has dropped. But it's still about 50 percent.
    Certainly when that many products qualify for Energy Star, 
the value of the star decreases. Congress needs to raise the 
bar on Energy Star. We agree with the approach in this 
legislation which requires that once Energy Star designation 
exceeds 35 percent of a product category, there will be a 
rulemaking to raise the standard.
    We appreciate this opportunity to testify on this 
significant consumer issue. Look forward to your questions. 
Thank you.
    [The prepared statement of Mr. Connelly follows:]
Prepared Statement of Mark Connelly, Senior Director, Appliance & Home 
               Improvement, Consumers Union, Yonkers, NY
    Good morning Chairman Bingaman, Ranking Member Murkowski and 
distinguished members of this Committee. I am Mark Connelly, Senior 
Director of Appliance & Home Improvement for Consumers Union, publisher 
of Consumer Reports. Thank you for providing me the opportunity to 
address this Committee regarding legislation to improve appliance 
standards (S. 598, the Appliance Standards Improvement Act), an issue 
that is not only critical for our energy security, but important to 
consumers' pocketbooks.
    For the past 30 years I have focused my career on product 
performance testing for manufacturers as well as for consumers. I have 
worked in and managed testing laboratories that assessed a wide range 
of products. Consumers Union has been publishing our test results and 
informing consumers for more than 70 years, currently reaching 
approximately 8 million subscribers through our print and online 
products. I now run the appliance testing program for Consumer Reports, 
and have worked in appliance testing laboratories for more than 20 
years. My background gives me a unique perspective for understanding 
product testing in a competitive marketplace and the critical 
importance of how best to inform consumers about those test results.
    The Energy Star program has been successful in raising consumers' 
awareness of energy efficiency as an important consideration in 
purchasing decisions, but Energy Star needs to keep up with a changing 
marketplace in order to stay relevant. Today, more than 70% of U.S. 
consumers are aware of the Energy Star logo. For many, the presence of 
an Energy Star makes a very complicated decision a simple yes or no.
    Consumer demand for Energy Star-labeled appliances and electronics 
has prompted manufacturers to improve the efficiency of their products. 
Energy Star has also helped to raise efficiency standards, making 
products such as washing machines much more efficient than those sold 
10 years ago. As you know, the 17 year old program co-administered by 
the EPA and DOE covers more than 50 product categories. It is a 
voluntary standard that many manufacturers choose to pursue.
    As successful as the Energy Star program has been, it is in need of 
some serious improvement. As we noted in the October 2008 issue of 
Consumer Reports, while the program saves energy, it has not kept up 
with the times.
    We appreciate this Committee's leadership in introducing S. 598, 
the Appliance Standards Improvement Act, and would like to focus on 
three main areas where this legislation can improve the Energy Star 
program, and offer suggestions to help strengthen them: keep test 
procedures relevant to a changing marketplace, provide rigor and better 
enforcement than current self-certification procedures, and tighten up 
qualifying standards.
                   1. test procedures are out of date
    Appliances are constantly changing. They aren't the simple white 
boxes that they used to be. But Federal test procedures haven't kept 
pace with new technology and new products in the marketplace. As an 
example, the test procedure that DOE and Energy Star use today to 
measure refrigerator electricity consumption and energy efficiency was 
developed 20 years ago. At that time, some refrigerators had to be 
manually defrosted, didn't have adjustable shelves, temperature-
controlled drawers, water filters, or electronic controls of any kind. 
Refrigerators now have multiple compartments that thaw meat, convert 
from a refrigerator to a freezer, have computer monitors on their 
doors, and have sophisticated software programs to control temperature, 
humidity, defrost cycles, etc.
    Refrigerator manufacturers recently introduced French-door, bottom-
freezers with through the door ice-and-water dispensers. With that 
feature, bottom freezer sales took off and bottom freezer sales have 
gone from 10% of the refrigerator market to more than 30%. But, the 
procedure for testing bottom freezers with through-the-door ice and 
water dispensers allowed for the ice maker to be turned off. This is 
not the way consumers would use this product and artificially improves 
the apparent efficiency of this type of refrigerator. If consumers were 
to use these refrigerators as they were tested and rated, they would 
have a puddle of water on their kitchen floor from all the melting ice. 
Although not the intent of this program, unfortunately, some 
manufacturers took advantage of this situation and sold products with 
an undeserved Energy Star.
    A similar situation existed a number of years ago with dishwashers. 
These have dirt sensors that adjust water consumption based on soil 
load, yet the test procedure used clean dishes. The result was that the 
energy efficiency of dirt-sensing dishwashers was apparently much 
better than what a consumer, who washes only dirty dishes, would 
realize. It took us a number of years, but we finally convinced DOE to 
change its test procedures to use dirty dishes in their tests.
    Other appliances are also changing. Washing machines have steam-and 
allergen-removal cycles that are ignored in current test procedures. 
Also ignored by current test procedures are cooking appliances, wine 
refrigerators, and compact refrigerators.
    One of the reasons that the test standards tend to be outdated is 
that it usually takes the agencies at least three years to publish new 
rules--a period that includes comments from manufacturers and consumer 
groups such as Consumers Union. It then can take another three years 
for the updated requirements to take effect. Meanwhile, new features 
and new technologies keep appearing in appliances and the only thing 
that remains constant is that the test procedures are out-of-date.
    It is also important that the Energy Star program keep up with the 
changing marketplace; we are pleased that EPA extended Energy Star to 
certain TVs last Fall, though it is not clear to us that the TVs are 
being tested as they would normally be used. We look forward to working 
with the agency to keep the protocols as relevant as possible.
    We applaud S. 598 for requiring EPA and DOE to review each product 
category at least once every 3 years or when market share for a product 
reaches 35%--though we would hope the language could be clarified to 
say ``whichever is first,'' so that each product category is reviewed 
at minimum every 3 years.
    We are also encouraged that the bill will require the agencies to 
clearly define their roles and responsibilities within Energy Star so 
that there are not gaps and undue overlap; we believe this will ensure 
fewer products fall through the cracks.
                  2. companies test their own products
    The DOE does not test products for compliance with its standards; 
sometimes manufacturers do; sometimes a consumer organization like 
Consumers Union will test claims and performance. But, in general, 
there is little independent verification of manufacturers' self-
reported claims. In addition to refrigerators, when we tested some 
products like dehumidifiers and room air conditioners, we found 
electricity consumption results to be significantly higher than those 
self-reported by one manufacturer. While some may think that Energy 
Star products not meeting qualifications standards will be reported to 
the EPA by rivals, there is scant evidence that self-policing is 
occurring.
    Mergers within the appliance industry, where one manufacturer can 
account for significant market share in a product category, further cut 
down on the number of ``cops on the beat.''
    The Energy Star program rewards manufacturers, in the form of tax 
credits, for selling high efficiency appliances. This gives 
manufacturers an added incentive to engineer around the standard or to 
find and exploit loopholes if the standards are unclear or outdated.
    We recommend that EPA and DOE establish a marketplace surveillance 
program to sample and independently verify the energy efficiency claims 
made by manufacturers. If this sampling finds widespread problems, we 
recommend more thorough, marketplace-wide testing to be conducted by 
EPA or DOE. Furthermore, if a particular manufacturer is found to be 
misrepresenting energy use, that manufacturer should be required to do 
audited compliance for products going forward. This spot-check program 
should apply to both minimum standards programs as well as Energy Star.
    The proposed legislation represents substantial progress by 
requiring manufacturers to demonstrate compliance with the standard, 
rather than relying exclusively on manufacturer claims. As the bill 
moves forward, we would like to see the bill eliminate self-
certification as an option for demonstrating compliance.
                    3. qualifying standards are lax
    Consumers Union agrees with the EPA's own guidelines that about 25% 
of products in any one category should qualify for an Energy Star. But, 
with dishwashers, for example, Energy Star qualified products recently 
represented more than 90% of all dishwashers on the market. With a 
tighter standard, that share has dropped, but still about 50% of 
dishwashers now qualify for the Energy Star. Certainly, when that many 
products qualify for an Energy Star, the value of the Star decreases. 
Congress needs to raise the bar on Energy Star.
    We agree with the approach in S. 598 which requires that once 
Energy Star designation exceeds 35% of a product category, there will 
be a rulemaking to raise the standard. While we might prefer to see a 
lower trigger (such as 10-20% so that consumers will know they are 
buying an exceptionally efficient product), reasonable minds can differ 
as to the right threshold.
    We appreciate this opportunity to testify on this significant 
consumer issue, and look forward to any questions.
    Thank you.

    The Chairman. Thank you very much. Thanks to all of you. 
Let me start with a few questions.
    Let me ask both Mr. Rodgers and Mr. McLean. I think both of 
you have indicated you're opposed to Section Three of the bill 
as we have introduced it. It directs coordination in Energy 
Star management.
    You specifically commit in your testimony, as I understand 
it, to provide the committee with written documentation on the 
resolution of these issues within 45 days. Are you 
contemplating that that would be in the form of a signed 
memorandum of agreement between the two agencies? Or is this 
just documentation of what has been agreed to?
    What's your thought on this? Obviously if we do 
legislation, energy legislation, the strong temptation I would 
have is to go ahead and legislate in this area and not postpone 
that on the hope that someday the two agencies will resolve 
these problems.
    Mr. Rodgers.
    Mr. Rodgers. Thank you, Mr. Chairman. Secretary Chu and 
Administrator Jackson have met and discussed these issues. They 
have committed to resolve the issues. They've directed each of 
our staffs to take all necessary steps to put all the issues on 
the table and resolve them.
    I believe that we can meet that deadline. Provide to the 
committee clear documentation that we've addressed any and all 
of the issues that have been brought forward within that 45 day 
period.
    The Chairman. Mr. McLean, what's your thought on that?
    Mr. McLean. I'm trying to think if I have any differences 
with that statement. I think that's correct. The Secretary and 
the Administrator met a few weeks ago.
    We actually met last week which we scheduled that meeting 
before this--we knew we were going to be testifying at this 
hearing. But recognized that the administration recognizes that 
we need to resolve this so that there is not confusion and we 
agree. Because of your schedule we want to do it as quickly as 
we can. We thought we could do that within 45 days.
    The Chairman. Is the objective to have a signed memorandum 
of agreement or understanding between the two departments or 
agencies? Is that?
    Mr. McLean. I think the goal is to sit down and figure out 
where there are concerns and work them out. Identify to you 
that we have. A lot of them have to do with coordination.
    We have not decided whether we need a new MOU or modify the 
existing MOU that we've had for 10 years. So that remains to be 
seen exactly what that would take the form of. But it would be 
an agreement and documentation back to the committee.
    The Chairman. Mr. Pitsor, you have in your testimony a 
description here of what you refer to as the confusion and 
consternation caused by the lack of coordination by the two 
agencies in the solid state lighting area. Could you just 
elaborate on that a bit?
    Mr. Pitsor. We have a situation that's developed since 
EPACT 2005 passed which established a solid state lighting 
program at the Department of Energy for research development 
demonstration and commercialization including Energy Star work. 
In partnership with DOE the industry has been working on a 
specification which was over the course of 2 years has now been 
published and went into effect last year. In the meantime at 
EPA they were working on also requirements for solid state 
lighting products for some of their programs.
    They were not coordinated with industry. They weren't 
coordinated with DOE. Then both agencies then promulgate 
specifications which creates quite a bit of confusion in the 
marketplace. Manufacturers are heavily investing in LED 
lighting doing the research work. Customers are confused as a 
result as well in terms of which Energy Star product is really 
an Energy Star product.
    So that's why we believe this needs to be centralized 
within one agency with the expertise on lighting and that being 
at DOE.
    The Chairman. Mr. McLean, you heard, I think Mr. Connelly's 
comments about the compliance problems and lack of monitoring 
and enforcement in the Energy Star program. Did you agree with 
that that there's a substantial deficiency there? Or do you 
think that Mr. Connelly is misinformed?
    Mr. McLean. I think there always can be improvements. We 
have done a number of things for the products that we cover, 
several hundred tests and trying to identify if there are 
issues out there. I think most of the products he identified 
we're not involved with.
    So I think it depends on the product you're talking about. 
The challenges involved in updating testing. If we want to go 
product by product I think we can talk about it. But it's hard 
to generalize across all product categories.
    So he identified refrigerators, dishwashers, clothes 
washers, areas that he was concerned about. Those are not under 
our purview. We think we're doing a pretty good job with third 
party testing and other activities.
    So I think it's good to be very specific about where the 
concerns are. I know DOE has taken a number of steps to deal 
with these issues.
    The Chairman. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman. I want to 
better understand the situation with Section Three and the 
objections coming out of DOE and EPA. Do I understand correct?
    I think it was you, Mr. McLean that you said you've had an 
interagency agreement or some kind of a MOU in place for the 
past 10 years? Is that?
    Mr. McLean. Yes. That's correct.
    Senator Murkowski. I appreciate the efforts that you have 
indicated today that it's your intention to within 45 days 
resolve this. But it seems to me that we're at a point when 
we're talking about energy policy. We recognize the efficiency 
gains that can be had when we look to upgrades in our 
appliances that we do need to keep current.
    We do need to be more aggressive in staying on top of 
things rather than operating under agreements that are perhaps 
10 years old. Within the industry or the consumer end of the 
equation here, it doesn't sound as if they believe you are as 
current as you need to be. If you are unable to work out the 
details within 45 days I'm assuming you would not have any 
objection to what we have included in the Section Three which 
is updating the interagency agreement to improve the 
cooperation and the delineation of rules and responsibilities 
of formal decisionmaking.
    Is that a correct statement?
    Mr. Rodgers.
    Mr. Rodgers. Thank you. The Secretary and the Administrator 
believe that we can address this issue and resolve it. We are 
committed to doing that.
    The issues that you have raised in the legislation are in 
fact some of the very issues that we need to address. As you 
point out an MOU that's 13 years old doesn't describe some of 
the products that are currently at issue and of importance to 
the current Energy Star programs. So those are exactly the 
things that we will be looking at.
    We believe the administration can make a faithful committed 
effort to resolve this. But we do appreciate the catalytic 
efforts that the committee has had in spurring that effort.
    Senator Murkowski [presiding]. Let me ask about the 
consensus approach that we're taking. We're suggesting that 
when there's broad consensus out there that you can advance 
standards more quickly than the 7-year review. I would think 
that from industry's perspective, that from the consumer's 
perspective this is something that will keep us nimble. This 
will keep us ahead of the curve.
    From the agency's perspective, what's your feedback on 
that?
    Mr. Rodgers. Very excellent point. In fact we have asked 
for and we were very grateful that in the Energy Independence 
and Security Act the Congress did give the Department the 
authority to accelerate rulemaking, especially when there is a 
voluntary consensus standard developed by industry and 
stakeholders. So we're very supportive of this provision and we 
would like to encourage it.
    Senator Murkowski. Good. Mr. Nadel, I want to make sure 
that I understand what's going on in terms of the consensus 
standards out there. You referenced some specific State 
standards or initiatives. Can you tell me what role the states 
actually play in moving national consensus standards, if you 
will?
    Do we have individual states that are more aggressive and 
then advancing/pushing that standard out on a national scope?
    Mr. Nadel. Yes, I can. For many products that are not 
federally regulated, regulation begins at the State level.
    Senator Murkowski. Like, give me an example.
    Mr. Nadel. Drinking water dispensers. State of California 
came up with a standard. I think it was around 2004. It's 
subsequently been adopted in six other states. I believe they 
are all identical.
    So we're recommending, now we have seven states. It's time 
to bring the same standard to a national level. I point out 
that actually the standard is based on like a 2003 Energy Star 
level.
    So what was----
    Senator Murkowski. OK and one question for the rest of you 
here then. When we talk about broad consensus within the 
industry that would allow us to accelerate a standard, what 
would you consider to mean broad consensus?
    Mr. Pitsor.
    Mr. Pitsor. I think it's important that consensus involve a 
broad--the manufacturers of the products, advocacy groups, 
State energy boards, energy commissions, also utility entities. 
So it's a cross section of users, consumers, manufacturers and 
policy advocates.
    Senator Murkowski. We're all in agreement that's what we're 
talking about? Thank you. Thank you, Mr. Chairman.
    The Chairman [presiding]. Senator Stabenow.
    Senator Stabenow. Thank you very much, Mr. Chairman. 
Welcome to all of you.
    Michigan is home to a major appliance manufacturer, 
Whirlpool is I can put in an ad for them this morning. They 
also make refrigerators in Arkansas, Indiana and Iowa. So it's 
not just Michigan, but we're very proud to have them in 
Michigan. They're not just participants in the Energy Star 
program, but they are leaders.
    In fact I want to congratulate them. Because later this 
month they will receive the 2009 Energy Star's sustained 
excellence award from the EPA and DOE. The award recognizes the 
company's leadership in offering consumers appliance, energy 
and water efficiency through its portfolio brand.
    So this is their tenth Energy Star award and fourth 
consecutive sustained excellence award. So I wanted to make 
sure and get that on the record today. We're very proud of 
them.
    For companies like Whirlpool the energy guide label and the 
Energy Star rating helps them to highlight the quality of their 
products. They take it very seriously. Consumer Reports and Mr. 
Connelly you talked about looking at under reporting.
    Consumer Reports, I'm sure through your efforts reported in 
October 2008 that some companies under report the energy use of 
their refrigerators. You talked about the loopholes and test 
procedures and so on. Unfortunately those reports show that the 
Energy Star label is really diminished when there is not strong 
enforcement.
    The value of it goes down. It really creates an unlevel 
playing field for companies who are taking this very seriously 
and want consumers to be able to trust the labels. So I applaud 
the fact that the bill under discussion includes a provision 
requiring DOE to report to Congress on the degree of compliance 
with energy standards. Certainly you need to be enforcing 
compliance and letting penalties and companies who violate the 
rules.
    So within that vein I'd like to ask Mr. Rodgers and Mr. 
McLean to talk more about your current authority in terms of 
enforcing minimum standards and the Energy Star rating. Have 
you found companies out of compliance? How did you respond?
    Mr. Rodgers. I thank you, Senator. That's a critical 
question of vital importance. We have very carefully tracked 
enforcement. I think we respectfully agree with many of the 
recommendations in the Consumer Reports articles that there 
should be expanded improvement of our test procedures. We're 
moving to do that.
    We also believe there should be greater independent 
verification of test results. We're moving to do that. We also 
believe that the Energy Star program levels should be examined 
on a regular basis and updated consistent with technology 
advances. We are moving to do that.
    I think in the cases where we have discovered compliance 
issues I would like to complement the industry associations. In 
many cases they do a good job of self policing and reporting 
that to us. But more needs to be done.
    Last year we took a settlement agreement with one 
manufacturer who agreed they were not following the correct 
rules. They have provided rebates to consumers. Taken their 
products, modified them, removed the Energy Star label. This is 
the kind of thing that we intend to do going forward.
    Senator Stabenow. Yes, Mr. McLean.
    Mr. McLean. Yes, Senator. We do a number of things for the 
products that we manage. We have been conducting verification 
testing, pulling products out of the marketplace and testing 
them to screen them for compliance for the last 5 years.
    We've completed testing across 14 product categories, 
testing more than 400 products. Of the 400 products that we 
pulled and tested, we only found four where there were issues. 
We went back and those have been corrected.
    We recognize there has been growth in the Energy Star 
program. We have to keep up with that growth and the number of 
products we have to cover. For lighting we've already responded 
to demonstrated performance issues with enhanced scrutiny in 
order to qualify products. Manufacturers must submit test data 
from an independent laboratory for prior approval.
    In addition we've instituted quality assurance testing for 
off the shelf products. Furthermore what we've done is we've 
also collaborated with accreditation bodies like NIST National 
Voluntary Laboratory Accreditation Program and the American 
Association for Laboratory Accreditation to establish 
requirements for laboratories testing Energy Star products. In 
phasing in that requirement through qualification testing 
conducted by impartial accredited laboratories.
    So what we're trying to do is as the program expands we're 
expanding the accreditation and testing procedures to make sure 
that these products are in line. We have not found major 
problems with the products that we've been covering.
    Senator Stabenow. Thank you, Mr. Chairman.
    The Chairman. Thank you. Both Senator Murkowski and I are 
going to have to go to the Senate floor for the debate on these 
public land amendments that are coming up here in the next few 
minutes. So let me call on Senator Menendez. Just ask if he or 
unless you're planning to stay, if you are, ok.
    If you could go ahead and Senator Lincoln could go ahead 
and complete the hearing, that would be great.
    Thank you. Thank all witnesses again for your testimony.
    Senator Menendez [presiding]. Thank you, Mr. Chairman. I 
want to thank you and the ranking member for holding a hearing 
on what I think is an incredibly important topic. It may not 
seem to get the same sex appeal as others, but I think the best 
energy at the end of the day is that which we don't use and/or 
use effectively.
    So I think this is incredibly important. It's a vital, cost 
effective way for us to meet our energy challenges. We need to 
pursue energy efficiency as aggressively as possible.
    I want to say that I appreciate that the DOE and the EPA 
have announced that yesterday that they're going to work out an 
agreement by the end of April on the Energy Star program for 
solid state lighting. This is a great development. I look 
forward to a positive result.
    But I want to caution both departments that if they don't 
reach an agreement as they've pledged to that some of us, 
certainly, I may very well decide the conflict for them. I'd 
rather you decide the conflict. But if not, I think it's 
important to finalize it. I'll be keeping a close eye on that.
    So let me ask some questions. Mr. Rodgers, does the 
department believe that it has the authority to regulate BR 
type reflector lamps that are now exempted from Federal 
standards? If so, do you have, are you considering any 
regulations for these lamps?
    Mr. Rodgers. Thank you, Senator. In fact that topic has 
been a discussion with the acting general council and the 
Secretary's office. We expect to make an announcement on that 
very soon.
    We recognize as Mr. Nadel has pointed out that this 
category of products could potentially provide significant 
energy savings. So I think I'd be happy to report as soon as 
possible on the determination made by the Secretary in that 
area.
    Senator Menendez. Is that determination going to be that 
whether or not you have the authority to regulate now or do you 
believe you have that and then your answer is about whether or 
not you're going to consider any regulations?
    Mr. Rodgers. The answer that you will be receiving sir, 
will be when the department plans to begin rulemaking on this 
topic.
    Senator Menendez. Ok. Which means you believe you have the 
authority to regulate?
    Mr. Rodgers. That's a fair conclusion.
    [Laughter.]
    Senator Menendez. Can't regulate if you don't have the 
authority, so I assume that you're taking the position that you 
have the authority. Alright. We'll look forward to that because 
one of the things that I was considering as we mark up is to 
clarify the Department's authority and establish a schedule for 
regulating these lamps.
    So I've circulated an amendment to you and to other 
witnesses here. So I look forward to hearing back from you.
    Second, during the Clinton administration the Department of 
Energy determined that it had the authority to set both energy 
and peak demands for standard air conditioners. Then during the 
Bush administration the Department of Energy rejected several 
consensus standard proposals because they included more than 
one metric. Now that there's a new administration is that 
interpretation being reviewed again? Would it be useful for 
Congress to clarify the Department's authority along the lines 
of the amendment that I circulated to you and others?
    Mr. Rodgers. Thank you, Senator. Let me just say it's 
always useful when Congress provides clarification. In this 
case I have not discussed this issue with our Office of General 
Council that it has been of concern in the past that it was 
viewed that we did not have the authority to establish more 
than one metric.
    Clearly there are energy savings to be had if this 
authority was available to us. So we look forward to working 
with the committee on this issue.
    Senator Menendez. Ok. Mr. Pitsor, let me ask you this. In 
the Energy Independence and Security Act of 2007 we authorized 
states to help enforce standards on incandescent lamps by 
seeking injunctive relief in Federal courts. The intent was to 
permit additional enforcement while following Federal 
procedures. Is that something that you support extending this 
injunctive enforcement authority to other standards?
    Mr. Pitsor. Mr. Chairman, the enforcement of the general 
service light bulbs. Why we supported State injunctive relief 
is that we're talking about a high volume product over a 
billion light bulbs or so annually in the United States. As we 
move the migration to the new efficiency standards and starting 
in 2012 we could see a lot of light bulb sales at the Federal 
Government aren't going to be able to monitor, but the states 
would be able to monitor at retail.
    So we supported that State attorney general's ability to 
seek injunctive relief with respect to that high volume 
product. I'm not sure we have the same type of situation with 
low volume type products. Electric motors, transformers, these 
are not high volume products that we see a problem with respect 
to enforcement at the present time. So it's somewhat product 
specific as to whether that would make an appropriate vehicle 
for enforcement.
    Then second the legislation has in the base bill a study 
that has been called for to look at compliance and enforcement 
options. We think that that study should be conducted and come 
back with Congress on recommendations on what needs to be done.
    Senator Menendez. I just look at the fact that the DOE has, 
as far as I can see, has never issued a single fine for failure 
to comply with efficiency standards. It just seems to me they 
need help enforcing these laws. So that's why I asked the 
question what we're looking forward to how that moves forward.
    Let me ask two final questions. The sales--and this is to 
you, Mr. Pitsor as well. The sales of BR type lamps that are 
exempted from Federal standards appear to represent about 30 
percent of total reflector lamp sales. Do you support giving 
the Department of Energy authority to regulate BR lamps so that 
more efficient products can become standard practice?
    Mr. Pitsor. The industry--we're presently involved in 
incandescent reflector rulemaking that as we understand will be 
made final in June, August of this year. The industry has 
supported migrating these remaining exempted products for DOE 
rulemaking going forward. So we are supportive of having those 
remaining BR lamps added to the DOE rulemaking authority.
    Senator Menendez. Ok. Let me turn to Senator Lincoln.
    Senator Lincoln. Thank you, Mr. Chairman. We appreciate the 
chairman and the ranking member for holding a hearing today on 
appliance efficiency. Want to congratulate you on your work to 
develop legislation where both industry and energy efficiency 
advocates and consumer advocates have worked together to get 
all on the same page.
    That's not an easy task. We're pleased with the leadership 
we've found there.
    I think we can all agree that energy efficiency is probably 
the most cost effective way we can decrease our energy 
consumption. As Senator Menendez mentioned energy that we don't 
use is the easiest to capture and to deal with. That's an 
important point that we've tried to make here.
    It all obviously reduces our carbon footprint and maintains 
energy security. There's no doubt that each and every one of us 
should be looking for the ways that we can make that happen. 
I'm especially interested in the topic today because 
manufacturing of electrical equipment and appliances is one of 
the top manufacturing sectors in my home State of Arkansas as 
Senator Stabenow mentioned.
    I hope that the improvements set forth in the Appliance 
Standards Improvement Act will provide clarity to efficiency 
standards and support their industry. I want to echo what 
Senator Stabenow mentioned earlier in terms of helping to 
strengthen the Appliance Standard Improvement Act helping to 
strengthen the Energy Star program. There are concerns there 
making sure that the clear and tougher standards and how we 
improve the enforcement of that Energy Star program 
requirements.
    Mr. Rodgers, you continue to say moving to do that. Do you 
have dates certain set for the types of things that you're 
challenged by and moving toward doing that?
    Mr. Rodgers. Thank you, Senator. Let me give you two 
examples. On refrigerator test procedures we have already 
invested resources and are building a testing site so that we 
can conduct independent tests of refrigerators.
    We're also evaluating tougher Energy Star standards for 
several of the white good appliances as we speak.
    Senator Lincoln. Good. That's good. We want to move forward 
and see that happening.
    Maybe you might touch a little bit about you, in your 
testimony you talked about education and outreach programs such 
as the recycle my old frig campaign. My husband continues to 
tell me that the small freezer in my basement that I bought at 
a yard sale if I would just replace it that I would probably 
pay for my new freezer in a matter of moments.
    [Laughter.]
    Senator Lincoln. From what I would save. I am the product 
of depression babies. So throwing out something that still 
works is very difficult for me.
    But what are you finding? Maybe you might elaborate on the 
importance of education and encouraging and maybe describe some 
of the detail efforts that DOE is making on educating 
consumers.
    Mr. Rodgers. Senator, it's a great question. Energy 
efficiency although extremely cost effective requires constant 
reminders. So we found great success in working with Disney to 
promote for kids the Ratatouille character and helping promote 
compact fluorescent light replacement, working with the 
military to promote the change out of old lamps on military 
bases.
    As you mentioned the recycle the frig campaign because 
unfortunately many Americans put the old frig in the basement 
or the garage. So instead of saving energy with the Energy Star 
product, now energy has increased. So we do believe that 
investing in educating Americans will be critical.
    The Secretary is committed to that. You will see some of 
new programs from the Department this year with the resources 
that Congress has provided.
    Senator Lincoln. Great. My husband would be proud that 
you're echoing his thoughts there.
    Mr. Pitsor, in your testimony you mentioned that there's 
many energy efficient technologies that exist. But we've got to 
strive for wider recognition of these technologies and promote 
their use. You list energy tax incentives as one policy 
approach to advancing energy efficiency in our economy.
    I've been involved in pushing for premium motor tax credits 
to help incentivize the use of more efficient motors. I also 
believe that a rebate is an incentive to taxpayers to replace 
motors in need of repair with new motors rather than extending 
the life of old, less efficient motors. I think it's worth 
discussion and an important thing that we could do.
    In today's economy how do you believe we can best make new 
and more efficient electrical equipment such as motors 
affordable to various industries particularly as well as 
individuals?
    Mr. Pitsor. Thank you, Senator. Thank you for your 
leadership with respect to tax incentives for speeding up the 
deployment of today's technologies that are available. In the 
situation of electric motors, motors represent 23 percent of 
our electrical use. They power pumps, fans, compressors in 
industry and homes and buildings.
    We have premium efficient motors, NEMA premium motors 
available today. But the initial cost is higher than the EPACT 
level efficiencies.
    Senator Lincoln. Right.
    Mr. Pitsor. To make up for that initial cost impact the tax 
incentives, motor purchase incentives, programs, utility 
sponsored programs, rebate programs, all can help bring down 
the initial cost to the purchaser. So when he needs to replace 
that motor or replace that other product. That initial price 
hurdle can be overcome.
    So we look forward to putting together and having the 
committee consider a rebate program for industrial motors. When 
that motor fails a building owner has to decide whether to 
replace it or to simply have it repaired. Obviously if you're 
repairing it, you're repairing an inefficient product to begin 
with. We need to change that process over to incent buying the 
new motor.
    Senator Lincoln. Incentivizing the individual that's, as 
you said, replacing or repairing that motor is important. Is 
it, I mean, do you think quantitatively I mean we can really 
show that it's going to be cost effective in terms of energy 
consumption?
    Mr. Pitsor. We did an analysis with respect to a rebate 
program that we've been talking about. If we simply change that 
1 percent of the old motors currently installed, 1 percent each 
year that would be about 300,000 units we'd be saving an 
estimated 1.5 billion kilowatt hours. So there's a significant 
energy savings potential there.
    Senator Lincoln. Great. Thank you for your work on that. 
I'm interested to explore.
    Mr. Upton, it was good to meet you the other day. I 
appreciate getting to visit with you in the hallway. I want to 
again commend you and all the groups involved in this bill for 
working together on how we can really do great improvements in 
efficiency for products and benefit both our environment as 
well as our consumers.
    In your testimony you stated that one of the positive 
aspects of the Appliance Standards Improvement Act we're 
discussing today is that it provides manufacturers the 
flexibility to choose several paths in providing energy 
efficiency to consumers while also allowing consumers choices 
in what lighting fixtures that they want in their homes. How 
critical was providing this flexibility? How does the 
residential lighting industry provide the balance between 
providing consumers with what they want decoratively and also 
most efficiently?
    Mr. Upton. Thank you for your question. It was on.
    The decorative lighting industry in the portable section 
was a very fragmented industry. Literally, mom and pop kind of 
operations where you might make 50 of this and 75 of that and 
100 of something else. Having pathways for those kind of 
companies to be able to meet those needs are really critical.
    If we wouldn't have had that in California, it was our 
judgment that the only kinds of products would be available in 
portable industry would have been commodity products. You just 
couldn't afford to manufacture for one State. That's one of the 
reasons we asked for this to become a national bill.
    But if you drop the various pathways that save the energy 
and especially the fourth item that we talk about which I call 
bulb in a box. We're going to be introducing people to energy 
efficient lighting that they've never experienced before 
because it's going to have probably at this time a compact 
fluorescent bulb in it, later an LED. If we can make those 
kinds of things happen the cost savings as far as the energy 
consumption was about 136 million kilowatt hours for 
California.
    The payback time that you were referring to earlier is 
seven tenths of a year. So the value to the consumer's eye, the 
value of the manufacturer's eye, because he's got the various 
pathways. For different manufacturers different technologies 
will be valuable.
    We think anytime that multiple technologies are available 
that are still energy efficient then the consumer has brought a 
choice and we've got a win/win situation for everyone. 
Government achieves what it wants. The manufacturer has a 
product he can deliver. The consumer has the choice of 
something that meets everybody's needs.
    Senator Lincoln. So that flexibility for those pathways is 
critical. I know because we've got a couple of those mom and 
pop operations where, like you talk, small businesses that 
produce decorative items and other things like that. But to be 
able to----
    Mr. Upton. Senator, the industry is so small. My family 
taught me energy efficiency was you turned the light off and if 
you didn't you got banged alongside the head.
    Senator Lincoln. That's right.
    Mr. Upton. Happily we've got more opportunities today, 
especially with controls that are becoming much more widely 
used. But I think if we can deliver the quantity of products 
that we want to have and provide all that choice then you've 
got the best of all worlds. That's one of the reasons we fought 
so hard to find the right answers.
    Because the day you don't have consensus with government, 
advocates and industry then you have confusion in the 
marketplace. If there's confusion in the marketplace our 
experience is the consumer stays with what they know. We want 
them to move forward into new products.
    Senator Lincoln. Great.
    Mr. Upton. If I didn't respond to you properly, I'll try 
again.
    Senator Lincoln. No, you did great.
    Mr. Upton. Thank you.
    Senator Lincoln. Thank you. Thanks, Mr. Chairman.
    Senator Menendez. Thank you. I have one last question and 
one follow up and then we'll, unless a member appears we'll 
close the hearing.
    Mr. McLean, I've heard that Energy Star covers a fairly 
large portion of products on the market, usually at least 25 
sometimes 50 percent. That some including Secretary Chu is 
thinking that it might be useful to complement the current 
Energy Star program with a higher energy super star tier that 
might represent the top 5 percent of products. But still be 
required to be cost effective to consumers.
    What do you think of this concept?
    Mr. McLean. This clearly is something we do want to talk to 
the Department of Energy about. We do agree that there is a 
range of products out there with a range of efficiencies. If we 
go back to the reason that we created Energy Star, what we were 
trying to do is overcome information barriers to consumers and 
other barriers in the marketplace.
    We were not trying to invent new technologies or advance 
new technologies. We wanted to get the technologies that had 
been invented and were out there to get them consumed. So the 
whole brand was created around that concept.
    Another concept is to identify a market segment of 
individuals who want to be first movers, who are willing to pay 
more for higher technology efficiency. We may need a new 
strategy to deal with that group. So we want to talk about how 
best to do that.
    We agree that there are people who want higher efficiencies 
and are willing to pay for it. If the technology is there at no 
additional cost, then we can change the Energy Star level. The 
issue is not, you know, can you adjust it. But is there a 
difference in cost and are you talking about a different 
segment.
    So in the product categories we want to look at that. If we 
can move toward some way of recognizing the highest efficiency 
products, that might be a very good thing to do. But I think we 
want to look at each of the categories and say, is this a 
generic thing or is this specific? Are we talking about a few 
specific areas where we could do that effectively? Then figure 
out how to do that.
    Senator Menendez. Ok. Mr. Pitsor, let me just go back to an 
answer you gave me a few minutes ago with reference to the BR 
type lamps. I heard you say, well we're engaged in the 
regulatory process. The question is this has been exempted for 
17 years.
    So when is it that you support, if you support, going ahead 
and including giving DOE the authority to regulate what is 
about 30 percent of total reflector lamp sales? What timeframe 
do you support it in?
    Mr. Pitsor. Yes, Mr. Chairman. In the Energy Security and 
Independence Act 2007 we significantly narrowed the exemption 
of what was available. So in 1992 when the Congress passed the 
initial exemption, that has been narrowed over the years. DOE 
set actually a wattage cap on BR lamps of 65 watts during that 
process.
    In 2007 now we've narrowed that group to even a smaller 
category such that 95 percent of your medium screw based 
sockets in your home are now or will be under Federal 
regulation. So we're talking about a very small set remaining 
that we support being added to the Federal program at the 
conclusion of the----
    Senator Menendez. So are you saying that it's not 30 
percent of total reflector lamp sales in the marketplace?
    Mr. Pitsor. I'm talking about the options the consumers 
have in their home in terms of what types of bulbs they want to 
use for different settings. Because obviously how you light 
your dining room will be different than how you light your 
living room in terms of what types of bulbs and types of 
fixtures you're using. So you have reflector. You have 
incandescent. You have halogen. You have compact fluorescent.
    There is a mix of products that are available to consumers.
    Senator Menendez. Mr. Nadel, do you have any views on this?
    Mr. Nadel. Yes. I mean I do believe it's at least 30 
percent of reflector lamps that are exempted even with the 
tightening up. It used to be 40 to 50 percent. What Mr. Pitsor 
is saying is he's adding in all the general service pear shaped 
bulbs.
    Yes, if you add those all in it dilutes it. But the fact is 
that's it's about 30 percent or more of the reflector lamps. We 
estimate that closing this loophole will save enough 
electricity to power 300,000 American homes. So we think it's 
pretty significant and not small.
    Senator Menendez. Alright. Thank you all for your 
testimony. We appreciate that. Seeing no other members here, 
the hearing is adjourned.
    [Whereupon, at 10:55 a.m. the hearing was adjourned.]

    [The following statement was received for the record.]
    Statement of Joseph M. McGuire, President, Association of Home 
                        Appliance Manufacturers
    Chairman Bingaman, Ranking Member Murkowski and members of the 
Committee, thank you for providing me the opportunity to testify on 
behalf of the Association of Appliance Manufacturers (AHAM) regarding 
the Appliance Standards Improvement Act of 2009 (S. 598) to amend the 
Energy Policy and Conservation Act to improve appliance standards. We 
appreciate the Committees willingness to listen to our views as this 
legislation was developed and as it moves through Congress.
    AHAM is the trade association representing the manufacturers of 
major, portable and floor care home appliances, and suppliers to the 
industry. The home appliance industry is an important factor in the 
U.S. economy as its product shipments are valued at $30 billion 
annually. Our members manufacture products that are in virtually every 
U.S. household and employ people in the U.S. in 32 states and 158 
Congressional districts.
    AHAM and its members are committed to providing energy efficient 
home appliances that have a direct positive impact on the lives of 
consumers. In the last 8 years, manufacturers have reduced energy 
consumption of home appliances by nearly 8 billion kWh.
                           federal standards
    We understand and have supported federal efficiency standards over 
the years for products that AHAM member company's manufacturer. Uniform 
standards throughout the U.S and even throughout North America and 
beyond are preferable to a patchwork of disconnected state-by-state 
standards. However, the Department of Energy (DOE) needs the proper 
resources to devote to the development of test procedures and standards 
to ensure a full analysis is completed. DOE's challenge is to stay on 
schedule, particularly with enactment of new laws, while ensuring that 
there is not a rush to judgment that yields poorly developed standards 
that do not save energy, frustrate consumers or that create unneeded 
costs to the manufacturers of these appliances.
    The current law provides a framework to ensure federal standards 
balance a number of factors so that the final efficiency standard 
provides real energy savings. It makes no sense to establish a standard 
so stringent that penalizes consumers and manufacturers and slows the 
rapid deployment of new much more efficient products. The current 
process can be improved though more DOE resources and encouragement and 
fast tracking of consensus standards and test procedures, but otherwise 
is a comprehensive process that starts with updating the test procedure 
taking into consideration--

          1. Consistency across products
          2. New technologies
          3. Testing of new procedures for repeatability, uniformity, 
        burden, simplicity, and representativeness

    Once a test procedure is established, then for standards revision 
there needs to be a determination of--

          1. Baseline energy usage with existing standards using 
        today's machines
          2. Maximum levels of energy efficiency that are technically 
        feasible, including impacts on performance, and which are 
        economically justified to consumers and to US manufacturers, 
        who, among other things, are trying to maintain domestic 
        employment

    However, the National Appliance Energy Conservation Act (NAECA) 
makes clear that no standard can be set which may result in loss of 
product availability in popular styles and prices, and product 
functions consumers want.
    Analysis must determine what standard provides benefits exceeding 
the burdens. The factors considered are as follows:

          1. Economic impact on manufacturers and consumers, retailers, 
        distributors and society
          2. Savings in operating costs through the life of the product 
        compared to price increase and maintenance costs
          3. Total energy or water savings
          4. Lessening of the performance
          5. Lessening of competition (Department of Justice opines)
          6. Need for national energy and water conservation
          7. Other factors the Secretary of Energy considers relevant

    Thus, energy savings is not the only factor because without 
assuming that manufacturers can make the product and consumers will buy 
the product everybody--the government, the manufacturers, the consumers 
and the environment--loses.
    Further, establishing statutory schedules for new test procedures 
or standards must take into account other necessary regulatory 
activities and that future developments may occur that would obviate 
the need for some scheduled rulemakings. This could occur with the 
support of all stakeholders. For example, DOE was required by law to 
establish a new energy efficiency standard for clothes dryers in 2000 
but determined, with the support of state energy offices, environmental 
advocates and manufacturers, that it was not necessary because the 
newly promulgated clothes washer standards reduced the average drying 
time for standard washer loads to such an extent that a new dryer 
standard would not result in any significant energy savings over the 
existing standard. These types of practical policy examples need to be 
weighed before new schedules are imposed on the Department of Energy. 
There have been numerous iterations of standards development and 
reviews over the years, with more already scheduled and not even fully 
implemented. The chart* below shows the many iterations for a few 
products and how far into the future standards are already in the cue 
to be revised.
---------------------------------------------------------------------------
    * Chart has been retained in committee files.
---------------------------------------------------------------------------
              appliance standards improvement act of 2009
    As consideration is given to how much more energy savings can be 
achieved from home appliances, we need to be mindful that huge gains 
have been made recently and more are planned through recent laws and 
upcoming regulations. Refrigerators/freezers, dishwashers and clothes 
washers account for a 43% combined decrease in energy consumption since 
2000. From a global climate change perspective, the energy savings 
realized in 2008 shipments of refrigerators, dishwashers and clothes 
washers versus 2000 models would offset the CO<INF>2</INF> emissions of 
more than 698 million gallons of gasoline consumed or the annual 
CO<INF>2</INF> emissions from 1.3 coal fired power plants.
    Clothes washer energy consumption has decreased by 63% since 2000 
while tub capacity has grown by 8%. Dishwasher energy consumption has 
dropped nearly 30% and water consumption has declined 29% since 2000. 
Refrigerator energy consumption has also decreased 30% since 2000 and 
efficiency, measured by a unit's energy factor has increased 39%. The 
average refrigerator sold today consumes less energy than a 60-watt 
light bulb left on 24 hours a day.
    The essential principle behind the underlying Energy Policy and 
Conservation Act (EPCA) is that national uniformity can be maintained 
with a series of vigorous national standards which save energy, water, 
carbon and consumer's money while maintaining product utility, moderate 
prices, a competitive manufacturer base, and minimizing the negative 
impact on domestic employment. A simplistic payback test, for example, 
which does not take into account all relevant factors, undermines this 
balance.
    There is a critical need for coordination and integration of 
federal regulatory scheme because of the enormous cumulative regulatory 
burden on the appliance industry of investing in new designs for 
multiple products over many years while at the same time meeting 
increasingly challenging and related environmental requirements such as 
ozone depletion and climate change.
    Improvements in overall appliance efficiency in consumer homes will 
not be achieved in the best way by additional micro-management and 
constant revision of the appliance standards law. This law was last 
substantially revised just in 2007 and many of its provisions, such as 
those requiring future rulemakings, the handling of standby energy 
power, and the acceleration of consensus rulemakings, have not been 
fully employed.
    There are three major ways in which appliance efficiency can be 
enhanced:

          1. Incentives: There should be support for continuation and 
        expansion of consumer rebates and manufacturer's tax credit for 
        all manufacturers of efficient appliances regardless of where 
        the product is produced. These incentives not only create a 
        critical simulative effect in the economy but also incentivize 
        manufacturers, retailers and consumers to buy increasingly 
        energy-efficient products even when the existing units still 
        function (accelerated replacement). Buying even average or 
        above average efficient appliances today and replacing the 10-
        year old appliances, for example, provides significant energy 
        and water efficiency and carbon savings for consumers and 
        society.
          2. DOE Resources: There must be significant additions of 
        resources for DOE energy efficiency programs, including but not 
        limited to appliance standards. Constant new Congressional 
        mandates without additional resources are not a solution.
          3. Energy Star Resources: The Energy Star Program should 
        receive significant new funding for revision, expansion and 
        promotion. It is a highly successful program and is a win-win 
        for consumers, retailers, manufacturers, the environment and 
        the economy.

                              test methods
    The present EPCA test procedure wisely requires a balance between 
measuring actual field energy use (which is highly variable) with the 
cost, uniformity and repeatability parameters required for test 
procedures for products mass-produced globally. Congress must recognize 
that simply adding new mandatory deadlines on top of dozens of existing 
deadlines in EPCA does not resolve the problem of an agency that does 
not have the resources to undertake all these tasks in a timely, 
accelerated manner.
    We support authorizing consensus test procedures to be adopted more 
quickly when the industry and others agree. It makes sense to allow 
noncontroversial test procedures to be ``fast tracked,'' i.e., they can 
be promulgated in direct final if they meet certain criteria subject to 
subsequent sufficient negative comment such that a regular rulemaking 
is required.
                          energy star program
    AHAM understands the need to periodically review Energy Star levels 
as long as the review does not require a modification. Further, 
specifying that a review has to occur based on a 35% market share may 
not be appropriate for every product. If 80% of the market is Energy 
Star, that shows it has been a success. Also, it is possible that a 
raise in the Energy Star qualifying level would be counterproductive. 
For example, today's refrigerator on average uses the same power as a 
60 watt light bulb. If the market share were to be high for Energy Star 
refrigerators and DOE was forced to increase the qualifying level by 
let's say 10%, that would mean the consumer would see a savings of 
going from a 60 watt light bulb to a 54 watt light bulb and possibly a 
significant increase in cost of the refrigerator. The savings of 6 
watts or about 50 cents per month in utility costs may not be enough to 
pay for a large increase in the price of the refrigerator, which would 
lead the consumer to buy a model that is less efficient. It also is 
necessary to allow recoupment of investment such that, as with 
appliance standards, Energy Star levels are not changed constantly and 
there is opportunity to sell newly designed products.
    Regarding third party test requirements, great care should be taken 
in requiring widespread, costly third party testing. If done the wrong 
way it will add many millions of dollars to costs, and there are not 
sufficient outside laboratories or programs to handle this volume. 
Allowing for a cost effective verification program through industry 
trade associations, for example, should be allowed.
        study of compliance with energy standards for appliances
    It is important that any study regarding the compliance standards 
program be undertaken from an expert and objective point of view.
                               incentives
    It clearly remains vital that efficiency standards are dealt with 
at a national level providing consumers, ratepayers and appliance 
manufacturers the benefits of a national market. However, incentive 
programs are doing a powerful job of supplementing mandatory standards 
and can be targeted to regional energy concerns. The recently enacted 
American Recovery and Reinvestment Act of 2009 (Public Law No: 111-5) 
provided $300 million for the Energy Efficient Appliance Rebate 
Program. This program provides rebates to replace used appliances with 
more energy efficient ENERGY STAR products, as authorized by Section 
124 of the Energy Policy Act 0f 2005 (PL 109-58). A State energy office 
would receive funding once it has established an appliance rebate 
program.
    We appreciate DOE's willingness to listen to our views on this 
matter, but it is essential that DOE does not overly complicate this 
program and distribute this funding to the state energy offices quickly 
and simply. DOE should not allow outside interests to try to use this 
program, which is supposed to be to stimulate consumer spending on new, 
more energy efficient appliances, as a vehicle to try to achieve their 
longstanding political objectives. This program would have the dual 
impact of reducing home energy usage while incentivizing consumer 
spending for manufactured products. Further, the added savings that 
consumers would obtain through lower utility bills would stimulate 
additional spending in the economy. It is imperative that states be 
given the flexibility to implement the details and specifics based on 
their regional needs.
    The stimulus package was intended to help the economy. Shipments of 
major appliances decreased 10% in 2008 and shipments of appliances 
continue to fall. Already, shipments for 2009 are down 20% compared to 
2008. DOE must distribute this funding to the states quickly to help 
stimulate this area of the economy and save energy.
    If every household in the US upgraded to ENERGY STAR appliances, 
residents would save more than $10 billion in utility costs per year. 
The rebate would provide an important benefit to the environment 
through energy savings. By replacing appliances with ENERGY STAR 
appliances, the US would save more than 82 billion kWh per year.
    The energy savings and climate benefits are significant from an 
Energy Efficient Appliance Rebate program. It is a practical, effective 
public policy measure at this time. Retiring older, less efficient 
appliances with ENERGY STAR products is the single, most cost effective 
step a consumer can take to save money and energy.
                               conclusion
    The bottom line is that consumers have great choices for dealing 
with energy efficiency in the home appliance arena. Public policy has 
evolved to blend mandatory and voluntary market programs through the 
Energy Guide label, national appliance standards and Energy Star 
providing a pragmatic approach, but federal agencies need the resources 
to do it right. We look forward to continuing to work with the 
Committee on these issues.
                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

      Responses of Steven Nadel to Questions From Senator Bingaman
    Question 1. Mr. Pitsor has recommended two amendments: to authorize 
an electric motor rebate program, and to give DOE exclusive 
jurisdiction for Energy Star programs involving Solid State lighting.
    What is your position on these?
    Answer. ACEEE has worked with NEMA to refine the proposal for an 
electric motor rebate program. We support the current proposal and 
understand that Senator Lincoln may offer it as an amendment.
    Regarding Energy Star programs for solid state lighting, we prefer 
that DOE and EPA work this out rather than establish the precedent of 
Congress intervening on program details. Furthermore, we believe that 
the portable lighting fixture standard in ASIA provides the foundation 
for resolving this issue, with most solid-state lighting fixtures 
subject to the DOE specification, but fixtures that are primarily 
decorative subject to a specification along the lines of the EPA 
specification. But if the agencies cannot resolve this issue, then we 
support the proposed amendment.
    Question 2. You have proposed amendments establishing efficiency 
standards for three additional products: water dispensers, hot food 
holding cabinets, and portable electric spas. In each case, your 
proposed standard is the same as that adopted in several states.
    Please briefly describe what you know regarding the positions of 
the manufacturers of these products on a federal standard?
    Answer. We have reviewed and discussed the portable electric spa 
standard with the trade association for these products, the Association 
of Pool & Spa Professionals, and they tell us they support this 
standard. Their one comment was to reference a forthcoming ANSI test 
standard and we have provided the suggested edit to Committee staff. 
For the other two products there is no trade association and so we have 
contacted multiple manufacturers. All of the manufacturers we have 
reached support the standard, a few with small edits that we have 
provided to Committee staff.
    Question 3. The Energy Star program encourages the purchase of 
highly efficient products by identifying the top 20-30 percent most-
efficient models with the Energy Star label. There has been discussion 
of authorizing a program that would label the top, few most-efficient 
models, a so-called ``Super Star'' program.
    What do you see as the advantages and disadvantages of this 
concept, and do you think Committee should have DOE and EPA study it 
and report to Congress?
    Answer. Energy Star typically includes at least 25% of the products 
on the market and in some cases more than 50% of the products on the 
market are Energy Star. For most of these products there is no way for 
consumers to differentiate between typical Energy Star products and the 
best products. We have heard suggestions from consumers, from 
manufacturers, and from program operators to provide recognition for 
the best products so consumers who are interested can look for these 
products, and manufacturers and program operators can better promote 
them. The prime advantage of such a ``Super Star'' program would be to 
increase sales and market introduction of the best products, 
accelerating the market transformation process. Such a label would not 
be appropriate for all products, and should be limited to products that 
are cost-effective to consumers over the product life. The disadvantage 
of such a program is that it would require a significant effort to 
explain a new dual program (Energy Star and Super Star) to consumers, 
and if there is not a significant consumer education effort at program 
launch, some consumers will be confused. We believe the potential 
advantages are large enough that EPA and DOE should be directed to 
study the concept.
    Question 4. In Japan the appliance efficiency program is known as 
``Top Runner''. Minimum efficiency standards for a product are 
automatically and periodically increased based on the market share of 
the most-efficient models.
    What are the advantages and disadvantages of this approach and do 
you believe the Committee should have DOE study it and report to 
Congress?
    Answer. The Top Runner approach provides a straight-forward way to 
set new standards and would significantly raise the standard levels 
over time. However, the Top Runner approach does not consider consumer 
economics nor impacts on manufacturers and therefore is a very blunt 
instrument. Furthermore, in Japan at least, my understanding is that 
Top Runner standards are not quite mandatory and that the standards 
cover fleet average efficiency, meaning that some products can fall 
short of the standard as long as an offsetting proportion exceed the 
standard. In Japan I have been told that there is a strong sense of 
shame that manufacturers feel, making the standards nearly mandatory. I 
think U.S. manufacturers have a different attitude and non-mandatory 
standards would not work here. Also, fleet average standards are very 
difficult to enforce. Given these disadvantages, I question whether it 
is worth the resources to study such an approach for the U.S.
     Responses of Steven Nadel to Questions From Senator Murkowski
    Question 1. Please describe briefly how, in your opinion, this bill 
best improves upon the existing structure for updating appliance 
standards.
    Answer. This bill addresses a few limitations in the current 
appliance standards process such as setting deadlines for DOE to 
respond to petitions on initiating test procedure and standard 
rulemakings and allowing fast-track approval of consensus changes to 
test procedures. DOE has often been slow to respond to petitions in the 
past and this bill would prevent this process from dragging on too 
long, while still leaving DOE free to rule on the merits of petitions. 
The bill's process section primarily addresses test procedures and does 
little on the process for setting new standards. In addition, the bill 
directs DOE to study compliance with standards and to develop 
recommendations for improving compliance. Our understanding is that 
while compliance is generally pretty good, there are some compliance 
problems. We hope this study will lead to recommendations and actions 
to improve compliance.
    Question 2. Please describe the different policy options available 
to greater deploy and use energy efficient technology.
    Answer. There are a variety of policy options for increasing use of 
energy-efficient technologies. Among the options are:

  <bullet> Labeling of products for energy consumption, so consumers 
        can identify the most efficient and wasteful products. Labels 
        can have numeric values, a scale (e.g. 1-5 stars), or be a 
        simple pass-fail designation like the current Energy Star.
  <bullet> Promotion and incentive programs to encourage consumers to 
        purchase efficient products. These are commonly operated by 
        utilities, but some states also offer programs. Incentives can 
        also take the form of tax incentives, as were contained in the 
        Energy Policy Act of 2005 and have been revised several times.
  <bullet> Procurement initiatives targeting large-scale purchases of 
        highly efficient products, so manufacturers have an incentive 
        to develop and bring new high-efficiency products to market. 
        Purchasers can be government agencies, utilities, or large 
        companies.
  <bullet> Mandatory minimum efficiency standards that set an 
        efficiency floor and eliminate inefficient products from the 
        market.

    Question 3. Please describe an efficient process that could be 
undertaken to review test procedures within the DOE.
    Answer. DOE needs to systematically review all of its test 
procedures to see that they reasonably estimate performance of typical 
products in actual use and to see that they reasonably measure the 
performance of modern products. EISA directed DOE to review and revise 
all test procedures over a seven year period. We recommend that DOE 
develop a plan and schedule for this process and that DOE prioritize 
test procedures for major products that are known to be out of date, 
such as the procedures for televisions (can't be used for flat screen 
sets), refrigerators (problems with how the procedure treats ice-maker 
energy use), air conditioners (procedure does a poor job of reflecting 
performance in the field), and water heaters (overestimates performance 
of on-demand water heaters). Key parties involved in the standards 
program should be surveyed or interviewed to help identify the test 
procedures that most need updating so these can be targeted first.
    Question 4. Please describe a process that could be undertaken 
within the industry to ensure that there exists ``broad consensus'' 
regarding test procedures.
    Answer. Industry trade associations often work together to develop 
test procedures they all support. Industry has a lot of expertise on 
how to do this. However, this process often leaves out non-industry 
participants who also have useful expertise such as utility, state, 
federal and non-profit organization experts. On the other hand, these 
other experts often do not have enough time to be involved in the many 
detailed meetings needed to develop test procedures. I would recommend 
that at the beginning and middle of each process to develop a test 
procedure, a broad array of experts be invited to help define the needs 
and objectives at the beginning of the process, and assess how well 
these needs and objectives are being addressed in the middle of the 
process, so that the final test procedure is likely to meet the needs 
of most interested parties.
    Question 5. Please describe options on how to ensure that solid 
state lighting (SSL) technologies are pursued in a cooperative fashion 
with both the DOE and EPA and interested stakeholders.
    Answer. We believe that DOE has done an excellent job of working 
with industry to develop technologies, test procedures, and market 
support materials to help advance solid-state lighting. EPA and other 
stakeholders should be invited to identify issues that are not being 
adequately addressed and DOE should be asked to respond to these 
suggestions. As appropriate, some tasks should be delegated to EPA and 
other parties, but given all its work in this area, DOE is the logical 
agency to coordinate this effort.
    Question 6. Please describe the process your organization 
undertakes with the appliance makers to address consensus standards. 
What is your definition of a consensus standard?
    Answer. ACEEE works to develop consensus standards by working with 
a wide array of parties including manufacturers, their trade 
associations, states, utilities, environmental and consumer 
organizations and technical experts. We seek to obtain the best data on 
what is technically feasible and likely to be cost-effective to 
consumers. Based on these data we seek to develop workable draft 
proposals, share drafts with interested parties and solicit comments. 
Based on comments we receive, we modify the draft proposal and seek 
consensus of all parties. However, some parties want strong standards, 
others weaker standards, so consensus often requires compromise among 
the parties. We often seek creative solutions to bridge differences of 
opinion, such as creation of new product classes with different 
standard levels and development of multiple standards and effective 
dates (milder initial standards, stronger latter standards). In order 
to help drive this consensus process, it is usually helpful that some 
action will take place if consensus is not reached, such as a DOE 
rulemaking, state action, or Congressional action. Fear of these 
actions can often drive the critical compromises that are needed to 
reach consensus. In our view a consensus standard is one everyone can 
live with and that is considered superior by all to the alternative of 
not reaching agreement.
                                 ______
                                 
   Responses of Richard D. Upton to Questions From Senator Murkowski
    Question 1. Please describe briefly how, in your opinion, this bill 
best improves upon the existing structure for updating appliance 
standards.
    Answer. The bill would establish ``first time'' energy efficiency 
standards for the portable lighting industry. Importantly, they are 
standards that both industry and advocates support.
    Question 2. Please describe the different policy options available 
to greater deploy and use energy efficient technology.
    Answer. Many policy options are available to help promote energy 
efficiency in residential lighting. The policy which would yield the 
most energy efficiency in residential lighting use would be a policy 
which incentivizes the conversion of the existing housing units to 
switch to more energy efficient lighting. Currently, many regulations 
exist at the state level such as Title 24 in California which requires 
new housing to meet some energy efficiency standards. All the new laws 
directed at residential lighting product whether fixture or portable 
only effect new lighting purchases and as such will take a very long 
time to make significant energy savings when compared to the total 
energy used in residential lighting. The best option to affect the 
greatest energy savings and to try to speed the conversion process to 
energy efficient product would be to supplement new portable lighting 
appliance standards with an incentive to replace the large existing 
stock of residential lighting fixtures through a significant tax 
incentive for consumers to convert to energy efficient product.
    Question 3. Please describe an efficient process that could be 
undertaken to review test procedures within the DOE.
    Answer. The organization responsible for lighting standards and 
lighting test procedures in the U.S. and Canada is the Illuminating 
Engineering Society (IES). The IES has a long history (100+ years) of 
developing practical and technically-correct procedures that involve 
both measurement of light as well as proper lighting application 
information. IES standards are developed using a formal consensus 
process developed by the American National Standards Institute (ANSI). 
Many IES lighting standards are also approved as ANSI standards. Both 
the DOE and the EPA have utilized IES-developed standards in the 
process of advancing efficient lighting including new solid state 
lighting technology and this process has worked efficiently with the 
enthusiastic support of other lighting industry organizations such as 
the American Lighting Association (ALA) and the National Electrical 
Manufacturers Association (NEMA). These organizations have worked 
together, for example, to form ad hoc groups that quickly resolve 
specific test, measurement or lighting application problems. The 
process works well and the DOE should be encouraged to make greater use 
of it for their internal needs since it represents a broader consensus 
than the recommendations of individual contractors or consultants.
    Question 4. Please describe a process that could be undertaken 
within the industry to ensure that there exists ``broad consensus'' 
regarding test procedures.
    Answer. The lighting industry is experienced in working with others 
to develop a broad consensus on major issues including application 
recommendations and test procedures. The industry's own codes and 
standards via the ANSI consensus process is a good example. Another 
example is the widely-used ``Standard 90'' which was first developed in 
1975 and has now gone through several revisions. ``Standard 90'' is the 
basis of energy-efficient lighting design for new buildings in the U.S. 
It is an effort of the IES and the American Society of Heating, 
Refrigerating, and Air-Conditioning Engineers (ASHRAE), but the 
development process has substantially involved the design community, 
building users, owners, developers and the general public.
    The experience of the industry over the last 25 years has proven 
that broad consensus-based efforts, such as described above, are the 
most effective way to change lighting practice and transform the 
lighting market to incorporate energy-efficient products, policies and 
practice.
    Question 5. Please describe options on how to ensure that solid 
state lighting (SSL) technologies are pursued in a cooperative fashion 
with both the DOE and EPA and interested stakeholders.
    Answer. Options to gain cooperative action on LEDs between the EPA, 
the DOE industry and other stakeholders:

          A. Direct the EPA & the DOE to keep their discussion agenda 
        focused on substantive program differences vs. ``turf'' 
        battles.
          B. The Senate Energy & Natural Resources could direct the EPA 
        & the DOE to add other parties to their 45 day process, 
        including industry representatives (ALA & NEMA) one or two 
        advocates, plus one or two members of the Senate and House 
        Energy Subcommittees.

                  Totals:
                    Industry 2
                    Advocates 2
                    Government 2 or 4

          C. If the EPA & DOE can not reach a successful resolution to 
        their differences have the 6 to 8 parties identified in the 
        above ``B'', convene and develop recommendations and submit 
        them to a joint Senate and House Energy Subcommittee panel for 
        ratification.

    Question 6. Please explain the benefits of a consensus process 
between advocates and industry and how they can work effectively with 
government to move the market forward. Can this be done without 
mandates?
    Answer. The key benefit of gaining a consensus between advocates, 
industry and government, when establishing legislation on a product, is 
you create a ``uniform voice'' to consumers regarding the product. As a 
result you have the opportunity to gain the consumers ``buy-in'' and 
the best opportunity for a successful market transformation. Without a 
``uniform voice'' the parties send competing messages to consumers and 
they are then confused. When confused the consumer tends to ignore all 
messages and continues to purchase products they know and are 
comfortable using.
    In setting any mandates it is important that: 1) they not price any 
new technology out of the market place and/or stunt their development, 
2) any requirements should be available. For example, after the 190 
watt power limiter was legislated for torchieres we learned there was 
no technology available and the industry was very challenged to meet 
the required deadline set for the product.
    Regarding mandates--they should, in our view, be limited and only 
used if there is a significant safety issue or over arching objective 
to be obtained. Most all, safety issues are met in the lighting 
industry through the requirements of UL standards and the Uniform 
Electric Code. Both entities do an excellent job of keeping their 
standards/codes up-to-date and have frequent, scheduled reviews.
    The most effective mandates are those that industry, with input 
from others, requests of government such as SB 598 where we, the 
lighting industry with the participation of ACEEE, have recommended 
action on energy efficient portables. In this instance government and 
advocates will gain significant energy savings and industry knows it 
will be able to successfully produce energy efficient products that 
give consumers the choices they want.
                                 ______
                                 
     Responses of Mark Connelly to Questions From Senator Murkowski
    Question 1. Please describe briefly how, in your opinion, this bill 
best improves upon the existing structure for updating appliance 
standards.
    Answer. The Appliance Standards Improvement Act of 2009 improves 
the existing structure for updating appliance standards in several 
ways:

  <bullet> First, by allowing any person to petition DOE to amend test 
        procedures and requiring DOE to act on the petition within 180 
        days.
  <bullet> Second, it requires the DOE Secretary to review all test 
        procedures at least once every 7 years. While an improvement 
        over no review requirement whatsoever, this proposed review 
        cycle remains too infrequent. In our opinion, the review cycle 
        should be half that being proposed, that is, once every 3\1/2\ 
        years, since technology changes quickly and test procedures 
        need to keep up.
  <bullet> Third, it requires a review of product categories when 
        market share for an Energy Star product reaches 35%. Again, 
        this is better than the current lack of any requirement, but it 
        is our opinion that this percentage should be lowered to 25% 
        since setting a higher bar will result in a more meaningful 
        program.
  <bullet> Fourth, test methods are to be reviewed and revised to 
        reflect actual product use. (Please see my answer to question 6 
        for details.)
  <bullet> Finally, a demonstration of compliance with Energy Star 
        shall include, as appropriate, third-party verification, third-
        party certification, and government purchase and testing of 
        products from the market. We suggest, however, that the phrase 
        ``as appropriate'' be deleted since we believe these are always 
        needed.

    Question 2. Please describe the different policy options available 
to greater deploy and use energy efficient technology.
    Answer. Some available policy options for deploying and using 
energy efficient technology include continually raising the bar for the 
Energy Star program. When more than 35% of all products sold in any 
given category have achieved an Energy Star, then that signals that the 
technology and economies of scale have reached a point where achieving 
an Energy Star is too ``easy'' and that the bar need to be raised.
    Also of concern is that there are no minimum performance standards. 
For example, as dishwasher energy efficiency becomes tighter, 
manufacturers may be tempted to sacrifice wash performance. At this 
point, without minimum performance standards, there is a danger where 
Energy Star products get a bad reputation--much like low flow toilet 
had when they were first introduced.
    Question 3. Please describe an efficient process that could be 
undertaken to review test procedures within the DOE.
    Answer. One simple way to improve the process would be to solicit 
stakeholders once each year about what, if any, test procedure changes 
are warranted. (Stakeholders would include manufacturers, umbrella 
organizations like AHAM, retailers such as Sears, Home Depot, and 
Lowes, and consumer groups such as ACEEE and Consumers Union.)
    Another way to improve the process is to review DOE test procedures 
when more than 10% of the products (as measured by sales volume) in any 
given category have been granted waivers by DOE.
    That many waivers indicate that test procedures are out of date 
relative to the products in the market. At that point, a task force 
could be appointed by DOE to determine whether test procedures need to 
be modified. The task force would be given a short deadline (one month) 
to determine if test procedures need to be modified and recommend how 
they should be modified. The task force should be small, but consist of 
at least one representative from industry (e.g., AHAM), DOE, and a 
consumer group (e.g., ACEEE).
    Question 4. Please describe a process that could be undertaken 
within the industry to ensure that there exists ``broad consensus'' 
regarding test procedures.
    Answer. AHAM (Association of Home Appliance Manufacturers) the 
appliance manufacturers' umbrella organization, provides that process 
now. However, influence in AHAM is proportional to market share, 
meaning large companies can monopolize the process and possibly block 
consensus and progress. While non-manufacturers and consumer groups can 
comment on AHAM proposals, our experience--not surprisingly--has been 
that manufacturers' concerns and perspectives always come first. 
Outside the appliance industry, other similar umbrella organizations 
could be utilized. While it is always nice to have a broad consensus, 
it is our opinion that government needs to ensure that the expectations 
of the marketplace are met, especially when consumers are paying a 
premium, as they are with Energy Star products.
    Question 5. Please describe options on how to ensure that solid 
state lighting (SSL) technologies are pursued in a cooperative fashion 
with both the DOE and EPA and interested stakeholders.
    Answer. We suggest that one of the two agencies should be appointed 
as the lead. Our recommendation is that EPA be made the responsible 
agency. EPA has a larger staff and budget devoted to the Energy Star 
program. In fact, we believe that responsibility for all lighting 
products be given to EPA. The need for sustainable lighting development 
should take into account additional issues, like toxic materials and 
recycling needs. This can be best accomplished in a centralized 
approach that is lead by the EPA. Please note that we'd like to add our 
concern that halogen lighting is being exempted from efficiency 
standards. Halogen lights use much more energy than CFLs, just like 
other incandescent lights. While halogens are more efficient than 
standard incandescent bulbs, granting them an exemption would be 
unfortunate.
    Question 6. Please describe how the energy star label factors into 
your product rating systems.
    Answer. The Energy Star label does not factor into product ratings 
published by Consumer Reports or ConsumerReports.org. While we may 
report whether or not a product has an Energy Star, this is only to 
help our subscribers identify the product when they shop.
    In many cases, we do not agree that the DOE test procedures 
represent consumers' experience. Quite simply, in many cases the DOE / 
Energy Star tests are too easy. For example, although dishwashers are 
now tested with soiled dishes, the amount of soil is anemic and on 
average, represents about 1 soiled plate (out of 10 plates). By EPA's 
own estimate, consumers would be wasting about 6,000 gallons of water 
per year--and the energy used to heat that water--by running pre-rinsed 
dishes through the dishwasher.
    For washing machines, the test load averages to about an 8 pound 
load and does not ``stress'' or assess the machine at its maximum load. 
However, all manufacturers (especially for front loading and high-
efficiency top loading washers) tout their machines' maximum capacity 
in advertising.
    When testing refrigerators, electricity consumption is calculated 
with the fresh food compartment at +45 F. At this temperature, food 
will quickly spoil. (We recommend +37F). In many cases, the conditions 
at which appliances are tested are akin to measuring vehicle fuel 
economy when going downhill with a tailwind.
    Question 7. In your opinion, will the Department of Energy ever be 
able to keep up with changing technology, even with these improved 
streamlines?
    Answer. Yes with these improved streamlines and increased attention 
to the issues, DOE should be able to do a better job of keeping up with 
ever-changing technology. DOE has to keep up because consumers are 
relying on DOE's information when purchasing appliances and other 
products that will be consuming electricity for years to come.
    Question 8a. You mentioned a test done on refrigerators with their 
ice makers turned off that allowed manufacturers to take advantage of a 
testing loophole in order to sell a product undeserving of an Energy 
Star.
    What sanctions, if any, do you think there should be for these 
manufacturers?
    Answer. The sanctions that DOE put in place were appropriate. 
However, DOE should threaten even bigger sanctions in the future to 
prevent manufacturers from taking advantage of situations like this 
again. DOE should also consider mandatory third-party testing and 
certification of appliances from manufacturers who take advantage of 
testing loopholes. For example, if one refrigerator is found out of 
compliance, all their models of that type in that line/type need to be 
subject to mandatory, third-party testing. Of course, if DOE reviews 
test procedures more frequently, the likelihood of this happening again 
diminishes.
    Question 8b. Are the examples used in your testimony anecdotal, or 
do you believe there is widespread abuse?
    Answer. The examples used in our testimony were real and 
disturbing. It is difficult to say how widespread they are without 
casting a very wide net and testing many more products.
    Question 9. You mention the example of the dishwasher being tested 
with clean dishes instead of dirty ones, resulting in a skewed 
efficiency rating for dirt-sensing dishwashers. Are there examples 
where your reports have been able to positively influence the test 
procedures?
    Answer. Consumers Union can only test a fraction of the total 
appliances in a market. In addition, the resources we can devote to 
publicizing our findings dwarfs those that manufacturers can marshal 
through advertising and promotion to drown out our findings. Finally, 
Consumers Union and Consumer Reports is no substitute for systematic, 
rigorous, and regularly updated test protocols.
                                 ______
                                 
       Response of Kyle Pistor to Question From Senator Bingaman
    Question 1. Mr. Nadel proposes several amendments dealing with: BR 
lamps; state enforcement; multiple metrics; building codes; state 
waivers, and data reporting.
    Please give the committee your reaction to these proposals for the 
record (if NEMA does not have stakeholders with an interest in any one 
of these amendments, would you help us coordinate a response from the 
appropriate association)?
    Answer. BR Lamps--NEMA and ACEEE reached a consensus agreement on 
coverage of the remaining few BR lamps through a DOE rulemaking and 
submitted the recommendation to the Committee. The Committee 
subsequently approved the agreement during mark-up on March 31, 2009.
    State Enforcement--States (and persons) currently have authority to 
enforce federal law under 42 USC Section 6305. Sec. 6305 allows 
``persons'' to file citizen suits to enforce a violation of any part of 
the Act or a Rule provided they give 60-day notice to the Secretary of 
Energy, the Federal Trade Commission, and the alleged violator. 
Presumably this gives the alleged violator of a 60-day cure period to 
avoid an enforcement action from ``any person.''.
    In EISA 2007, Congress amended Sec 6304 to allow States to seek 
injunctive relief to enforce general service incandescent light bulb 
standards. This was a special case due to nature of the regulated 
product and the manner in which light bulbs reach consumers through 
distribution. Light bulbs are not refrigerators or commercial HVAC 
equipment or utility distribution transformers. Over a billion light 
bulbs are sold each year and given the new light bulb standards that 
begin in 2012, it was felt that injunctive relief might assist in DOE's 
enforcement of the light bulb standards. The key difference with the 
EISA provision, is that in the case of light bulbs, no 60-day notice 
need be given. The unique nature of light bulbs as a federally-
regulated product is the only reason these products were treated 
specially for enforcement. Those reasons do not exist for other 
federally-regulated products.
    Multiple Metrics--Efficiency is regulated at the appliance or 
equipment system-level. Permitting DOE to set a standard on a component 
of a regulated product is inappropriate since manufacturers need to 
have flexibility to trade-off various component technologies to achieve 
the overall efficiency of the product, and they need flexibility to 
innovate components as well.
    Building Codes--Congress has established a specific framework for 
the interaction of the federal energy efficiency requirements on 
products and states establishment of building codes prescribing 
technologies and efficiency requirements. That framework must be 
supported; otherwise, products that are legally permitted under federal 
law could be prohibited due to a state building code that was written 
with efficiency requirements that prohibit such products.
    State Waivers--The suggestion seems to be a solution looking for a 
problem. No state waiver has ever been denied due to lack of product 
data from manufacturers. States must show a compelling and unique state 
circumstance for a waiver of federal preemption. The unique or 
compelling state circumstance is not a function of manufacturers' 
product data being available or not.
    Data Reporting--DOE already has legal authority to request 
information of manufacturers. Manufacturers already provide information 
to DOE during the technical assessment for specific product 
rulemakings. Requiring detailed annual reporting of information to DOE 
raises questions on how the information would be used and protected, 
not to mention the costs for the hundreds of manufacturers and 
importers that would now file such annual reports.
      Responses of Kyle Pistor to Questions From Senator Murkowski
    Question 1. Please describe briefly how, in your opinion, this bill 
best improves upon the existing structure for updating appliance 
standards.
    Answer. The bill provides certainty by establishing specific 
deadlines for decisions and/or actions by the administering agencies. 
The bill mandates a review every 7 years of standards/test procedures 
if the product is not under a prescribed review cycle. It expands on 
the EISA 2007 consensus process for standards by adding test procedure 
updating. The bill also seeks to improve on the enforcement of the 
standards through a study and report on recommendations to the 
Congress.
    Question 2. Please describe the different policy options available 
to greater deploy and use energy efficient technology.
    Answer. Advancing energy efficiency comes about through the use of 
a mix of policy approaches. Product standards establish energy 
efficiency requirements for products thereby eliminating the least 
efficient products in favor of higher efficient products. Consumer 
education is carried out by many stakeholders, including manufacturers, 
and is a key driver in gaining understanding and acceptance of new, 
energy efficient products. Labeling of products provides information to 
the purchaser on the energy costs of operating the equipment and 
assists the purchaser in making trade-off decisions of first cost 
versus life cycle costs of operation. Building codes that are 
performance based provides the builder or architect with flexibility in 
selecting specific components and technologies in order to achieve 
overall energy efficiency of the structure. Voluntary programs like 
Energy Star is another type of consumer education since the Energy Star 
mark on the product indicates that the product represents a higher 
efficiency than products not containing the mark. Procurement of energy 
efficient products by federal and state governments can be a driver in 
the market inasmuch as it can influence private sector procurement 
decisions. Most energy efficient products have an initial higher cost 
than inefficient products. Energy tax incentives (e.g., rebates, tax 
credits, accelerated depreciation, tax deductions) assist in overcoming 
the initial cost hurdle in purchasing energy efficient technologies.
    Question 3. Please describe an efficient process that could be 
undertaken to review test procedures within the DOE.
    Answer. Typically, test procedures are reviewed when DOE undertakes 
a rulemaking to consider amending the energy standard for the product. 
The test procedure is the first step in the standards-setting process 
since an agreed upon test procedure is needed in order to determine if 
a product meets or exceeds an established energy efficiency level. 
Since products are reviewed by DOE on a prescribed basis, the revision 
of the test procedure should go hand-in-hand. In come cases, DOE adopts 
a specific version of a test procedure which may then get modified or 
updated by the Standards Development Organization (SDO) that wrote the 
standard. In such cases, it may be appropriate to update the DOE 
adopted procedure to reflect the changes made by the SDO. The 
legislation under consideration would permit such an update through the 
submittal of a petition and for DOE to conduct a rulemaking to 
ascertain whether the petition should be granted and the test procedure 
amended. In many cases, the SDO changes may be quite minor and the 
updating of the DOE adopted procedure is noncontroversial. In those 
cases, the legislation allows DOE to adopt the petition as a direct 
final rule, subject to objection by an interested party and withdrawal 
of the action by DOE.
    Question 4. Please describe a process that could be undertaken 
within the industry to ensure that there exists ``broad consensus'' 
regarding test procedures.
    Answer. The writing of a test procedure results in the sponsoring 
SDO to have the document balloted for approval. Under the American 
National Standards Institute (ANSI) process, such balloting takes place 
to ensure that there is a ``balance of interests'' involved in 
approving the procedure which include manufacturers, users, general 
interest, and government. Any negative votes on the document must be 
addressed by the sponsoring SDO, and there is a due process mechanism 
to address any balloting questions. A concern with ``international'' 
test procedures is that they may not apply similar ``ANSI'' processes.
    In submitting a consensus recommendation to DOE, either on a test 
procedure or on an efficiency standard, the recommendation needs to 
have the support of a broad group of interests including manufacturers, 
non-governmental efficiency organizations, state governments, 
utilities, and other stakeholders related to the product in question.
    Question 5. Please describe options on how to ensure that solid 
state lighting (SSL) technologies are pursued in a cooperative fashion 
with both the DOE and EPA and interested stakeholders.
    Answer. Solid state lighting represents a new lighting technology 
which has the promise of transforming how lighting products are 
manufactured, designed, and installed. This process will take years, 
and the results could be quite dramatic for our economy. Such a 
paradigm shift in lighting will be successful if all parties approach 
the matter in a collaborative manner. All parties will have a role to 
play in assisting the deployment of the technology, in educating 
consumers, in changing codes and practices, and in sharing best 
practices. The Energy Star program offers the promise of assisting 
consumers in selecting the best performing of these new SSL products 
thereby supporting the transformation of the lighting market. If 
consumers have a ``bad'' experience with new technology, then they will 
resist change. It is therefore critical that the government agencies 
involved (and their contractors) coordinate efforts in a cross-agency 
process that engages the SSL industry. NEMA favors consolidation of SSL 
technology programs at DOE given its expertise in SSL, and recommends 
that EPA and other agencies defer to DOE on issues relating to SSL 
Energy Star requirements for residential and commercial lighting 
fixtures that use SSL technology as the light source.
    Question 6a. Outdoor lighting efficiency standards seems like a 
huge opportunity for energy savings, considering the vast numbers of 
lights lining streets, highways and parking lots across America.
    Can you elaborate on the specifics of the proposal that you 
mentioned in your testimony?
    Answer. Discussions are underway within the lighting industry 
(lamps, ballast, luminaires, and lighting controls) on appropriate 
approaches to increase the deployment of energy-efficient outdoor 
lighting technologies and products. These approaches may includes 
efficiency standards to prohibit lower efficient technologies in favor 
of commercially available alternatives that are cost effective to end-
users; application based approaches given the variety of outdoor 
lighting uses that may require different products for different 
applications; and energy tax incentives to deployment technologies.
    Question 6b. What barriers currently exist?
    Answer. Outdoor lighting, like most lighting, is application 
specific and therefore no single approach may meet all the needs. In 
seeking to address energy costs associated with outdoor lighting, one 
must also consider concerns for sky glow, light trespass, effects on 
animals and plants, glare, brightness perception, safety and security, 
and circadian disruption. End-users of outdoor lighting also are quite 
varied. There is lighting associated with lighting the exterior of 
buildings, but also street and roadway lighting which includes 
municipalities, utilities, federal and state departments of 
transportation. Each of these end-use applications must be taken into 
account in crafting a national outdoor lighting approach.
                                 ______
                                 
      Responses of Brian McLean to Questions From Senator Bingaman
    Question 1. How serious do you believe the compliance problem is 
with Energy Star; how many staff do you have for monitoring and 
enforcement; and are there specific plans to increase this capacity in 
FY2010?
    Answer. For the product categories EPA manages, which comprise more 
than 50 of the 60 product categories covered in the ENERGY STAR 
program, EPA has in place a comprehensive quality assurance program for 
assuring the integrity of the ENERGY STAR label. This includes formal 
partnership agreements with manufacturers; an initial certification 
process that uses standardized, formal test procedures; and the review 
of submitted data. In terms of verification testing, EPA uses a 
combination of approaches to maximize coverage of the product 
categories covered under the ENERGY STAR program so as to effectively 
use government resources. These approaches include EPA testing of 
products, leveraging the testing programs of third parties, and 
specific testing programs for certain product categories. For example, 
in residential lighting, EPA also requires quality assurance testing to 
drive enhanced quality assurance and quality control processes for 
manufacturers, as quality has been shown to be lacking for some 
lighting products.
    To date, EPA has conducted verification testing on 14 product 
categories, testing more than 400 product models. Of the more than 400 
models tested, only four failed to meet all relevant ENERGY STAR 
performance requirements. The issues in those four instances have been 
resolved.\1\ EPA recognizes that the dramatic growth in the size of the 
ENERGY STAR program and the increasing complexity of the products 
covered warrant expanded scrutiny. To that end, EPA is phasing in 
verification testing requirements (in addition to qualification 
testing) as part of the ENERGY STAR partnership, starting with 
computers. EPA believes this will be an effective mechanism to ensure 
compliance, without requiring a substantial additional investment in 
EPA staff time.
---------------------------------------------------------------------------
    \1\ Maintaining the Value of ENERGY STAR: 2007 Report (USEPA, 2008) 
and testing results from 2008 product verification testing.
---------------------------------------------------------------------------
    Question 2. The Energy Star program encourages the purchase of 
highly efficient products by identifying the top 20-30 percent most-
efficient models with the Energy Star label. There has been discussion 
of authorizing a program that would label the top, few most-efficient 
models a so-called ``Super Star'' program.
    What do you see as the advantages and disadvantages of this 
concept, and do you think Committee should have DOE and EPA study it 
and report to Congress?
    Answer. EPA believes super efficient products offer an important 
opportunity for energy savings and greenhouse gas emissions reductions 
and is supportive of promoting them in the market. In fact, in response 
to a need expressed by our energy efficiency program partners (e.g., 
utilities), we have developed a ``Save More'' marketing platform that 
has been used in a number of successful applications to highlight 
higher tier ENERGY STAR products. This platform uses higher efficiency 
levels that have been developed by the Consortium for Energy Efficiency 
(CEE), a non-profit membership organization implementing energy 
efficiency programs across the country. Before pursuing additional 
approaches, there are a number of issues to consider:

  <bullet> Is a new designation for super efficient products the most 
        effective approach for promoting such products given the 
        typically much higher first costs to consumers; and how would 
        the issue of these higher first costs be addressed?
  <bullet> How does such a designation interact with the tax credits 
        that have been established for a variety of super efficient 
        products? Do the tax credit requirements implicitly already 
        provide this designation?
  <bullet> How would this effort interact with a number of other 
        ongoing efforts to define and promote super efficient products 
        such as the Consortium for Energy Efficiency's Tiers, the tax 
        credits mentioned above, and a new Top Ten program designating 
        the top ten efficient products being developed through a newly 
        formed non-profit?
  <bullet> Does the ENERGY STAR program already capture many of these 
        benefits given that it is not a static program, but is 
        regularly updated to have more stringent requirements as the 
        market moves?
  <bullet> Is this designation one that key market players such as 
        utilities, retailers and others can effectively support in the 
        market place and under what conditions does more information 
        assist consumers versus complicate the purchasing process?

    EPA continually reviews these types of issues and the role the 
ENERGY STAR is playing in advancing energy efficient products in 
partnership with market players.
     Responses of Brian McLean to Questions From Senator Murkowski
    Question 1. Please describe briefly how, in your opinion, this bill 
best improves upon the existing structure for updating appliance 
standards.
    Answer. EPA is responding to questions regarding this legislation 
from the perspective of its role with the ENERGY STAR Program, which 
involves a set of voluntary standards. As we indicated in our written 
testimony, we believe we have the necessary authority to update ENERGY 
STAR specifications and test procedures without the need for additional 
authorities as provided in this bill.
    Question 2. Please describe the different policy options available 
to greater deploy and use energy efficient technology.
    Answer. There is a broad range of policy options available to 
increase the deployment, use, and benefits of energy efficient 
technologies and practices. These go well beyond mandatory appliance 
standards and the labeling of appliances that were the focus of the 
March 19th Senate Energy and Natural Resources Committee hearing. The 
policy options cut across federal, state, and local governments and 
they involve a number of federal agencies including EPA, the Department 
of Energy, the Department of Housing and Urban Development, and the 
General Services Administration. The full portfolio of energy 
efficiency policy options include:

  <bullet> Energy Efficiency Programs (utility, 3rd party, and/or 
        government)
  <bullet> Building Labeling and Energy Performance Disclosure (e.g., 
        Energy Star and Energy Smart Home Scale)
  <bullet> Appliance Labeling [e.g., Energy Star (voluntary) and 
        Federal Trade Commission EnergyGuide (mandatory)]
  <bullet> Building Codes (mandatory)
  <bullet> Appliance Standards (mandatory)
  <bullet> Utility Regulatory Policy (e.g., resource planning, utility 
        financial incentives, rate design, and distributed generation 
        policies)
  <bullet> Tax Policy
  <bullet> Other Government Policies (e.g., ``lead by example'' in 
        government owned buildings and procurement policies)
  <bullet> Energy Efficiency Resource Standards (EERS)
  <bullet> Existing Federal Statutory Authorities (Clean Air Act)

    Question 3. Please describe an efficient process that could be 
undertaken to review test procedures within the DOE.
    Answer. EPA defers to DOE in responding to this question.
    Question 4. Please describe a process that could be undertaken 
within the industry to ensure that there exists ``broad consensus'' 
regarding test procedures.
    Answer. EPA makes use of an open, transparent, and inclusive 
process when developing ENERGY STAR specifications. A key element of 
this process is the identification of a well vetted, fair, accurate, 
and reliable test procedure that ensures that products compete on a 
level playing field when testing for ENERGY STAR qualification. 
Whenever possible, the Agency references test procedures developed 
through a consensus-based standard development process like, for 
example, that which is offered by the International Electrotechnical 
Commission (IEC). Such testing standards are also global in nature and 
offer the benefit of international harmonization for product testing, 
saving manufacturers and governments considerable resources. For 
example, EPA was actively engaged in, and requires the use of, IEC62087 
for testing On Mode TV energy use, and IEC 62301 for testing standby TV 
energy use as part of the ENERGY STAR program.
    In cases where a consensus-based standards body has not created a 
test procedure for a product category that EPA wishes to add to the 
ENERGY STAR suite of products, EPA will draft and vet with stakeholders 
a product testing approach. For example, EPA proposed and vetted with a 
wide range of interested parties--from manufacturers, to cable, 
satellite, and telecomm service providers, to utilities, and non-profit 
organizations--a means of testing the energy performance of cable, 
satellite, and telecomm boxes. EPA and stakeholders finalized this test 
procedure and EPA has called for its use in the first phase of its 
ENERGY STAR Cable, Satellite, and Telecomm requirements (effective 
January 1, 2009). EPA has also engaged with the IEC in the development 
of a test standard for these products and IEC is considering making use 
of large portions of the current ENERGY STAR test procedure. Should IEC 
finalize a test procedure for cable, satellite, and telecomm boxes that 
EPA feels confident is fair and produces accurate and reliable results, 
EPA will call for the use of the IEC test procedure for the next phase 
of its ENERGY STAR Cable, Satellite, and Telecomm Requirements (in 
effect January 2011).
    Question 5. Please describe options on how to ensure that solid 
state lighting (SSL) technologies are pursued in a cooperative fashion 
with both the DOE and EPA and interested stakeholders.
    Answer. This is an issue that EPA and DOE will specifically address 
as part of the 45 day process to improve coordination between the 
agencies. We plan to report back to the Committee on a resolution to 
this issue in that timeframe.
    Question 6. Please further describe the timeframe you will 
undertake to accomplish your recommendation to improve interagency 
coordination of the ENERGY STAR Program. Please describe how you will 
work with Program stakeholders to improve the success of the ENERGY 
STAR Program.
    Answer. EPA and DOE will report back to the committee within 45 
days as to the resolution of issues with interagency coordination and 
standardization of program management across the agencies. This effort 
will involve identification and discussion of these issues and 
resolution of the issues. Written documentation of the resolution will 
be provided.
    EPA will continue to work with program stakeholders to increase the 
benefits the program offers in EPA's areas of responsibility with the 
ENERGY STAR program, which constitute about 90 percent of the program 
areas and include:

  <bullet> more than 50 product categories across heating and cooling, 
        lighting, office equipment, home electronics, and commercial 
        food service;
  <bullet> new homes construction;
  <bullet> new and existing commercial and existing buildings; and
  <bullet> industrial energy management

    Question 7. Please describe the administrative tools you have to 
improve the overall efficiency of appliances. What other tools do you 
believe are necessary to ensure that we continue to achieve greater 
success within this area?
    Answer. EPA has designed and managed the ENERGY STAR program to 
improve the efficiency of a wide variety of consumer products including 
heating and cooling equipment, office equipment, consumer electronics, 
commercial food service and light fixtures. The ENERGY STAR program is 
employed to help consumers find products that are more efficient than 
federal minimum standards as well as products in product categories not 
subject to federal standards. The ENERGY STAR program is well 
positioned to continue to play this role. For example, as of 2007, the 
ENERGY STAR Program, with the support of ENERGY STAR program partners 
such as states, local governments, and others, is delivering more than 
48 TWh of electric savings and 8.5 MMTC of greenhouse gas reductions 
annually from qualified office equipment.\2\ ENERGY STAR qualified 
consumer electronics, such as TVs, DVDs, audio products and products 
with external power adapters are delivering a combined savings of 14.7 
TWh and 2.8 MMTC in greenhouse gas reductions per year.\3\ For rapidly 
changing, globally traded products such as office equipment and 
consumers electronics, ENERGY STAR has proven a particularly effective 
approach to driving greater efficiency.
---------------------------------------------------------------------------
    \2\ ENERGY STAR and Other Climate Protection Partnerships: 2007 
Annual Report (USEPA, 2008)
    \3\ Ibid.
---------------------------------------------------------------------------
    Question 8. One area of concern regarding the Standards Program has 
been the turn around time in ensuring that test procedures and energy 
conservation standards are monitored and updated as needed. Please 
describe how you will address these concerns.
    Answer. EPA defers to DOE in responding to this question.
    Question 9. Within your testimony you reference that you are doing 
all that you can to examine and review operations to be even more 
efficient and productive--can you please further elaborate what these 
operations entail?
    Answer. The testimony reference noted in this question is from 
DOE's testimony from the March 19, 2009, hearing and therefore EPA 
defers to DOE in responding to this question.
       Response of Brian McLean to Question From Senator Barrasso
    Question 1a. Improving appliance energy efficiency is an important 
component of keeping consumers' energy bills down.
    The Energy Star program has helped consumers make informed 
decisions regarding energy efficiency products.
    It has also raised consumer awareness of the issue and encouraged 
manufacturers to improve efficiency.
    There are, however, products made by small businesses in my state--
innovative, energy-conserving products--that have faced challenges with 
the Energy Star program.
    Are heating devices, like space heaters, currently included in the 
Energy Star Program?
    Answer. Space heaters are not currently included in the ENERGY STAR 
program. EPA has historically focused on the mass market for 
traditional forms of heating where the greatest opportunities for 
reducing greenhouse gas emissions exist (i.e., central AC and heating). 
These equipment types also have solid, industry vetted test procedures, 
and meet ENERGY STAR program guiding principles, including:

          1) Significant energy savings can be realized on a national 
        basis.
          2) Product performance can be maintained or enhanced with 
        increased energy efficiency.
          3) Purchasers will recover their investment in increased 
        energy efficiency within a reasonable time.
          4) Energy efficiency can be achieved with several technology 
        options, at least one of which is non-proprietary.
          5) Product energy consumption and energy performance can be 
        measured and verified with testing.
          6) Labeling would effectively differentiate products and be 
        visible for purchasers.

    EPA's prior assessments of space heaters demonstrated that although 
space heaters can deliver heat in a cost effective and efficient 
manner, in some limited situations they do not offer the opportunity 
for efficiency that whole home systems do. EPA could revisit this 
assessment if new information comes to light.
    Question 1b. Do residential heating systems that independently 
generate 100 percent of their power from an attached solar or wind 
power source qualify for consideration? If not, why?
    Answer. The ENERGY STAR Program currently addresses furnaces, 
boilers and heat pumps. To the extent these products meet the relevant 
ENERGY STAR specification, regardless of their power source, they could 
qualify. We do not specifically qualify residential heating systems 
that independently generate 100 percent of their power. Given the need 
for back-up power for solar or wind sources, we are not aware that such 
a heating system exists.
                                 ______
                                 
     Responses of David Rodgers to Questions From Senator Bingaman
    Question 1. I have a strong interest in the integrity of the Next 
Generation Lighting Initiative and I share the frustration of the 
industry partners in the Initiative that EPA and DOE have established 
different and conflicting test procedures for solid state lighting.
    Given DOE's leadership in the development and understanding of this 
new technology, why should DOE not have exclusive jurisdiction with 
respect to Energy Star activities related to solid state lighting? Flow 
and when do you plan to resolve this conflict?
    Answer. The Department of Energy has maintained a preeminent 
position in solid-state lighting (SSL) since 2002 with its research and 
development program and its commercialization support efforts. The 
Department has worked diligently to establish a strong relationship 
with industry and all stakeholders in an effort to assure that the 
marketplace for SSLs was in no way compromised by lack of quality 
products. The Department recognizes that the energy savings potential 
of SSLs is huge--the potential to reduce lighting energy use by 33 
percent--and has focused each clement of its Program on meeting that 
potential.
    The Department intends to work in partnership with the 
Environmental Protection Agency (EPA) in the current inter-agency 
deliberations to address any ENERGY STAR Program differences, including 
those with SSLs.
    Question 2. On page 5 you outline the case of cheating by a 
refrigerator manufacturer. The investigation by Consumer Reports 
indicates that compliance may be a systemic problem. You state that DOE 
is establishing third party testing and that there is ``new work that 
coincides with recommendations for program improvement.''
    Could you be more specific? For example, how many positions are 
dedicated to monitoring and enforcing compliance, and what are the 
plans to increase this capacity in fiscal year 2010?
    Answer. The Department of Energy (DOE) is exploring ways to 
strengthen monitoring and enforcement provisions of both ENERGY STAR 
and the Department's energy conservation standards. DOE is evaluating, 
for example, recommendations from its Peer Review of the ENERGY STAR 
Program, the Consumer Reports article, and stakeholder feedback.
    The ENERGY STAR Program across the eight product categories managed 
at DOE already requires third party testing of Compact Fluorescent 
Lamps and Solid State Lighting, and third party qualification testing 
of windows, doors, and skylights. Appliances are currently self-
certified by manufacturers using DOE test procedures. The Department is 
considering whether to establish a random off-the-floor testing program 
of these products in order to ensure products at retail meet ENERGY 
STAR qualifying criteria. If the program were started, the Department 
would anticipate dedicating up to one-half of a full time equivalent 
(FTE) position at Headquarters to manage third party testing for the 
products in the ENERGY STAR program. At DOE's operational contractor's 
office, it is expected 0.75 FTE will be required to handle the 
logistics of the program. At the testing laboratories, where there is 
one facility dedicated for lighting products, one for appliance testing 
and between seven to ten for fenestration product testing and 
simulation, the Department expects upwards of five FTEs working solely 
on ENERGY STAR verification testing.
    The Appliance Standards Program is equipping a testing facility at 
the National Energy Technology Laboratory (NETL) where products will be 
tested to verify their compliance with efficiency standards. The 
facility will also be used to gather information related to product 
cost impacts resulting from increases in energy efficiency. Start up of 
this facility is underway with ramping up of activities to occur 
through out FY2010.
    Question 3. The Energy Star program encourages the purchase of 
highly efficient products by identifying the top 20-30 percent most-
efficient models with the Energy Star label. There has been discussion 
of authorizing a program that would label the top, few most-efficient 
models, a so-called ``Super Star'' program.
    What do you see as the advantages and disadvantages of this 
concept, and do you think the Committee should have DOE and EPA study 
it and report to Congress?
    Answer. This concept of a ``Super Star'' has been discussed at the 
program level for some time and the Department welcomes the opportunity 
to investigate it more fully. The advantage of such a program is that 
it could provide the consumer with a broader picture of what energy 
efficiency purchases are available and allow better alignment with 
utility incentives for customers, or incentives to retailers and/or 
manufacturers. A potential disadvantage will be communicating the new 
approach to consumers to avoid confusion when individuals attempt to 
determine which level is appropriate for their specific needs. These 
are issues that need to be investigated.
    Secretary Chu recently stressed the key role that energy efficiency 
in appliances and buildings should play in curbing greenhouse gas 
emissions. He also emphasized the need to ensure that consumers sec 
efficient appliances and home materials as choices that will ultimately 
save them money. The Secretary has described a ``superstar'' category 
of perhaps the top 5 to 10 percent best performers, saying this would 
allow manufacturers to claim that their products would ultimately save 
consumers the most money despite higher up-front costs.
    Question 4. In Japan the appliance efficiency program is known as 
``Top Runner.'' Minimum efficiency standards for a product are 
automatically and periodically increased based on the market share of 
the most-efficient models.
    What are the advantages and disadvantages of this approach and do 
you believe the Committee should have DOE study it and report to 
Congress?
    Answer. Japan's Top Runner program establishes energy conservation 
standards based on the most energy-efficient products on the market at 
the time of the standard setting process. Top Runner identifies the 
efficiency levels of the most efficient commercially available 
products, and uses this efficiency level as the baseline for which the 
corporate weighted average energy efficiency must meet or exceed. 
Unlike the U.S. system, this allows manufacturers to produce products 
that arc less efficient than the standard as long as the manufacturer 
compensates by producing very efficient models in sufficient quantities 
to ensure that the total shipment weighted average efficiency is 
greater than the standard. Additional differences include that the Top 
Runner program has a shorter time frame for the standard setting 
process however it lacks provisions for potential needs such as 
regional variation in standards.
    Although we see that key differences exist between the appliance 
standards programs in Japan and the U.S., we have insufficient 
information at this time to reach a conclusion on the merits of the Top 
Runner program. For example, while the corporate weighted average 
energy efficiency component of the Top Runner program allows for 
flexibility, it also makes enforcement more complicated, as it requires 
more data collection, record keeping, and verification of calculations. 
A more in-depth study of the Top Runner program would be needed to 
provide greater understanding of whether the differences that exist are 
advantages or disadvantages. This study would investigate areas such as 
support of innovation, speed of development, recognition of regional 
effects, relative magnitude of energy savings, cost of meeting 
standards, impact on the availability of product features, and 
manufacturer impacts.
    Question 5. You describe DOE's requirement to release 22 final 
rules by June 30, 2011, and that the Department is assessing the 
resource needs to meet these requirements.
    When will this assessment be complete and can a copy be made 
available to the Committee?
    Have decisions been made regarding the funding level for the 
program for fiscal year 2010, and if so can you summarize them?
    Answer. The program currently operates with a full-time staff of 11 
employees. The efficiency measures that were introduced in 2006 greatly 
increased the productivity of the Appliance Standards Program and 
allowed the program to meet its obligations through 2008. In the last 
three years, the program has issued almost as many rulemakings as were 
issued in the 18 prior years. Additionally, 23 new rulemakings were 
initiated.
    The additional workload to accomplish requirements from the 
EnergyIndependence and Security Act of 2007 (EISA) as well as other 
identified needs have created challenges for the program. Adding 
additional employees to the Appliance Standards Program and adjusting 
the program to meet growing demands will help overcome these 
challenges. A top priority is updating test procedures that have not 
kept pace with technological developments. Also, activities related to 
test procedures, such as petitions for waivers from DOE test procedures 
and verification of compliance with test procedure and efficiency 
standard requirements, need additional resources and attention. DOE 
will report back to the committee once the assessment of Appliance 
Standards resources has been completed.
     Responses of David Rodgers to Questions From Senator Murkowski
    Question 1. Please describe briefly how, in your opinion, this bill 
best improves upon the existing structure for updating appliance 
standards.
    Answer. The proposed bill would amend the requirements for the 
Department of Energy's (DOE's) consideration of a petition to establish 
amended energy conservation standards by adding time limits for DOE 
responses to petitions. The bill would require DOE to respond to a 
petition for an amended standard within 180 days and would require DOE 
to complete a rulemaking within three years from granting a petition.
    This petition process is, to a certain extent, redundant given the 
existing rulemaking requirements in the Energy Policy and Conservation 
Act (EPCA). Section 305 of the Energy Independence and Security Act of 
2007 (EISA) amended EPCA to require DOE to review the energy 
conservation standards for residential products and commercial 
equipment every six years.
    As structured, the bill may allow for some acceleration of 
rulemakings compared to the schedule set by the EISA amendments and 
thus deliver energy savings sooner. This would be dependent upon the 
quality and extent of information included in a petition. Petitions 
that contain detailed information relevant to a standard and recommend 
changes could encourage more robust rulemakings. Petitions submitted 
with little information or without recommendations as currently 
permitted in the proposed bill, could increase the burden on DOE to 
respond in a timely manner and impact resources needed for other 
rulemakings.
    Question 2. Please describe the different policy options available 
to greater deploy and use energy efficient technology.
    Answer. There are several policy options available to greater 
deploy and use energy efficient technology. These options include 
Research and Development (R&D), information, incentive, and regulatory 
programs.
    In addition to developing new technology, R&D programs include the 
establishment of performance metrics (e.g. EER, SEER, U-Values) and 
testing procedures to ensure standardization and also aid the 
commercialization and deployment of new technology. Technology 
competitions, like the L Prize, provide a bridge between R&D and the 
other deployment programs, and help to spur manufacturers to develop 
and deploy energy efficient technology. Programs such as the labeling 
programs (e.g., ENERGY STAR, the Federal Trade Commission's EnergyGuide 
and EnergySmart Home Scale (E-Scale) of Builders Challenge) help 
consumers understand energy performance and costs when shopping for a 
new product or home. Incentive programs are very effective in helping 
consumers overcome higher up front costs for efficient products that 
deliver net savings over the life of the product. Many of the incentive 
programs have been built on the information included in the education 
and labeling programs. Regulatory programs, such as the Department of 
Energy's appliance energy conservation standards program can be very 
effective at increasing deployment which results in significant energy 
savings.
    Question 3. Please describe an efficient process that could be 
undertaken to review test procedures within DOE.
    Answer. Test procedures are the foundation for consistent testing 
and measuring of product performance, and arc the foundation for both 
the appliance standards program and the ENERGY STAR program. For those 
products that fall under the mandatory appliance energy conservation 
standards program, DOE develops test procedures vetted through the 
formal rulemaking process. In many cases, DOE encourages and adopts 
test procedures that have undergone a rigorous industry vetting process 
in which both industry and non-industry stakeholders participate. These 
voluntary consensus test procedures arc a very efficient way to review 
and maintain test procedures as technology matures.
    For example, DOE requires that ENERGY STAR windows, doors, and 
skylights be tested under procedures maintained by the National 
Fenestration Rating Council. Such test procedures have been carefully 
vetted with DOE input and arc used as the basis for product 
qualification in residential and commercial building codes and 
standards across the U.S. and Canada.
    Question 4. Please describe a process that could be undertaken 
within the industry to ensure that there exists ``broad consensus'' 
regarding test procedures.
    Answer. Test procedures developed through notice and comment 
rulemaking provide the opportunity for all interested stakeholders to 
review and contribute, leading to test procedures that are transparent 
and apply equally to all. Furthermore, many DOE test procedures either 
incorporate by reference or are based on test procedures developed by 
other standards bodies (e.g., Air-Conditioning, Heating and 
Refrigeration Institute, American Society of Heating, Refrigerating and 
Air-Conditioning Engineers, International Organization for 
Standardization, International Electrotechnical Commission, 
Illuminating Engineering Society, Institute of Electrical and 
Electronics Engineers, National Electrical Manufacturers Association). 
Each organization has its own procedures for enabling public 
participation in their standards-development process. Typically, these 
standards bodies involve multiple stakeholder groups, including 
industry, DOE and other federal agencies, energy efficiency advocacy 
groups, utilities, states, trade associations and others in developing 
their test procedures. In addition, DOE has supported contractors, 
including staff from the National Institute of Standards and Technology 
(NIST), to participate in many of these processes.
    The Energy Policy Conservation Act as amended, requires DOE to 
review each test procedure on a seven-year cycle to determine if 
amendments are warranted. In carrying out this review, DOE will 
evaluate its test procedures as well as those developed by the relevant 
standards bodies, and will consider providing further support for those 
standards bodies that develop updated test procedures that meet the 
program's requirements.
    Question 5. Please describe options on how to ensure that solid 
state lighting (SSL) technologies are pursued in a cooperative fashion 
with both the DOE and EPA and interested stakeholders.
    Answer. This is an issue that DOE and EPA will specifically address 
as part of the process to improve coordination between the agencies. 
The Department and EPA plan to report back to the Committee on a 
resolution to this issue. The Department and EPA will focus on options 
that reduce confusion among consumers and manufacturers, provide 
consumers with efficient lighting choices with the features they want, 
clarify management roles for SSL, better utilize industry standards 
organizations for the development of test procedures, and align agency 
programs with the goals of the Next Generation Lighting Industry 
Alliance, and protect the integrity of the ENERGY STAR brand.
    Question 6. You stated that the Department is currently assessing 
the resources needs of the appliance standards team in light of the 
ambitious schedule you have taken on in order to meet your deadlines. 
Do you feel that you have or will have the workforce necessary to 
complete your objectives?
    Answer. Yes, the Department is taking steps to ensure it has 
adequate staff. The program currently operates with a full-time staff 
of 11 employees. That level is not adequate to meet all the existing 
appliance standards requirements, and additional staff are being hired. 
The efficiency measures that were introduced in 2006 greatly increased 
the productivity of the Appliance Standards Program and allowed the 
program to meet its obligations through 2008. In the last three years, 
the program has issued almost as many rulemakings as were issued in the 
18 prior years. Additionally, 23 new rulemakings were initiated. The 
Department is proposing additional measures to help sustain this 
increased level of efforts.
    A top priority is updating test procedures that have not kept pace 
with technological developments. Also, activities related to test 
procedures, such as petitions for waivers and verification of 
compliance, need additional resources and attention.
    Question 7. You spoke of your education campaigns Operation Change 
Out and Recycle my Old Fridge. Have these programs been effective? What 
do you find is the best incentive for consumers to move from older 
appliances to newer, more efficient ones?
    Answer. ENERGY STAR OPERATION CHANGE OUT--THE MILITARY CHALLENGE, a 
joint effort of the Department of Energy (DOE) and the Department of 
Defense (DOD), was launched on Earth Day of 2008 at Camp Lejeune and 
resulted in the immediate change-out of 17,500 inefficient, 
incandescent light bulbs with ENERGY STAR qualified compact fluorescent 
bulbs. As of April 2, 2009, 147 bases have joined the challenge with 
the Air Force at 100 percent participation of major commands in the 
U.S. Over 800,000 bulbs have been changed, saving over 214.6 million 
kWh, $53.8 million energy costs, and preventing over 175,000 metric 
tons of greenhouse gases over the lifetime of the bulbs.
    The ENERGY STAR, Recycle My Old Fridge effort focuses on drawing 
increased attention to the millions of inefficient refrigerators in 
homes throughout the U.S. and to the benefits of proper recycling and 
of replacing the inefficient models with ENERGY STAR qualified models. 
Begun in 2008, the program targets the 44.5 million households with 
refrigerators over ten years old and 16.9 million households with 
freezers over 10 years old. Combined, inefficient freezers and 
refrigerator-freezers use $4.9 billion per year in energy costs. Also 
an estimated 84.1 million households have a top-loading washer; or 
which 24 million of these are at least ten years old. Combined, the 
inefficient washers use $9 billion per year in energy and water costs.
    In early April, the Department will launch its 2009 campaign at 
www.energystar.gov/recycle, adding freezers and clothes washer 
information this year, with the updated names of ENERGY STAR, Make a 
Cool Change, and ENERGY STAR, Make a Clean Change.
    Consumers generally buy new appliances when their current units 
fail, but they also replace appliances as part of a kitchen remodel or 
to upgrade for aesthetic or performance reasons. Consumers may be 
motivated to select an ENERGY STAR model for a number of reasons, 
including: energy bill savings, financial incentives from the retailer 
or manufacturer, rebates from their local utility, and a State-level 
sales tax holiday. Some also choose ENERGY STAR models for their unique 
performance features, e.g., the larger capacity of ENERGY STAR clothes 
washers. In addition to steering consumers towards ENERGY STAR when 
buying a new appliances, DOE encourages consumers to get rid of old 
``second refrigerators'' that are often found in garages and basements. 
A number of utilities run programs designed to remove old inefficient 
refrigerators from the grid by paying a small financial incentive to 
customers who agree to have their old unit picked up and recycled.
    Sometimes non-financial factors can motivate decisions to replace 
with ENERGY STAR products. DOE and EPA regularly promote the energy and 
environmental benefits of using ENERGY STAR products. During OPERATION 
CHANGE OUT DOE also found that competitive peer pressure among the 
military bases helped spur investment in efficient lighting.
    Question 8. Do you think we should try to use the power of the 
Energy Star brand and the awareness of it by consumers to help out in 
other areas that we want to see rapid development in, like demand 
response technologies, distributed storage devices, smart meters and 
other smart grid technologies?
    Answer. The Department believes the ENERGY STAR brand can be used 
to promote certain new energy saving technologies. The brand can lead 
both established markets such as refrigerators or dishwashers, and new 
markets, such as highly efficient water heaters and solid state 
lighting. The Department has successfully launched water heater and 
solid state lighting initiatives and has seen market entry of qualified 
products. However, without the availability of the ENERGY STAR label, 
these products may have been stuck on manufacturers' drawing boards.
    Expanding the program to cover demand response technologies, 
distributed storage devices may be able to help consumers and 
businesses make wise purchases. However, much work would need to be 
done before the Department could determine whether ENERGY STAR could 
assist in the marketing of these products, and, if so, what criteria 
should be used to qualify eligible products. Further, substantial 
changes in the market place for how energy is priced may be important 
for consumers to see benefits from some of these technologies. However, 
the potential contribution of these technologies to peak load reduction 
and energy savings is large enough to warrant a thorough evaluation of 
ENERGY STAR labeling.
    Question 9. Please further describe the timeframe you will 
undertake to accomplish your recommendation to improve interagency 
coordination of the ENERGY STAR Program. Please describe how you will 
work with Program stakeholders to improve the success of the ENERGY 
STAR Program.
    Answer. The Department of Energy (DOE) made a commitment at the 
March 19, 2009, Senate Energy and Natural Resources Committee hearing 
on the Appliance Standards Improvement Act of 2009, to resolve inter-
agency coordination issues within 45 days. This process has already 
begun and is expected to culminate in mutual agreement.
    ENERGY STAR has become the Nation's most visible and consistent 
symbol of energy and resource efficiency. ENERGY STAR can become an 
even more important tool to achieve energy efficiency goals in the 
future.
    Energy efficiency technologies and programs are more critical than 
ever given the growth of peak electricity prices and variable natural 
gas prices and the challenge of addressing global climate change. The 
Department will explore working with its ENERGY STAR partners to 
promote efforts to (a) tap into the power of the private sector to 
deliver savings, (b) focus end-users on comprehensive, efficiency-based 
solutions, and (c) establish a mechanism by which all public sector 
policy actors with a legitimate interest in energy efficiency can focus 
their energies on overcoming barriers in the efficiency marketplace.
    Whereas simple dollar savings and an environmental message have 
been the mainstays of ENERGY STAR consumer marketing, broadening the 
impact on the commercial and industrial sectors would require more 
specific rationales for improving energy performance. The Department 
believes that ENERGY STAR has the potential to remain both a strong, 
consistent call to action for end-users as well as a strong 
``rationalizing force'' in the efficiency marketplace.
    Question 10. Please describe the administrative tools you have to 
improve the overall efficiency of appliances. What other tools do you 
believe are necessary to ensure that we continue to achieve greater 
success within this area?
    Answer. There are several administrative tools available to greater 
deploy and use energy efficient technology. These options include 
Research and Development (R&D) programs, information programs, 
financial incentives, and regulatory programs.
    R&D programs, besides developing new technology, also include the 
establishment of performance metrics (EER, SEER, U-Values, etc) and 
testing procedures to ensure standardization and to aid the deployment 
of new technology. Information deployment programs such as the labeling 
programs used by ENERGY STAR and the Federal Trade Commission's 
EnergyGuide program help consumers understand energy performance and 
costs when shopping for a new product or home. The American Recovery 
and Reinvestment Act (Recovery Act) provides for financial incentives 
for American consumers to buy energy efficient ENERGY STAR products to 
replace old appliances. Per the Recovery Act, approximately $300 
million will be allocated to states to develop and administer the 
ENERGY STAR appliance rebate programs. Regulatory programs, such as 
DOE's appliance energy conservation standards program, provide the 
strongest form of deployment which results in significant energy 
savings. Working with product manufacturers, designers, utilities, 
consumers, and other government agencies, this program area develops 
test procedures and sets minimum efficiency standards for residential 
appliances and commercial equipment. DOE does not believe it needs 
additional tools to ensure deployment of energy efficient technologies.
    Question 11. One area of concern regarding the Standards Program 
has been the turn around time in ensuring that test procedures and 
energy conservation standards are monitored and updated as needed. 
Please describe how you will address these concerns.
    A primary technique for accelerating development of test procedures 
is to work with industry standards organizations (e.g. ASHRAE, ISO, 
NEMA). The Department has the authority to adopt voluntary consensus 
proposals and will work closely with standards organizations to 
accelerate the modernization of existing test procedures.
    Answer. The Department is taking steps to ensure it has adequate 
staff in order to meet the turn around times. In the last three years, 
the program has issued almost as many rulemakings as were issued in the 
18 prior years. Additionally, 23 new rulemakings were initiated. The 
Department is proposing additional measures to help sustain this 
increased level of efforts. A top priority is updating test procedures 
that have not kept pace with technological developments. Also, 
activities related to test procedures, such as petitions for waivers 
and verification of compliance, need additional resources and 
attention.
    Question 12. Within your testimony you reference that you arc doing 
all that you can to examine and review operations to be even more 
efficient and productive--can you please further elaborate what these 
operations entail?
    Answer. In its January 2006 report to Congress, the Department of 
Energy (DOE) released its multi-year schedule to eliminate backlogged 
appliance standards, while keeping up with the new requirements of the 
Energy Policy Act of 2005. Since then, the productivity of the 
appliance standards program has substantially increased. DOE has 
accomplished this by implementing rule-making process improvements, 
such as ``technology grouping,'' ``cross-cutting strategy meetings,'' 
``bundling,'' and ``valley filling.'' Such management tools enable DOE 
to take advantage of economies of scale for rulemakings that are 
related or have certain common elements, and to maximize rulemaking 
capacity.
    DOE's analysis teams are grouped by technology. Each team 
specializes in one or more common area, such as lighting, heating, home 
appliances, etc. This enables individual teams to become experts within 
their specialty, and increases the overall resource and knowledge-base 
sharing to accelerate the productivity of the program.
    Weekly cross-cutting strategy meetings have significantly enhanced 
the program's productivity. Meeting attendees include all the appliance 
standards program staff, as well as representatives from DOE General 
Counsel and Policy and International Affairs. The meetings give all 
parties the opportunity to discuss overarching rulemaking matters that 
affect all teams, and enable DOE project managers to more efficiently 
apply strategies across multiple rulemakings.
    Bundling increases productivity by combining multiple products into 
a single standard or test procedure rulemaking. DOE considers bundling 
when there is significant overlap among manufacturers that produce a 
particular product, have multiple products in common, or where the 
technologies and issues are related. Further, a single trade 
association may cover multiple products that are identified in 
different rulemakings and, therefore, many of the same manufacturers 
are able to review the DOE analyses and attend a single public meeting. 
When multiple products are consolidated into a single rulemaking, one 
project manager can oversee all the related rulemaking activities and 
thereby leverage DOE resources.
    At certain times, there can be a break in the analysis activity for 
a particular rulemaking. Breaks in analysis activities include 
internal/external technical reviews, mandatory concurrence by other DOE 
offices, and public comment periods. At such times, DOE uses valley 
filling as a management technique to refocus a rulemaking team's 
efforts to another related rulemaking. Essentially, valley filling 
combines a 36-month scheduled rulemaking with an overlapping 
rulemaking. Thus, the total time to complete the combined rulemaking 
activities is less than if the related activities were performed 
sequentially.
    With respect to the acceleration of the schedule presented along 
with the January 2006 Report to Congress and the addition of subsequent 
requirements in EISA 2007, DOE is losing some of its valley-filling 
benefits while expanding output. In effect, by accelerating the 
schedule, DOE is paralleling work that had originally been intended to 
be interwoven. While paralleling work enables the program to accomplish 
more in the same time, it does require greater resources. DOE continues 
to seek out productivity enhancements and is continually evaluating its 
processes.
      Response of David Rodgers to Question From Senator Barrasso
    Question 1a. Improving appliance energy efficiency is an important 
component of keeping consumers' energy bills down.
    The Energy Star program has helped consumers make informed 
decisions regarding energy efficiency products.
    It has also raised consumer awareness of the issue and encouraged 
manufacturers to improve efficiency.
    There are, however, products made by small businesses in my state--
innovative, energy-conserving products--that have faced challenges with 
the Energy Star program.
    Are heating devices, like space heaters, currently included in the 
Energy Star Program?
    Answer. Certain space heating products such as furnaces, boilers, 
electric air-source heat pumps, and geothermal heat pumps are labeled 
by the Environmental Protection Agency (EPA) under the ENERGY STAR 
program. However, space heaters (i.e., vented and unvented room 
heaters) are not labeled as ENERGY STAR qualified products. Space 
heaters have been evaluated by EPA for inclusion in the program but DOE 
understands that there are no plans to label them at this time.
    Question 1b. Improving appliance energy efficiency is an important 
component of keeping consumers' energy bills down.
    The Energy Star program has helped consumers make informed 
decisions regarding energy efficiency products.
    It has also raised consumer awareness of the issue and encouraged 
manufacturers to improve efficiency.
    There are, however, products made by small businesses in my state--
innovative, energy-conserving products--that have faced challenges with 
the Energy Star program.
    Do residential heating systems that independently generate 100 
percent of their power from an attached solar or wind power source 
qualify for consideration? If not, why?
    Answer. The Department of Energy (DOE) has included solar water 
heaters as part of the ENERGY STAR program effective January 1, 2009, 
although these systems do not generate 100 percent of their power needs 
from renewable energy due to the need for backup power. Additionally, 
DOE is currently evaluating photovoltaic technologies and small wind 
turbine technologies for inclusion into the ENERGY STAR program.

                                    

      

</pre></body></html>
